<html>
<title> - ORGAN MOUNTAINS-DESERT PEAKS WILDERNESS ACT</title>
<body><pre>[Senate Hearing 111-384]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-384
 
                     ORGAN MOUNTAINS-DESERT PEAKS 
                             WILDERNESS ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

 RECEIVE TESTIMONY ON S. 1689 ORGAN MOUNTAINS-DESERT PEAKS WILDERNESS 
                                  ACT

                               __________

                   LAS CRUCES, NM, FEBRUARY 15, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
56-084                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bates, Jim, Resident, Las Cruces, NM.............................    48
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Cadena, Michael M., Mayor, Town of Mesilla, NM...................    10
Cooper, Tom, Rancher and Former Chairman, People for Preserving 
  Our Western Heritage...........................................    22
Duarte-Benavidez, Leticia, Commissioner, District 5 and Past 
  Commission Chair, Dona Ana County Board of Commissioners.......     4
Dubois, Frank A., Former New Mexico Secretary of Agriculture, 
  1988-2003......................................................    29
Esslinger, Gary, Treasurer-Manager, Elephant Butte Irrigation 
  District, Las Cruces, NM.......................................    18
Hummer, John L., Chair of the Board of Directors, Greater Las 
  Cruces Chamber of Commerce.....................................    25
Munoz, John P., Director Sitel, Hispano Chamber of Commerce, Las 
  Cruces, NM.....................................................    45
Thomas, Sharon, Mayor Pro Tem, Councilor, District 6, Las Cruces, 
  NM.............................................................     7
Small, Nathan P., Conservation Coordinator, New Mexico Wilderness 
  Alliance.......................................................    41
Teague, Hon. Harry, U.S. Representative From New Mexico..........    17
Trevino, Rolando, Director, Engineering, Western Pipeline 
  Engineering Projects, El Paso Natural Gas......................    52
Udall, Hon. Mark, U.S. Senator From Colorado.....................     2

                                APPENDIX

Additional material submitted for the record.....................    61


              ORGAN MOUNTAINS-DESERT PEAKS WILDERNESS ACT

                              ----------                              


                       MONDAY, FEBRUARY 15, 2010

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                             Las Cruces, New Mexico
    The Committee met, pursuant to notice, at 2:30 p.m. in the 
Eastside Ballroom, Corbett Center, New Mexico State University, 
Las Cruces, New Mexico, Hon. Jeff Bingaman, Chairman of the 
Committee, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we get started here? Why don't we 
get started, can people hear me in the back? Hello? Hello?
    The Chairman. All right, we're ready to go here.
    The Chairman. Thank you all very much for coming today, and 
spending a beautiful Monday afternoon here focused on this 
issue with us.
    This is a official hearing of the Senate Committee on 
Energy and Natural Resources and the purpose of it is to hear 
testimony on S. 1689; that's a bill that Senator Udall and I 
introduce to designate lands that are managed by the Bureau of 
Land Management in the Organ Mountains and the Uvas and the 
Robledo Mountains as wilderness area or as national 
conservation areas.
    Last October this same committee, the Senate Energy 
Committee, held a hearing on this bill in Washington, DC. At 
that time, the committee heard testimony from the Department of 
Interior from the Dona Ana County Commissioner, Oscar Vasquez 
Butler and Jerry Shickendanz. However, there were several 
people who were interested in the issue who asked that we 
consider having a second hearing here in Las Cruces to allow 
additional views to be considered, and that's the purpose of 
today's hearing.
    We're fortunate to have 3 panels of very distinguished 
witnesses today which can better help us to understand the very 
diverse views on Federal land management here in Dona Ana 
County.
    Let me take a few minutes to just summarize how we arrived 
at this point. The issue of how to best manage the public lands 
in Southern New Mexico and in Dona Ana County has been an issue 
that has been intensely discussed and debated for many years. 
Beginning in the 1980s, the BLM began the formal process of 
identifying wilderness study areas. In the early 1990s under 
George W. Bush, President George W. Bush--no, excuse me, George 
H.W. Bush, excuse me I had, left out an initial there--and his 
Secretary of the Interior Manuel Dujan, they recommended 
certain BLM lands in Dona Ana County for wilderness 
designation.
    Under the Wilderness Act, lands can only be formally 
designated as wilderness by acts of Congress and that is, of 
course, part of what is being considered in this legislation.
    Legislation to address the protection of the Organ 
Mountains and other areas was first raised by Senator Domenici 
in 2005 when he circulated draft legislation to protect 
existing wilderness study areas, also to authorize the sale of 
BLM lands on the West Mesa.
    Separately, conservation and sportsman's groups developed a 
citizens' proposal that called for protection of a larger area 
than was contemplated in Senator Domenici's proposal, and 
subsequently the city of Las Cruces and Dona Ana County held 
numerous local meetings and forwarded their findings to the 
entire Congressional delegation.
    Since then the County, the City, the Town of Mesilla and 
the city of El Paso have all adopted resolutions supporting 
wilderness designation in some areas.
    Senator Udall and I have worked to develop a proposal that 
tries to find an appropriate balance between allowing for 
development opportunities while providing for the protection of 
environmentally important public lands. This involved multiple 
years of meetings with many parties interested in the issue. 
Following those meetings, we modified many proposed wilderness 
boundaries to address the issues that had been raised, 
including the issues of border security, flood control, 
development plans, military needs, access for ranchers, 
sportsmen and the public, and we put together a paper that 
identifies the changes that were made to the initial proposal, 
and I believe that's been made available to many of you, if not 
there are copies of that as you leave today.
    It's my sense that there is community support in Dona Ana 
County to provide additional protection for important public 
lands in the County.
    Before I call on Senator Udall for his comments, let me 
take a few moments to thank the New Mexico State University 
staff who were so helpful in allowing us to hold this hearing 
here on campus this afternoon, especially Ben Woods, Ricardo 
Rell, Aggie Saltman, and Rebecca Hawkiss for all of their hard 
work to make this possible.
    I'm informed that Congressman Teague is in Las Cruces today 
and hopes to be here later in the afternoon. At this time, let 
me call on Senator Udall for any comment he would like to make 
before we call forward any of the witnesses.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you very much Chairman Bingaman, and 
thank you to all of you. It's wonderful to see such a large, 
large crowd today.
    Chairman Bingaman, I want to thank you for holding this 
important field hearing and the communities of Dona Ana County 
for welcoming us here today and I'd like to associate myself 
also with your remarks which, I think, show the incredible 
effort that your committee has made working with a local group 
and working with everyone that has been out here and been 
interested in the public lands with trying to build some 
consensus around the proposal of public lands in Dona Ana.
    It's wonderful to see such a large crowd of citizens 
interested in the proposed Organ Mountains-Desert Peaks 
Wilderness Act. I appreciate, very much, the efforts of Senator 
Bingaman and his staff on the Energy and Natural Resources 
Committee that made this hearing possible.
    This is a great opportunity to hear directly from 
representatives of the communities and the organizations that 
are directly impacted by this legislation.
    It's a pleasure to be in Las Cruces in the shadow of the 
iconic Organ Mountains. The landscape of this area is unique 
and beautiful and surely it's why many of you chose to live in 
Dona Ana County.
    S. 1689, the Organ Mountains-Desert Peaks Wilderness Act, 
seeks to preserve some of the natural beauty of this area into 
perpetuity. This hearing is a welcome opportunity to further 
examine the merits of the bill and to find areas for 
improvement. I look forward to hearing from each of the 
witnesses and appreciate their willingness to participate in 
this important part of the legislative process. I want to thank 
all of you--I had 15 or 20 minutes, here, to visit on the way 
in, and just thank all of you for your comments on the way in.
    So, with that, Senator Bingaman, I'll yield my time back, 
and onto the hearing.
    The Chairman. OK, let me just start by indicating that, as 
I said before, we did have a hearing in Washington. We had the 
Deputy Director of the Bureau of Land Management provide 
testimony expressing the Administration position which, I'm 
pleased to note was in support of the legislation. Because the 
BLM has already provided testimony, we do not have a BLM 
witness testifying today, but representatives from the BLM, New 
Mexico State office are here to answer any questions that 
arise, and we will decide whether and when to call on them, 
depending upon what issues are raised.
    I'd like to welcome Bill Childress, who is the Las Cruces 
Office District Manager, here.
    The Chairman. Tom Phillips is the Recreation, Cultural and 
Wilderness Supervisor in the Las Cruces Office, and James 
Sipple is the National Landscape Conservation System Program 
Lead.
    The Chairman. We appreciate them being here. Lisa Morrison, 
is she also here? Yes, she is. We're very glad to have her.
    The Chairman. As I say, they will not be testifying, but 
they may be needed to answer questions if questions arise. I 
also want to thank Linda Rondel who's the BLM State Director 
here in New Mexico, she's been very helpful to us in the work 
that's been done on this proposal, and we will include a copy 
of the BLM's official testimony in the hearing record for this 
hearing, as well.
    Our first panel of witnesses includes local government 
representatives. Let me just state who those witnesses are. 
First is Commissioner Leticia Duarte-Benavidez, she's here 
representing the Dona Ana County Commission.
    The Chairman. Sharon Thomas, who is the Mayor Pro Tem for 
the city of Las Cruces.
    The Chairman. Mayor Michael Cadena who is the Mayor of the 
Town of Mesilla, is here.
    The Chairman. If they would all take chairs up here at the 
witness table, we will get started.
    We've asked all witnesses to try to summarize their 
testimony and just give us 5 or 6 minutes of oral comments 
about the important issues that they think we need to 
understand that they draw from their comments.
    Let me state, also, that I understand there are many people 
who have strong views on this issue--some in favor of parts of 
the legislation, some opposed to parts of the legislation. 
Everyone who is here, and anyone in the sound of my voice, is 
welcome to submit written comments to be included in the formal 
hearing record. We'll keep that record open for the remainder 
of this week. I think we will try to close the record as of the 
close of business Friday, today being Monday I think that will 
give people time enough to develop statements if they want to 
submit something for the official record.
    If you have a written statement, you can either give it to 
us today, or you can bring it by Senator Udall's office, or you 
can bring it by my office here in town. Another easy way to 
submit testimony is to email it directly to the committee, this 
Committee on Energy and Natural Resources. That address would 
be <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfabbaacabb6b2b0b1a69fbab1baadb8a6f1acbab1beabbaf1b8b0a9f1">[email&#160;protected]</a> So, any of you that wanted to 
do that through use of the internet are welcome to do that.
    So, with that, let's begin the first panel and Leticia why 
don't you go ahead and give us your views on this issue 
representing the County and then we'll call on the 2 mayors.

 STATEMENT OF LETICIA DUARTE-BENAVIDEZ, COMMISSIONER, DONA ANA 
                     COUNTY, DISTRICT 5, NM

    Ms. Duarte-Benavidez. Can you hear me?
    The Chairman. You may want to hold--these microphones are 
such that you may want to just take them out of the thing and 
hold them right in front of your mouth. I think they work 
better that way.
    Ms. Duarte-Benavidez. Thank you.
    Thank you, Chairman Bingaman and Senator Udall for the 
invitation to testify on S. 1689, the Organ Mountains Desert 
Peaks Wilderness Act. Protecting our mountains has been a 
community supported effort for many years, and this community 
is everything to me.
    I was born and raised in the Mesilla Valley. After 
attending Mayfield High School, I went on to New Mexico State 
University, and I graduated with a Bachelors Degree in Social 
Work and an Associates Degree in Police Science. I worked at 
Dona Ana County for 25 years. Upon retiring, I ran for, and was 
elected to, the Dona Ana County Commission, representing 
District 5.
    Growing up, my family went on picnics in the Organ 
Mountains. I recall the excitement that would take hold as we 
left the valley, heading toward the towering peaks and cool 
breezes awaiting above. I am pleased to note that, with passage 
of S. 1689, families many generations from now will have that 
same opportunity--to enjoy the small slice of solitude while 
outside of the bustling Las Cruces metropolitan area.
    In high school I joined Junior ROTC. One year, our 
commanding colonel led our group on an exciting adventure up 
and over Baylor Pass, beginning at Baylor Canyon Road. We all 
certainly enjoyed the trip, especially the warm meals prepared 
by our parents on the other side of the mountain in Aguirre 
Springs Campground. Again, I note with pleasure that, when S. 
1689 passes, this same experience will be preserved forever for 
our young people who call this region home.
    I took some time off in Albuquerque and while up there, 
friends and I went hiking in the Sandia Mountains. Albuquerque 
was then and remains today fortunate to have its mountains 
receive wilderness protections.
    Going back as far as 2004, the Dona Ana County Board of 
Commissioners has formalized resolutions calling on Federal 
protections for the Organ, Robledo, Dona Ana, Potrillo, and 
Sierra de Las Uvas Mountains along with Broad Canyon. These 
resolutions have been passed as legislative efforts began with 
former Sen. Pete Domenici, and are now maturing under Senators 
Jeff Bingaman and Tom Udall.
    Places to be protected in S. 1689 represent the natural 
beauty that is loved by natives of Dona Ana County and which 
has attracted thousands of new residents to Southern New 
Mexico. The Dona Ana County Board of Commissioners has 
consistently been supportive of these protective designations 
that will preserve the area's beauty for coming generations. 
The Dona Ana County Mountains NCA boundary has adjusted to 
account for roads that will be necessary as our community 
continues growing.
    Similar adjustments along the proposed Weisner Road will 
help meet our community's transportation needs far into the 
future, while still protecting ample open spaces along the 
apron of the Organ Mountains.
    I know the legislation was altered to make room for larger 
transmission corridors and petroleum pipelines in the southern 
part of Dona Ana County was built in through boundary 
modifications. Several flood control structures were excluded 
to provide for unimpeded maintenance, and even larger 
designation changes were made when proposed wilderness areas 
were switched to national conservation areas. Many changes were 
made for cattle ranching; huge swaths of land were excluded 
from wilderness protection near the border for border security.
    Much work has gone into this legislation. There have been 
numerous public meetings. We've seen dozens of news articles 
and the topic has been discussed at great length in the local 
press. Tours, forums, and conferences have all come and gone. 
Most importantly, Senator Bingaman's staff has held direct, in-
person meetings countless times with stakeholders, including 
Dona Ana County. I am pleased that today's hearing will move us 
an important step toward enactment of S. 1689, the Organ 
Mountains-Desert Peaks Wilderness Act.
    We believe the will of the people has been heard and the 
compromises have led us to this point in the process have 
crafted an outstanding proposal. I urge quickly Congressional 
consideration of the proposed designations as soon as possible.
    Thank you.
    [The prepared statement of Ms. Duarte-Benavidez follows:]

Prepared Statement of Leticia Duarte-Benavidez, Commissioner, District 
  5 and Past Commission Chair, Dona Ana County Board of Commissioners

    Thank you, Chairman Bingaman and Senator Udall for the invitation 
to testify on S. 1689, the Organ Mountains Desert Peaks Wilderness Act. 
Protecting our mountains has been a community supported effort for many 
years, and this community is everything to me. I was born and raised in 
the Mesilla Valley. After attending Mayfield High School, I went on to 
New Mexico State University, and ultimately graduated with a Bachelors 
Degree in Social Work and an Associates Degree in Police Science. 
Directly after college I went to work helping the children of migrant 
farm workers. I then moved to Dona Ana County, where I am proud to have 
worked for over 25 years. Upon retiring, and at the urging of friends, 
family, and coworkers, I ran for, and was elected to, the Dona Ana 
County Commission, representing District 5.
    Growing up, my family often went on picnics in the Organ Mountains. 
I recall the excitement that would take hold as we left the valley, 
heading toward the towering peaks and cool breezes waiting above. We 
would walk in a little ways and then just enjoy the afternoon. I am 
pleased to note that, with passage of S. 1689, families many 
generations from now will have that same opportunity--to enjoy a small 
slice of solitude while just outside of the bustling Las Cruces 
metropolitan area.
    In high school I joined Junior ROTC. One year, our commanding 
colonel led our group on an exciting adventure--up and over Baylor 
Pass, beginning at Baylor Canyon Road. We went in winter to avoid 
rattlesnakes, but one couldn't avoid the incredible experience of 
walking with friends and classmates, and the Colonel's huge St. 
Bernard. I didn't take enough water that trip, and held the dog's leash 
so it could help give me the extra oomph to make it through. We all 
certainly enjoyed the trip--especially the warm meals prepared by our 
parents on the other side of the mountain in Aguirre Springs 
Campground. Again, I note with pleasure that, when S. 1689 passes, this 
same experience will be preserved forever for our young people who call 
this region home.
    I will relate one last personal experience. During college, I took 
some time off to live in Albuquerque. While up there, friends and I 
went hiking in the Sandia Mountains. I know now that this area had just 
been given wilderness protections. Those many years ago, my friends and 
I admired Albuquerque far below, and were thankful that within such a 
short reach we had the chance to escape just a little bit. Albuquerque 
was then and remains today fortunate to have its mountains receive 
wilderness protections.
    As you may well imagine, the Dona Ana County Board of Commissioners 
has high regard for our area mountains, and we have been carefully 
watching the process by which wilderness legislation is being crafted.
    Going back as far as 2004, the Dona Ana County Board of 
Commissioners has formalized resolutions calling for federal 
protections of the Organ, Robledo, Dona Ana, Potrillo, and Sierra de 
Las Uvas Mountains along with Broad Canyon. These resolutions have been 
passed as legislative efforts began with former Sen. Pete V. Domenici, 
and are now maturing under Senators Jeff Bingaman and Tom Udall. The 
lands under consideration for wilderness and national conservation 
areas are representative of the natural beauty that is so loved by 
natives of Dona Ana County and which has attracted untold thousands of 
new residents to southern New Mexico. The Dona Ana County Board of 
Commissioners has consistently been supportive of these protective 
designations that will preserve the area's beauty for coming 
generations.
    Protecting the natural beauty of our mountains is incredibly 
important. So too is balancing our region's rapid growth and need for 
community and regional planning to prosper with this growth. Because of 
the vast number of stakeholders who had input into the Organ Mountains-
Desert Peaks Wilderness Act, this legislation helps here as well.
    One example is Dona Ana Mountains NCA boundary. It was adjusted to 
account for roads that will be necessary as our community continues 
growing. Similar adjustments along the proposed Weisner Road will help 
meet our community's transportation needs far into the future, while 
still protecting ample open space along the ``apron'' of the Organ 
Mountains.
    I know of many examples where, because of outside input, the 
legislation was altered. Room for larger transmission corridors and 
petroleum pipelines in the southern part of Dona Ana County was built 
in through boundary modifications. Several flood control structures 
were excluded to provide for unimpeded maintenance, and even larger 
designation changes were made when proposed wilderness areas were 
switched to national conservation area. Many changes made for cattle 
ranching infrastructure are also apparent, while huge swaths of land 
were excluded from wilderness protections near the border to better 
promote border security.
    An extraordinary amount of work has gone into this legislation. 
There have been numerous public meetings on weekends and weekdays, at 
night and during the day. We've seen dozens of news articles and the 
topic has been discussed at great length in the local press. Tours, 
forums, and conferences have all come and gone. Most importantly, 
Senator Bingaman's staff has held direct, in person meetings countless 
times with stakeholders, including Dona Ana County. All of this points 
to what I began with--protecting our mountains has enjoyed strong 
community support over a number of years. I am pleased that today's 
hearing will move us an important step forward toward enactment of S. 
1689, the Organ Mountains-Desert Peaks Wilderness Act.
    We recognize that not every group is happy with all facets of the 
proposed legislation. However, based on the years of public input that 
are capped by today's hearing, we believe the will of the people has 
been heard and the compromises that have led us to this point in the 
process have crafted an outstanding proposal. I urge quick 
Congressional consideration of the proposed designations as soon as 
possible.
    Thank you.

    The Chairman. Thank you very much. Senator Udall and I will 
have some questions, but we'd like to hear from the other 2 
witnesses first.
    Sharon Thomas, Mayor Pro Tem, city of Las Cruces, thank you 
for being here.

STATEMENT OF SHARON THOMAS, MAYOR PRO TEM, CITY OF LAS CRUCES, 
                         DISTRICT 6, NM

    Ms. Thomas. Thank you.
    Good afternoon, it's my great pleasure to be here today. I 
am the Las Cruces City Councilor for District 6 and also the 
mayor pro tem.
    My district is the east side of Las Cruces, closest to the 
Organ Mountains. As you mentioned earlier, many of my 
constituents have chosen to live in District 6 precisely 
because of the proximity to the Organ Mountains and their ever-
changing drama and many of them are in the audience here today.
    Consequently, the majority of residents in District 6 
wholeheartedly support conservation of our natural areas 
through Wilderness and National Conservation Area designations. 
Of course, the entire city council has expressed overwhelming 
support through our resolution which we passed unanimously in 
support of this legislation.
    Over the years, I have watched the effort to preserve not 
only the Organ Mountains, but many of the natural areas in our 
region--the Robledo's fossil trackways, the desert grasslands 
in the Portillos, Broad Canyon's special riparian areas and 
more.
    In recent months, as the legislation has been fine tuned, 
the staff members have worked long hours to ensure that the 
designated lands--both Wilderness and National Conservation--
will also accommodate all users. A number of concerns of 
special interest to the City have also been addressed and I'd 
like to say a little bit about those.
    Those of us who live on the east side of Las Cruces have 
long feared that development might some day march up the side 
of the Organ Mountains, destroying not only their majestic 
grandeur but also the fragile ecological systems that exist 
there. There is considerable agreement across the community 
that we would like to see Weisner Road, near the base of the 
mountains, eventually become the eastern edge of the city. In 
the current draft of this legislation, the National 
Conservation Area now begins just east of Weisner Road; thus 
allowing for development on both sides of that road, but not 
beyond that area.
    Adequate right of way--as Commissioner Benavidez 
mentioned--for the future utility infrastructure is also very 
important. Future growth is always a concern. All of the 
utility suppliers in the area have been contacted to make sure 
that the areas we will need for future expansion will be 
available when that time comes. Of course, we can not expect to 
grow our city if we can't provide electricity, gas, and water, 
and those concerns have been met.
    Summer flooding is also a big problem in our area. 
Sometimes people move here from the Midwest and they fill in 
that big hole in their front yard that they didn't realize was 
a retention pond. So, aside from that--but again, here, the 
drafters of the legislation have been extremely accommodating. 
They've removed or changed designation in Broad Canyon and 
other areas so that structures used for flood control can be 
constructed and maintained.
    Finally, because we are in a border region, security is 
also a concern. In the latest draft of the legislation, many 
thousands of acres have now been made available for border 
security operations.
    These and other provisions in the current draft of this 
legislation give both city officials and residents confidence 
that the needs of our Border patrol have been met and we can 
rest assured that our safety concerns are being addressed.
    Currently, the city of Las Cruces and Dona Ana County are 
working together on a regional comprehensive plan. In the 
public input meetings that have gone on over the last couple of 
years, residents have expressed very high interest in the 
preservation of open space and agriculture and ranching areas. 
For these people, the wilderness and the NCA designation of our 
most precious natural areas will be widely celebrated. In 
addition, we appreciate the efforts to allow grazing to 
continue on those lands that are already designated Wilderness 
Study Areas and have been for some time.
    Natives, newcomers and visitors to our area often choose to 
hike the Organs, explore the trackways of the Robledos--now a 
National Monument--or investigate the unusual beauty of Broad 
Canyon. The preservation of these areas ensures future access 
for generations to come, contributes to the popularity of our 
city as a location for retirees, helps us preserve cultural and 
historical features, and is an important factor in our area's 
economic well being.
    In the city of Las Cruces, there is broad support for the 
preservation of our natural areas and we are very grateful to 
our senators for their leadership on the Organ Mountains--
Desert Peaks Wilderness Act. They and their staffs have shown 
an astonishing commitment to their responsibility to respond to 
the concerns of all the stakeholders in the region. I believe 
you have found an appropriate balance.
    I urge you to move forward with all possible haste so that 
we can preserve our iconic landscapes, protect our recreational 
and cultural resources, manage our watersheds, ensure the 
safety of the border, and continue to grow our economy.
    Thank you for the opportunity to speak to you today about 
this historic legislation.
    [The prepared statement of Ms. Thomas follows:]

Prepared Statement of Sharon Thomas, Mayor Pro Tem, Councilor, District 
                           6, Las Cruces, NM

    Good Afternoon, Honored Chair and Committee Members
    It's my great pleasure to be here at Sen. Bingaman's invitation to 
participate in this hearing. I am the Las Cruces City Councilor for 
District 6 and, also, the mayor pro tem. I'm honored to represent the 
City of Las Cruces and our over 90,000 residents.
    My district is the area that lies along the east side of Las 
Cruces, closest to the Organ Mountains. Residents in my district are 
passionate about their love of the Organ Mountains. Many of my 
constituents have chosen to live in District 6 precisely because of the 
proximity to the Organ Mountains and their ever-changing drama, one of 
New Mexico's top natural wonders. Consequently, the majority of 
residents in District 6 whole-heartedly support conservation of our 
natural areas through Wilderness and National Conservation Area 
designations. And, of course, we have overwhelming support from our 
city council members who have unanimously passed a resolution in 
support of this legislation.
    I also have a special link to those mountains. I first came to Las 
Cruces in the early 1990s when our son was in graduate school at New 
Mexico State University. I can clearly recall the sweeping grandeur of 
the Mesilla Valley that came into view as we came over the San Agustin 
Pass and into the valley below.
    A few years later, when our son and his girlfriend were nearly 
finished with their education at New Mexico State University, they 
decided to open a cafe in Las Cruces. Because of our love of the Organ 
Mountains and the gorgeous purple/red color they turn when the sun is 
setting in the west, we named our restaurant and coffee bar, the Red 
Mountain Cafe. Due to my husband's role in the local arts community 
(he's a poet), the Red Mountain Cafe became a gathering place for 
artists and writers and musicians. The walls were soon adorned with 
photos and paintings of the red Organ Mountains. We even acquired a 
tile mosaic of sunset on the Organs. We sold the cafe in 2003, but it 
remained a local favorite until late last year when the third owner 
finally closed the doors.
    I have watched the slow but persistent movement of the effort to 
preserve not only the Organ Mountains, but many of the other natural 
areas in our region--the Robledo's fossil trackways, the desert 
grasslands in the Portillo Mountains, Broad Canyon's special riparian 
areas and more. I'm delighted to endorse and encourage passage and 
Presidential signature of Senate 1689, the Organ Mountains--Desert 
Peaks Wilderness Act.
    In recent months, as the legislation has been fine tuned, the 
stakeholders have worked long hours to ensure that the designated lands 
(both Wilderness and National Conservation) will also accommodate 
traditional ranching uses, border protection, law enforcement, and 
recreational pursuits. In addition, for the city, a number of other 
concerns have also been accommodated. I am particularly grateful to 
Dara Parker for her constant attention to the needs of the City of Las 
Cruces. Let me give you some examples.
    Those of us who live on the east side of Las Cruces have long 
feared that development might some day march up the side of the Organ 
Mountains, destroying not only their majestic grandeur but, also, the 
fragile ecological systems that exist there. There is considerable 
agreement across the community that we would like to see Weisner Road, 
near the base of the mountains, eventually become the eastern edge of 
the city. In the current draft of this legislation, the National 
Conservation Area now begins east of Weisner Road; thus allowing for 
development on both sides of that road, but not beyond that area.
    Adequate right of way for future utility infrastructure to support 
future growth was also a concern. All the utility suppliers in the area 
have been contacted to make sure the areas they will need for future 
expansion will be available when that time comes. We cannot expect our 
city to grow if we cannot provide electricity, gas, and water. The 
drafters of this legislation made sure they understood the needs of 
these utility providers and made changes accordingly. In one case, some 
land was even withdrawn to make sure that future Right of Way needs can 
be met.
    Although Las Cruces is a high desert community, flooding during the 
summer rains is a constant problem (much to the surprise of newcomers 
who sometimes fill in that strange hole in their front yard, not 
realizing that it's a water retention pond). The City has gone to great 
lengths to map and increase understanding of the watershed of the 
entire region and its effect on our city. Again, the drafters of this 
legislation have been extremely accommodating. The section of land 
around the Broad Canyon dam has been removed from consideration so that 
future expansion of that dam can occur should that become necessary. In 
addition, some areas of Broad Canyon have been designated National 
Conservation Areas (NCA) so that the berms used for flood control can 
be constructed and maintained. The NCA designation of the Organ 
Mountains area also allows for flood control structures as necessary in 
the future, though we, of course, hope that control can be achieved in 
other places. The due diligence of the legislation drafters to make 
sure all concerns are addressed has been considerable.
    Finally, because we are in a border region, security is also a 
concern. In the latest draft of the legislation, over 16,000 acres of 
Wilderness Study Area (WSA) along the southern boundary of the West 
Potrillo Mountains will be available for border security operations. 
Another 8,000 acres south of the East Potrillo Mountains are also now 
available for border enforcement activities. These and other provisions 
in the current draft of this legislation give both city officials and 
residents confidence that the needs of the Border patrol have been met 
and we can rest assured that our safety concerns are being addressed.
    Currently, the City of Las Cruces and Dona Ana County are working 
together on a regional comprehensive plan for our area. This is the 
first joint planning effort of its kind in the state of New Mexico. In 
the public input meetings that occurred early in the process, residents 
expressed very high interest in the preservation of open space and 
agricultural and ranching areas in our region. Certainly the Wilderness 
and NCA designation of our most precious natural areas will be widely 
celebrated. In addition, efforts to allow grazing to continue on those 
lands currently designated as Wilderness Study Areas is also much 
appreciated. The current proposed legislation does allow access to 
current ranching activities. I understand that language has been 
changed to state that ``The Secretary shall [not may] permit grazing 
within the conservation Areas, where established before the date of 
enactment of this act.'' We appreciate that effort.
    Natives and newcomers alike are drawn to our area because of the 
natural beauty, the recreational opportunities, the cultural resources, 
and the pleasant climate. Homes and businesses that offer a view of the 
Organ Mountains, or the city lying in the agricultural valley, are 
highly sought after. Visitors to our area often choose to hike in the 
Organs, explore the trackways in the Robledos (now a National 
Monument), or investigate the unusual beauty of Broad Canyon. The 
preservation of these areas ensures future access for generations to 
come, contributes to the popularity of our city as a location for 
retirees, helps us preserve cultural and historical features, and is an 
important factor in our area's economic well being.
    In the City of Las Cruces, there is broad support for the 
preservation of our natural areas and we are very grateful to our 
senators for their leadership on the Organ Mountains--Desert Peaks 
Wilderness Act. They and their staffs have shown an astonishing 
commitment to their responsibility to respond to the concerns of all 
the stakeholders in our region. The areas of conflict have been 
resolved and we have now come to the time for action. I know I speak 
for many of our citizens when I say that I wholeheartedly support this 
legislation and urge you to move forward with all possible haste so 
that we can preserve our iconic landscapes, protect our recreational 
and cultural resources, manage our watersheds, ensure the safety of the 
border, and continue to grow our economy.
    Thank you for the opportunity to speak to you today about this 
historic legislation.

    The Chairman. Thank you very much.
    Thank you very much, again, we will have some questions, 
but first let's hear from Michael Cadena who is the Mayor of 
the Town of Mesilla.
    Thank you for being here.

    STATEMENT OF MICHAEL CADENA, MAYOR, TOWN OF MESILLA, NM

    Mr. Cadena. Thank you, Senator Bingaman and Senator Udall 
and certainly we want to recognize Senator Domenici for his 
big, large part of all of this.
    It's important to--we need to commend you for having this 
hearing, it's important to hear from both the proponents and 
the opponents, I'm sitting here right next to both of them and 
we're just very lucky to be in a country where we can have this 
debate and continue to move forward.
    Mesilla has a long history of preserving agriculture and 
open spaces, dating back to the 1840s. It's a very important 
part of this valley and it needs to continue. In 1987 it became 
a major portion of our comprehensive plan, to make sure that we 
preserve our cultural land and open space, and again when we 
updated this plan in 2004, that was a major component of it, 
when we had similar meetings like this. It's very pleasing to 
see this many people to turn out for this type of event where 
they can express their opinion. This is no different.
    The Organ Mountains-Desert Peaks Wilderness Act introduced 
into the U.S. Senate is the culmination of 4 years of a lot of 
hard work by a lot of people, a lot of meetings and a lot of 
reasonable compromise by all included. Mesilla Resolution 2009-
06, adopted on September 28, 2009, endorses the Act. My 
colleagues have gone into the specifics of that Act, so I'm not 
going to get into that, but I will say that it praises the 
foresight in moving to preserve natural and ecological values 
for our families including watershed and air quality 
protection.
    It does on to recognize the potential economic benefits for 
our community in the form of tourism dollars invested in 
recreational activities and certainly with the tough economic 
times that we're in, I truly believe that we can promote and 
attract people to this area as part of a total--one part of a 
package of getting people to come and visit the area and spend 
tourism dollars and--not only in Mesilla, Las Cruces, but the 
whole Valley, here. Part of that attraction is certainly the 
Organ Mountains and the open spaces that we're trying to 
promote.
    Many of us have enjoyed the privileges of being able to 
enjoy the views in going out to these areas and, as my 
colleagues have talked about, the solitude and the great 
feeling of these aesthetic places. It's important that, through 
this Act, that we're able to preserve it for our children and 
grandchildren and all future generations.
    Thank you.
    [The prepared statement of Mr. Cadena follows:]

  Prepared Statement of Michael M. Cadena, Mayor, Town of Mesilla, NM

    Senators Bingaman and Udall, other distinguished legislators and 
guests. My name is Michael Cadena, and I am the Mayor of the Town of 
Mesilla.
    Mesilla has a solid history of support for preservation of open-
space. For example, our citizen-driven 2004 Comprehensive Plan includes 
cluster housing design for new subdivisions on farmland, a concept 
which was later put into an ordinance. The Master Plan also calls for 
regional planning with local governments and private organizations to 
conserve agriculture and to establish an interconnected trail system, 
planning work which Mesilla continues today by participating in our 
local Metropolitan Planning Organization.
    The Town's first direct involvement in what is now called ``The 
Organ Mountains-Desert Peaks Wilderness Act'' was a meeting in November 
2005, with a federal congressional delegation, led by former Senator 
Pete Domenici of New Mexico. The talk was about a proposal to designate 
permanent wilderness areas in Dona Ana County. A January 10, 2006, 
letter signed by the Mayor and a Resolution,* dated February 13, 2006, 
followed the November meeting. They describe Mesilla's position in 
support of the initial proposal and include the request that Broad 
Canyon and the East Potrillo Mountains be included.
---------------------------------------------------------------------------
    * Documents have been retained in committee files.
---------------------------------------------------------------------------
    Mesilla's involvement continued in a series of meetings, 
facilitated by City of Las Cruces' staff, with all interested parties 
present. These meetings began the process of bringing together the 
proponents and the opponents of federal wilderness legislation. The 
Organ Mountains-Desert Peaks Wilderness Act, introduced into the United 
States Senate on September 17, 2009, is the culmination of over four 
years of meetings and hard work by a lot of people to bring all parties 
to the table and to emerge with appropriate and reasonable compromises. 
Mesilla's Resolution, 2009-26, adopted on September 28, 2009, endorses 
the Act. It praises the foresight in moving to preserve natural and 
ecological values for our families, including watershed and air quality 
protection. It goes on to recognize the potential economic benefits for 
our community in the form of tourism dollars invested in recreational 
activities.
    Throughout the four and a half years of consideration of Wilderness 
and National Conservation Area designations in Dona Ana County, 
Senators Bingaman and Udall have taken extraordinary measures to gather 
and incorporate the views and needs of those on both sides of 
Wilderness designation; and there has been no lack of community 
participation. It is time now to act, to move forward and pass The 
Organ Mountains-Desert Peaks Wilderness Act.
    Thank you.

    The Chairman. Thank you.
    Let me ask a few questions and then I'm sure Senator Udall 
will have some questions, as well.
    Let me start with you, Commissioner Duarte-Benavidez, about 
the issue of flood protection. One of the concerns that's been 
raised, and I think will probably be raised by other witnesses 
today relates to whether or not there is adequate flood 
protection, adequate opportunity to maintain flood protection 
structures, dams that might have been built before. Can you 
tell us anything about what the County's plans are to install 
additional flood control structures in the coming years, and 
whether or not those plans would be able to go forward even if 
this legislation became law?
    Ms. Duarte-Benavidez. Yes, sir.
    Presently we are planning on flood protection on the East 
and the West Mesas, and also in the wilderness and the NCA 
Districts, but it's presently just in the planning stage at 
this point, we're trying to get as much input from the public, 
and we are looking at those areas, right now, for flood.
    But unfortunately, or fortunately, we are just at the 
planning stage at this point right now.
    The Chairman. OK.
    Let me ask Mayor Thomas, one of the issues--and you 
somewhat addressed this in your earlier comments--but one of 
the issues is whether or not this legislation would have the 
effect of limiting the future growth of the community of Las 
Cruces. I gather from what you said that you do not think it 
would have that effect, and I'd just ask you to elaborate on 
that, if that is your view, or correct me if it's not your 
view.
    Ms. Thomas. Thank you.
    No, I don't see that it will limit our growth. You know, 
one of our concerns, as I mentioned, was whether or not we 
would be able to get utilities as we need, increase gas and 
water and electricity and those sorts of things and your office 
has been very good about working with the city and working with 
our Assistant City Manager trying to predict what those needs 
are going to be and if there need to be larger right of ways 
left, you know, for, say, for future gas lines and those sorts 
of things. So, we're quite comfortable with that.
    I would add, about the flood, too, that the City has mapped 
our entire watershed and looked very carefully at where we need 
to put in structures to deal with the flooding. We're currently 
building a very large retention pond and again, your office has 
worked with our City Manager and Assistant City Manager and 
planners, and so they have paid attention to all of our 
concerns, both having to do with flood control and with future 
growth.
    The Chairman. Let me just ask, Mayor Cadena, you indicated 
the priority that Mesilla--the Town of Mesilla has put on 
agricultural open space. How do you see--do you see anything in 
this legislation that would contradict that or make that 
difficult for you to carry out with that set of plans, whatever 
planning you've done there, in the Town of Mesilla?
    Mr. Cadena. No, not at all, I just--my emphasis is that 
primary in Mesilla, our open spaces are our cultural land but 
recently we--2 years ago there was a petition to annex, and we 
have started to move up the West Mesa--so I see some potential 
to potentially have some open space in that area, as well.
    The Chairman. But none of the open space that you 
anticipate there is affected by what's being proposed here, as 
I understand it, is that right?
    Mr. Cadena. That's right, not directly.
    The Chairman. OK.
    Let me defer to Senator Udall for any questions he has.
    Senator Udall. Thank you very much, Chairman Bingaman.
    I want to thank the witnesses on Panel I for doing such a 
good job, here.
    Let me follow-up on one thing that Senator Bingaman delved 
into a little bit, and I'd like to hear from all 3 of you on 
this. He asked about the future growth of Las Cruces, and the 
growth in Dona Ana County, and one of the important things when 
you develop a proposal like this is make sure that there is the 
ability to adequately have the community grow while at the same 
time protect the things that people feel are special treasures.
    What I'm wondering is--and my understanding, the Organ 
Mountains-Desert Peaks Wilderness Act is complimentary of the 
County's long-term development plans. I would ask--how are each 
of you involved in these plans, could you describe what the 
County and City are doing to develop Vision 2040? What impact, 
if any, this legislation would have on the plan, looking down 
the road as you're doing on your long-term planning there? 
Please?
    Ms. Duarte-Benavidez. I always believe that the people that 
live in the community should get involved. One of the biggest 
things that I would like to do is have participation in the 
community for every single District.
    Dona Ana County is unique because it's just not rural, 
there's a lot of little clusters of communities out there, and 
we need participation by the residents to see what they want in 
their little towns on Vision 2040. That's what--I'm hoping to 
bring in more people to participate in this and hopefully we 
can hear their ideas and whatever they need for their 
community.
    Because outside of the County--I mean, outside of the City 
limits is very different to how it is inside of the City. So 
that's my biggest--I would like the community participation at 
this point, thank you.
    Ms. Thomas. Thank you for that question, Senator Udall.
    I've been very involved with the Vision 2040 work from the 
beginning, I've gone to most of the public meetings, I've read 
all of the drafts--we're about to get a brand-new draft any day 
now that should be our final, or next-to-last draft, an 
ultimate draft.
    One of the things that the land-use patterns in Vision 2040 
suggest is that if we project our growth between now and 2040, 
the City already has adequate land to accommodate all of that 
growth. So, we're not looking at much more annexation in that 
period of time.
    Also, as I mentioned earlier, saving the Organ Mountains, 
protecting open space, protecting the agricultural lands around 
Mesilla, those were brought up at practically every public 
meeting as very important goals for the people in this 
community. So, I think that we've had a considerable public 
discussion.
    I've also been involved in a number of private groups that 
have been meeting now, for months, just so we can start to be 
on the same page before we move to the last steps of Vision 
2040. I think we're close to being there, and as you said, your 
bill certainly compliments what we're trying to do with Vision 
2040.
    Mr. Cadena. Yes, Mesilla is right smack dab in the middle 
of this plan, this 2040 Plan so we're definitely participating 
in those discussions. Also, I need to indicate with in-fill and 
other areas that have been designated for development and the 
wise use of cluster subdivisions and those kind of innovative 
building, there's plenty of area to build for many, many years 
to come. We're not at all trying to be inclusive here, it's 
just about planning to put people in the right places. That's 
what this 2040 Vision is about.
    Senator Udall. Thank you.
    This I'm going to direct more, Commissioner, to you, but if 
either of the Mayors want to comment, I'd also like to hear 
their comments on border security.
    A few of the testimonies that we will hear today touch on 
the concerns of border security. From your perspective, what is 
the current status of border security in the County, what are 
their needs, what are the needs that are not being met? Do you 
believe that the accommodations worked out in this bill and in 
the ongoing MOA, the Memorandum of Understanding between the 
Federal Government managers and border security are adequate 
for protecting the communities that you represent?
    Ms. Duarte-Benavidez. Thank you.
    You know, there's a big problem in Juarez right now, and 
there's a lot of people being killed. They made a statement 
that more people have been killed in Juarez than in 
Afghanistan. So, we have a very big problem in this area, and 
we need the participation of all law enforcement areas in the 
border--whether it be the police, the sheriff, the 
immigration--and I believe that working in unison, together, 
and bringing more funds to this area will really help a lot.
    You need to know the area, you need to know the culture in 
order for--to understand what's going on. I believe that more 
funding, for Federal funds, is necessary to protect the 
residents of Dona Ana County.
    Thank you.
    Ms. Thomas. Yes, I'd like to comment on that, as well.
    I understand from some of the earlier testimony that I've 
read that in terms of crossing problems at the border that 
Arizona has a lot more than we have and Texas has less, fewer 
incidences. What I understand from this legislation is that 
because more land has been released now to be used--I believe 
close to 40,000 acres to be used for border patrol, so there's 
access for the border patrol--then, and because a lot of that 
land has been in a wilderness study area for many years, so 
actually it seems to me that this legislation gives more 
flexibility and more access and so that makes me feel 
considerably better about that.
    I would also mention that yes, there's a huge problem in 
Juarez. But El Paso, for its size, is one of the safest cities 
in the United States. So, we have this odd congruence here at 
the border. So I think we're doing a pretty good job on our 
side of the border. That doesn't mean we don't have great 
empathy for our neighbors to the south who are really suffering 
and we need to offer support whenever we can.
    But, our border is pretty much in the middle, and I don't 
see that this legislation's going to change it, and I in fact, 
see that it's probably going to add more flexibility for Border 
Patrol.
    Mr. Cadena. Certainly I'm no expert on border security, but 
I will tell you with all of the resources that Congress has put 
forward, the agencies are working together, there's more people 
visible, it seems to be a safer place and I think it's just--
certainly with all of the experts--expertise in this room that 
we can work together on that part of the bill to make it 
feasible and safe at the same time.
    Senator Udall. Thank you, Mayor.
    Just my final question here and Commission, it comes from 
what you've said in your opening testimony, I think you used 
the term--and that's what I want to ask all 3 of you--your 
sense, because you're local elected officials, you're here in 
the community. You, I think, used the term, you said it--
reflecting on the proposal that's out there, the bill that both 
of us are signed on to, ``the will of the people has been 
heard.''
    Now, could you just reflect a little bit on what you've 
heard over the years, I know Mayor Cadena has talked about 
going back and having meetings since 2005 and there's been a 
lot going on out here. Could you reflect just a little bit on 
the will of the people and what you've heard in terms of the 
proposal that's on the table, here?
    Ms. Duarte-Benavidez. Thank you.
    Yes, when I was campaigning, I ran into a lot of people who 
were stressing that we need to protect our area from 
development. They don't want it to happen like it did in 
Phoenix where they have houses all the way up to the mountains, 
or--you could just go look at El Paso and see the houses built 
all the way up to the mountains. People need a place for--to go 
out and enjoy themselves. There's a lot of areas in the United 
States that are so beautiful that have been protected because 
of you. Otherwise, there's just people that would like to put a 
restaurant up there in the mountain that, you know, that 
reflects like, ``Eat Here.''
    But we can't do that, we need to--we need to really keep 
the mountains as beautiful as possible, because if you look at 
the Organ Mountains, they change every day. You look at them 
and they're different colors, different--and you know, there's 
times where you say, ``I never saw that before.'' So, it's the 
people who come and say, ``We want to keep this, this is why we 
moved here. This is the reason why we're here, we love this 
place.'' We need to keep the Organ Mountains as pristine and as 
beautiful as possible.
    Thank you.
    Ms. Thomas. As I pointed out, my District lies all along 
the Eastern edge of the city of Las Cruces, so many, many 
people in my District move there because they enjoy the Organ 
Mountains and as Commissioner Benavidez said, you know, they 
don't want to see houses marching up the side or restaurants up 
on the top. So, that's certainly what I hear all the time. I 
would say a third of my emails and conversations have to do 
with the open space, wildlife corridors and protecting our 
natural areas. So, it's very, very well supported in my 
District.
    I guess I could add, finally, that I ran for reelection in 
November and I was reelected, so that's the best evidence of 
support I can give you.
    Mr. Cadena. Only to add to that, we have a great view of 
the Organ Mountains from Mesilla, but I can tell you that the 
great majority of people from Mesilla and this whole Mesilla 
Valley are in support of this bill.
    Senator Udall. Thank you.
    Senator Udall. Thank you very much, and thank you for your 
service to your communities. Thank you.
    Ms. Duarte-Benavidez. Thank you.
    Ms. Thomas. Thank you.
    The Chairman. Thank you all very much for coming and 
testifying today, we appreciate it very much. Why don't we go 
ahead and do panel No. 2 at this point.
    So, let me introduce them and they can come forward as I 
introduce them.
    Gary Esslinger is here as the Treasurer and General Manager 
of Elephant Butte Irrigation District, Frank DuBois is a 
Consultant with People for Preserving our Western Heritage, we 
welcome him. John Hummer is here, the Chair of the Board of 
Directors with the Greater Las Cruces Chamber of Commerce and 
Tom Cooper who is an owner, a grazing permittee with Cooper and 
Company.
    Representative Teague is here, we're glad to have you here.
    Representative Teague. Thank you.
    The Chairman. Frank, I mispronounced your name, it's 
DuBois, excuse me.
    Mr. DuBois. That's quite all right.
    The Chairman. Why don't we start, let me just first of all 
defer to Representative Teague, if he wanted to make any 
statement or if he wanted to hear from these witnesses first, 
whatever his preference is.
    Representative Teague. If I could, yes.
    The Chairman. You can go right ahead.

 STATEMENT OF HON. HARRY TEAGUE, U.S. REPRESENTATIVE FROM NEW 
                             MEXICO

    Representative Teague. Thank you. Thank all of you all for 
being here. Thank you Senator Bingaman, Senator Udall for 
bringing this hearing to Las Cruces. It's an important 
opportunity for residents of Dona Ana County to share their 
opinions on the proposed wilderness legislation. This is part 
of what has been a long and deliberate process led by Senator 
Bingaman, and this field hearing today shows his commitment to 
having all sides share--have their voices heard on this 
important issue.
    I think this is a good way of doing business, and I want to 
thank Senator Bingaman, the Chairman of this hearing, for doing 
this.
    Back during my campaign for Congress, I said I would 
support efforts to conserve the public lands of this county and 
oppose radical proposals to sell off public lands to private 
interests. This has not changed.
    When I was elected, I made the commitment to be a 
Congressman who would stay in touch, listen to all sides of the 
debate and work to represent the interests of all of my 
constituents. My approach to the wilderness designation we are 
discussing today is the same as my approach to representing 
this District--I did not assume that I already knew the best 
answer.
    Instead, over the course of the last year, I sat down many 
times with people who cared about this issue and I did a lot 
more listening than talking, because I think we need to get 
this right. Ultimately, no one group will be--or should be--to 
get everything out of this process that they want. But in the 
end, what we do must be right for Dona Ana County and right for 
this Nation.
    I have a few questions during this process that probably 
will be answered that include, you know, during these tough 
economic times when we must both create jobs now and set up for 
future economic growth, how does the preservation of our public 
lands benefit Dona Ana County economically? How does it promote 
tourism, investment and job creation?
    Hunting and fishing is a treasured part of the lives of 
thousands of New Mexico families, including mine. I believe 
maintaining habitat is just as important to maintaining our 
hunting and fishing traditions as is the Second Amendment. So, 
how do sportsmen feel about proposals to preserve our public 
lands?
    When I was a County Commissioner, and now as a Congressman, 
I worked to develop our public infrastructure to create jobs 
and build our economy. How would a wilderness designation 
affect the future development of infrastructure to serve the 
public safety and economy of Dona Ana County?
    Also, I believe that we as a Nation must establish and 
maintain operational control of our borders. We must be able to 
stop the illegal smuggling of drugs, guns and people. So, how 
would a wilderness designation affect the ability of the border 
patrol to do its job and protect our borders?
    Ladies and gentlemen, we all know the public lands of Dona 
Ana County are critically important to our economy and way of 
life in Southern New Mexico. Our open spaces provide residents 
with a unique quality of life. The peaks of the Organ Mountains 
define Las Cruces just as the Empire State Building defines New 
York City and Cowboys Stadium defines Dallas.
    You can't drive through Las Cruces without seeing many 
businesses decorated with images of the Organs, and it's hard 
to get through a conversation about Las Cruces without hearing 
about the beauty of the city.
    In many ways, the Organs and open spaces of Dona Ana County 
are the goose that lays the golden economic egg. I think we 
better tend carefully to that goose.
    Let us remember that our open space----
    Representative Teague [continuing]. Let us remember that 
our open spaces are public lands.
    Representative Teague. They belong to the people of the 
county and the people of this country. I believe they should be 
preserved for the people of this country and the people of this 
County.
    I do have questions about the wilderness proposal, that's 
just part of the process, and that's why I look forward to the 
rest of this hearing and to continuing to work with all 
interested parties to craft a future for the public lands of 
Dona Ana County that will, first, keep us safe, second, 
preserve and enhance the quality of life and third, increase 
tourism, jobs and economic investment in the area.
    Once again, thank you all for being here today, thank you 
for listening to me.
    The Chairman. Thank you very much. Thank you for taking 
time to participate in our hearing, we very much appreciate 
having you here.
    Let's start, Gary, why don't you go right ahead, why don't 
we use the same basic format we did in the first panel and each 
of you take 5 or 6 minutes and tell us the main points you 
think we need to understand and then I'm sure we'll have 
questions after we hear from all of you.
    So, go right ahead.

STATEMENT OF GARY ESSLINGER, TREASURER-MANAGER, ELEPHANT BUTTE 
              IRRIGATION DISTRICT, LAS CRUCES, NM

    Mr. Esslinger. Thank you for this opportunity to present my 
testimony today. I am Gary Esslinger, Treasurer-Manager of the 
Elephant Butte Irrigation District (EBID). I want to emphasize 
that even though EBID's primary charge is delivering water to 
90,640 acres in Dona Ana and Sierra Counties, we do much more 
than that.
    The outflow from EBID flood control dams and other city, 
county and private dams in the area, coupled with direct storm 
runoff from dozens of uncontrolled arroyos, runs into our canal 
and drainage designed for irrigation purposes, but they were 
designed to convey high storm flows such as the catastrophic 
events of 2006 and 2008.
    EBID continuously looks for opportunities to better manage 
storm water. Our main concern is to protect life, farmland and 
the irrigation system. Thereafter it is to harness the wild 
storm water to be put to beneficial use in Southern New Mexico. 
The historic Operating Agreement between the United States, and 
the Texas and New Mexico Irrigation Districts allows EBID to 
capture storm water within our system and place it to 
beneficial use without any obligation to deliver that water to 
Texas by directly and indirectly recharging our aquifers which 
will benefit everyone.
    EBID sponsors and operates 33 flood control dams that were 
built about 60 years ago to protect ag land, with a 50 year 
storm event design life, seven of which of these dams sit 
between the Dona Ana County exit and I-10 interchange. They 
have lost capacity due to sediment and accumulation and design 
life, making them more likely to spill or breach. These dams 
were not designed to protect a concentrated population such as 
we have in and around Las Cruces.
    We appreciate the efforts of all parties, and especially 
Senator Bingaman, you and your staff for working with EBID to 
exclude our existing dams from the wilderness area. However, 
flood control is not a stagnant process. It is clear that as 
Southern New Mexico continues to grow, we will need to address 
flood management and develop best management practices for our 
watersheds before we can consider wilderness area designation. 
Climate change is a moving target with much uncertainty.
    For example, the east Mesa of Las Cruces is criss-crossed 
with arroyos that originate in the Organ Mountains and drain 
into the valley floor. Yet today, we assume under false 
pretense that existing flood control structures are adequate, 
and that we will be protecting residential and commercial 
developments below.
    What happened in Hatch and El Paso will happen here. A 
comprehensive storm water plan must, out of necessity, start as 
high up in the watershed as possible or it will be impossible 
to plan for new improvements in the future.
    Sediment and debris loads in the storm water runoff, which 
I refer to as the first flush, are major problems in our 
watershed regions. Historically, these watersheds are not in 
their natural condition which would have been desert 
grasslands. Instead they have been overtaken by invasive brush 
species and changed to desert shrub land. The change will not 
reverse itself either naturally, or by over protecting it. We 
will need to be responsible and develop a sustainable storm 
water management plan, and this necessarily must start at the 
top of the watershed. The process would be hindered, if not 
prohibited, by the proposed wilderness designation.
    As a manager charged with the management of water 
resources, climate change and the affect on our water supply is 
at the top of my list. The current economic crisis, our 
inadequate flood control system and a community apathy toward 
comprehensive flood protection will present an even bigger 
threat to life and property than it has in the past, and our 
lack of flood control infrastructure and proper watershed 
protection will prevent us from capturing and using a new 
source of water supply in southern New Mexico. I call this the 
``Hydro-illogical'' cycle.
    As climate change continues to affect the snowmelt runoff 
coming into Elephant Butte Reservoir, our reliance on the use 
of storm water needs to increase to take up the slack. In order 
to capture and use this water, we need flood control capacity 
and watershed management. I believe this is the ``new water'' 
for Southern New Mexico.
    I think there is a lot of common ground between the groups 
in favor of wilderness designation and EBID. We all want to see 
the watershed and wilderness area protected from further 
impairment, safety of our communities and the long-term 
sustainability of our water supply. We recognize the threats 
posed by a changing climate, and we know that we must adapt to 
it together. As the major water provider in Southern New 
Mexico, EBID recognizes that in order to accomplish these 
goals, we need access to these critical watersheds for 
restoration and storm water management. With respect to S. 1689 
we all need to make sure that Southern New Mexico has the 
ability to safely manage and wisely use the water resources 
that originate in these areas.
    Let us keep our options open. Thank you.
    [The prepared statement of Mr. Esslinger follows:]

Prepared Statement of Gary Esslinger, Treasurer-Manager, Elephant Butte 
                  Irrigation District, Las Cruces, NM

    Thank you for the opportunity to present testimony today. I am Gary 
Esslinger, Treasurer-Manager of the Elephant Butte Irrigation District 
(EBID) and I'd like to talk to you about a ticking time bomb that must 
be defused. Imagine urban and valley-wide flooding as a result of an 
explosion not unlike what hit Hatch and El Paso in 2006, or Leasburg in 
2006 and 2008, that will eventually target the Organ Mountains and the 
east and west mesas. The detonation will be a torrent of runoff water 
and debris running off the watersheds that will wind up surrounding Las 
Cruces and inundating the valley floor. The meteorologists will hold 
the match and will tell you that in 2006, three of the 16 maximum 
precipitation events on record occurred within five weeks of each other 
by a climate change enhanced micro storm burst and it could happen more 
frequently than before. Old timers, who have witnessed decades of local 
weather, will tell you that they have never seen anything like the 2006 
storms. The high desert watersheds that S. 1689 is intended to protect 
will continue to be at risk, and we will be missing a golden 
opportunity to be proactive and exploit the use of storm water to 
replenish our dwindling water supply in this area.
    I want to emphasize that even though EBID's primary charge is 
delivering water to 90,640 acres in Dona Ana and Sierra Counties, we do 
much more than deliver water to 8,500 constituents. The outflow from 
EBID flood control dams and other city, county and private dams in the 
area, coupled with direct storm runoff from dozens of uncontrolled 
arroyos, runs into our canal and drainage system, which was designed 
for delivering irrigation water and removing subsurface drainage, not 
conveying high storm flows such as the events of 2006 and 2008 .
    EBID continuously looks for opportunities to better manage storm 
water. Our main concern is to protect life, farmland and the irrigation 
system. Thereafter it is to harness this wild storm water to be put to 
beneficial use in Southern New Mexico. The historic Operating Agreement 
between the United States, and the Texas and New Mexico Irrigation 
Districts allows EBID to capture storm water within New Mexico and 
place it to beneficial use without any obligation to deliver that water 
to Texas. These are among the reasons why I wanted to take this 
opportunity to voice some concerns EBID has regarding the designation 
of thousands of acres of watershed lands as wilderness areas.
    The old Soil Conservation Service (SCS) PL566 dams that EBID 
sponsors and operates were built about 60 years ago, with a 50 year 
storm event design life, seven of which sit between Dona Ana and the I-
25/I-10 exchangs. They have lost capacity due to sediment accumulation 
and design life, making them more likely to spill or breach. These dams 
were not designed to protect a concentrated population with new 
drainage standard designs for 100 year storm events above and below 
them.
    We appreciate the efforts of all parties involved as well as 
Senator Bingaman and his staff for working with EBID to exclude our 
existing dams from the wilderness area, so we can continue to maintain 
and, hopefully, upgrade them. However, flood control is not a stagnant 
process. It is clear that as Southern New Mexico continues to grow, we 
will need more flood control structures and to develop best management 
practices for our watersheds. These structures and plans, have not been 
designed or sited, and therefore, not considered in the wilderness area 
designation because of the uncertainity directed by climate change.
    Let me give you specific examples. Coming from the Robledo 
Mountains and the Broad Canyon area to the Northwest of Las Cruces, 
there are three uncontrolled arroyos--Foster, Faulkner, and Chandler. 
These wild arroyos discharge into the Rio Grande above Leasburg Dam and 
have historically produced very large flows, particularly in the summer 
monsoon season. In 2006, for example, a flood coming out of Faulkner 
Canyon knocked a train off the tracks on the opposite side of the Rio 
Grande. These three arroyos present a serious downstream flooding 
hazard. Perhaps more of a problem is the load of sediment and debris 
the arroyos bring which choke off the flow of the Rio Grande below 
Seldon Canyon and could bury the federal owned diversion dam intakes 
further downstream. In my 30 years of experience with EBID, I have 
witnessed sediment plugs in the Rio Grande from these and other arroyos 
backing the flows from El Paso all the way up into the Rincon Valley, 
causing flooding, damaging property and crops, and yet I call EBID a 
``First Responder'' to the rescue when this occurs.
    The East Mesa above Las Cruces is crisscrossed with arroyos that 
originate in the Organ Mountains and drain onto the valley floor. Yet 
today, we assume under false pretense that existing flood control 
structures are adequate and will be protecting residential and 
commercial developments below. A comprehensive storm water plan must, 
out of necessity, start as high up in the watershed as possible or it 
will be impossible to plan for new improvements in the future.
    In both of these examples, sediment and debris loads in the storm 
water runoff, which I refer to as the first flush, are major problems 
in these watershed regions. Historically, these watersheds are not in 
their natural condition which would have been desert grasslands. 
Instead they have been overtaken by brush species and changed to desert 
shrub land, with much higher runoff and erosion potential over time. 
The change will not reverse itself either naturally, or by over 
protecting it, and the high erosion capability of the shrub land will 
cause ongoing degradation to our watersheds. Mechanical or chemical 
brush removal, soil amendments, and reseeding are necessary to reverse 
the dominance of desert shrubs, slow and reduce the runoff, and styme 
the erosion rate. This is a first step to responsible and sustainable 
storm water management, and necessarily must start at the top of the 
watershed. This process would be hindered if not prohibited by the 
proposed wilderness designation.
    As a manager charged with the management of water resources, 
climate change and the affect on our water supply is at the top of my 
list. The forecasting of regional climate models and data has led me to 
one conclusion. Southern New Mexico can no longer rely on receiving its 
renewable water supply exclusively from snowpack in Colorado. We are 
experiencing a shift towards a drier climate, punctuated by more 
extreme drought and more frequent flood episodes below Elephant Butte 
Reservoir. Are we prepared for this shift? I say we are not. The 
current economic crisis, our inadequate flood control system, and 
community apathy will present an even bigger threat to life and 
property than it has in the past, and our lack of flood control 
infrastructure and proper watershed protection will prevent us from 
capturing and using a new source of water supply in southern New 
Mexico. I call this the `Hydro-illogical' cycle.
    As previously mentioned, the new Operating Agreement in the Rio 
Grande Project allows EBID to capture and place to beneficial use all 
the storm water we can utilize. EBID has already initiated operations 
which divert storm water into our system which directly and indirectly 
recharges our groundwater system and this benefits all groundwater 
pumpers in the valley. Slowing the runoff and utilizing mountain front 
recharge zones is absolutely critical in this groundwater recharge 
approach. As climate change continues to affect the snowmelt runoff 
coming into Elephant Butte Reservoir, our reliance on the use of storm 
water needs to increase to take up the slack. In order to capture and 
use this water, we need flood control capacity and watershed 
management, starting from the top of the watershed down to the valley 
floor. I believe this is the `new water' for the arid southwest.
    I think there is a lot of common ground between the groups in favor 
of wilderness designation and EBID, and once again thank you, Senator 
Bingaman and your staff. We all want to see the watershed and 
wilderness area protected from further impairment. We both want to 
ensure the safety of our communities and the long-term sustainability 
of our water supply so we can enjoy the historic cultural and social-
econo9mic value of this region. We recognize the threats posed by a 
changing climate, and we know that we must adapt to it together. As the 
major water provider in Southern New Mexico, EBID recognizes that in 
order to accomplish these goals, we will need access to these critical 
watersheds for restoration and storm water management. S. 1689 needs to 
make sure that Southern New Mexico has the ability to safely manage and 
wisely use the water resources that originate in these areas.
    Hatch, El Paso, and Juarez are still digging out from the 2006 
floods while our spectacular mountains still tower majestically along 
the skyline, as if waiting in anticipation for the next epic storm to 
hit. Let's not idly wait for it, and let's keep our options open in 
these critical mountain and high desert watersheds, particularly with 
respect to S. 1689. Thank you for this opportunity to speak and I stand 
for questions.

    The Chairman. Thank you very much.
    Thank you very much. Why don't we just go right on down the 
table, there, Mr. Cooper, why don't you go right ahead?

 STATEMENT OF TOM COOPER, RANCHER AND FORMER CHAIRMAN, PEOPLE 
              FOR PRESERVING OUR WESTERN HERITAGE

    Mr. Cooper. Thank you.
    The Chairman. You may want to just hold this in one hand, 
it's probably the best way to be heard.
    Mr. Cooper. I wish to thank the committee for holding this 
hearing and for the invitation to participate.
    None of the grazing allotments in 500,000-acre Gila 
Wilderness are active today. Livestock and ranching families 
have been eliminated. If those families could have made it 
work, they would still be ranging, supporting their families 
and local communities and providing beef for Americans. Their 
ranches were destroyed by the legislation and anti-grazing 
activism which followed. This scenario could be repeated in 
Dona Ana and Luna Counties under S. 1689. Ranchers, employees, 
round-up crews and suppliers would be out of work or otherwise 
severely impacted.
    We participated with representatives of seven other groups 
in regional land management, a community response, which was 
sponsored by the City and the County. The stakeholder committee 
met twice weekly for 3 months. The announced purpose was to 
reach a consensus for the citizen's wilderness proposal. That 
did not happen. In its final act, the 16 committee members 
voted for wilderness on 55,500 acres, or 21 percent, of the 
259,000 acres of wilderness now in S. 1689. In terms of 
acreage, withdrawal received more votes than wilderness.
    Later in 2007, we proposed an alternative plan to designate 
the eight existing wilderness study areas as rangeland 
preservation areas--to withdraw the areas from disposal by sale 
or exchange and from leasing for oil and gas or mining activity 
similar to the Valle Vidal Act of 2006. That act was supported 
by Senator Bingaman and Representative Udall. Our proposal was 
prompted by the Valle Vidal Act and the support for the 
withdrawal feature in the Stakeholder Committee.
    Environmentalists state that wilderness is the gold 
standard of preservation. In reality, preservation practices 
such as brush control, erosion control, flood control and 
projects to improve water distribution and forage utilization 
for wild stock and wildlife are prevented in wilderness. BLM, 
NRCS, New Mexico Association of Soil and Water Conservation 
Districts and the ranchers are cooperating in a program to 
implement all of these practices. Through Restore New Mexico, 
brush encroachment has been halted on hundreds of thousands of 
acres of New Mexico rangelands. Those lands are, again, 
productive and beautiful.
    Sadly, brush encroachment with increased run-off and soil 
erosion will continue on the lands in S. 1689 subject to the 
gold standard of preservation. Maps of the areas in S. 1689 
provided to us reflect only the boundaries and a few cherry 
stems. We had previously provided maps reflecting extensive 
improvements to Congressional staff, as requested. We were 
told, regarding the blank S. 1689 maps provided to us that we 
would need to get with BLM regarding improvements and access 
roads. It has been represented that we will have access to 
wells, troughs and corrals. No specific representation has been 
made regarding frequency of access.
    In addition, roads along fence lines and roads to dirt 
tanks which we use to haul materials and check our cattle and 
deliver salt, mineral and protein supplements--and other 
roads--are also essential to our operations. We have 
requested--but have not received--detailed maps of S. 1689, or 
computer data files to allow us to produce detailed maps.
    If wilderness is to be designated, we ask that the 
legislation include complete maps reflecting roads and 
improvements and wording allowing ranchers necessary access and 
frequency of use. Inclusion in the Act would also limit the 
expected challenges to ranchers' permit applications and to 
BLM's management decisions.
    In response to a statement by a rancher that he needs to 
make the rounds of his pipelines and water facilities, make 
repairs and check and feed his cattle 2 or 3 times weekly and 
inquiring if that frequency will be allowed in wilderness, BLM 
personnel stated that it might not be allowed weekly, perhaps 
not even every 2 weeks. BLM might well have added, ``Goodbye, 
ranchers.''
    The huge wilderness and NCA designations in S. 1689, the 
so-called ``citizens proposal'' came from organizations outside 
of our area, The Wilderness Society, and some founding members 
of NMWA advocate removal of all livestock from public lands 
everywhere. A former Board member of NMWA advised us that they 
view wilderness designations as the first step to eliminate 
livestock and the ranchers.
    Under S. 1689, I would be forced to operate my ranch under 
different management plans for 3 separate wilderness areas for 
the Desert Peak NCA and for areas remaining in multiple use. 
The Hopkins Ranch in the Organ Mountains would be in similar 
circumstances, as would Williams Ranches in the Potrillo 
Mountains, and others. This would be a threat to the very 
existence of our ranches, and an administrative nightmare for 
BLM and the ranchers, requiring an inordinate amount of time 
creating and implementing management plans dealing with 
ranchers' permit applications to make repairs or improvements 
with public comment periods responding to comments and legal 
challenges, et cetera.
    None of my ranch was recommended for wilderness in the 1991 
Interior Department Record of Decision or by the Stakeholder 
Committee. Interior determined the Robledo and Las Uvas 
Mountains Wilderness Study Areas--which lie partly on my 
ranch--are not suitable for wilderness and recommended they be 
returned to multiple use. The Broad Canyon area was found 
unsuitable for further study prior to 1991. Further, my entire 
ranch has strong potential for capture and conversion of flood 
waters to beneficial public use. S. 1689 would eliminate or 
severely diminish that potential.
    The vote of the Stakeholder Committee and the thousands of 
employees and members of the 800 businesses and organizations 
which are members of the Coalition for Western Heritage and 
Open Space point to widespread opposition to S. 1689. We 
request that our community's serious concerns regarding grazing 
management, public access, national security, illegal 
immigration, human and drug smuggling, flood control and water 
capture be fully addressed before further consideration of this 
legislation.
    Thank you very much.
    [The prepared statement of Mr. Cooper follows:]

 Prepared Statement of Tom Cooper, Rancher and Former Chairman, People 
                  for Preserving Our Western Heritage

    I wish to thank the Committee for holding this hearing, and for the 
invitation to participate.
    None of the grazing allotments in the 500,000-acre Gila Wilderness 
are active today. Livestock and ranching families have been eliminated. 
If those families could have made it work, they would still be 
ranching, supporting their families and local communities, and 
providing beef for Americans. Their ranches were destroyed by the 
legislation and anti-grazing activism which followed. This scenario 
could be repeated in Dona Ana and Luna counties under S1689. Ranchers, 
employees, roundup crews, and suppliers would be out of work or 
otherwise severely impacted.
    We participated with representatives of seven other groups, in 
``Regional Land Management: A Community Response'', which was sponsored 
by the City and County. The Stakeholder Committee met twice weekly for 
three months. The announced purpose was to reach a consensus for the 
Citizens' Wilderness Proposal. That did not happen. In its final act, 
the 16 committee members voted for Wilderness on 55,550 acres (21%!) of 
the 259,050 acres of Wilderness now in S1689. In terms of acreages, 
withdrawal received more votes than Wilderness.
    Later, in the Spring of 2007, we proposed an alternative plan to 
designate the 8 existing Wilderness Study Areas as Rangeland 
Preservation Areas, to withdraw the areas from disposal by sale or 
exchange, and from leasing for oil and gas or mining activity, similar 
to the Valle Vidal Act of 2006. That act was supported by Senator 
Bingaman and Representative Udall. Our proposal was prompted by the 
Valle Vidal Act and support for the withdrawal feature in the 
Stakeholder Committee.
    Environmentalists state that Wilderness is the ``gold standard'' of 
preservation. In reality, preservation practices such as brush control, 
erosion control, flood control, and projects to improve water 
distribution and forage utilization for livestock and wildlife are 
prevented in Wilderness. BLM, NRCS, NM Assn. of Soil and Water 
Conservation Districts and the ranchers are cooperating in a program to 
implement all of these practices. Through ``Restore New Mexico'', brush 
encroachment has been halted on hundreds of thousands of acres of NM 
rangelands. Those lands are again productive and beautiful! Sadly, 
brush encroachment with increased runoff and soil erosion will continue 
on the lands in S1689 subject to the ``gold standard'' of preservation!
    Maps of the areas in S1689 provided to us reflect only the 
boundaries, and a few ``cherry stems''. We had previously provided maps 
reflecting extensive improvements to congressional staff, as requested. 
We were told regarding the blank S1689 maps provided to us that we 
would need to get with BLM regarding improvements and access roads. It 
has been represented that we will have access to wells, troughs, and 
corrals. No specific representation has been made regarding frequency 
of access. In addition, roads along fence lines and roads to dirt tanks 
which we use to haul materials and check our cattle and deliver salt, 
mineral, and protein supplements, and other roads, are also essential 
to our operations. We have requested, but have not received detailed 
maps of S1689 or computer data files to allow us to produce detailed 
maps.
    If Wilderness is to be designated, we ask that the legislation 
include complete maps reflecting roads and the improvements and wording 
allowing ranchers necessary access and frequency of use. Inclusion in 
the Act would also limit the expected challenges to ranchers' permit 
applications and to BLM's management decisions.
    In response to a statement by a rancher that he needs to make the 
rounds of his pipelines and water facilities, make repairs, and check 
and feed his cattle 2 or 3 times weekly, and inquiring if that 
frequency will be allowed in Wilderness, BLM personnel stated that it 
might not be allowed weekly, perhaps not even every two weeks! BLM 
might well have added ``Goodbye, ranchers''.
    The huge Wilderness and NCA designations in S 1689, the so-called 
Citizens' Proposal, came from organizations outside our area, the 
Wilderness Society and NM Wilderness Alliance. The Wilderness Society 
and some founding members of NMWA advocate removal of all livestock 
from public lands everywhere. A former board member of NMWA advised us 
that they view Wilderness designations as the first step to eliminate 
the livestock and the ranchers.
    Under S1689, I would be forced to operate my ranch under different 
management plans for 3 separate Wilderness areas, for the Desert Peaks 
NCA, and for areas remaining in multiple-use. The Hopkins Ranch in the 
Organ Mountains would be in similar circumstances, as would Williams 
Ranches in the Potrillo Mountains, and others. This would be a threat 
to the very existence of our ranches, and an administrative nightmare 
for BLM and the ranchers, requiring an inordinate amount of time 
creating and implementing management plans, dealing with ranchers' 
permit applications to make repairs or improvements, with public 
comment periods, responding to comments and legal challenges, etc.
    None of my ranch was recommended for Wilderness in the 1991 
Interior Department Record of Decision or by the Stakeholder Committee. 
Interior determined the Robledo and Las Uvas Mts Wilderness Study 
Areas, which lie partly on my ranch, are not suitable for Wilderness 
and recommended they be returned to multiple-use. The Broad Canyon area 
was found unsuitable for further study prior to 1991. Further, my 
entire ranch has strong potential for capture and conversion of flood 
waters to beneficial public use. S1689 would eliminate or severely 
diminish that potential.
    The vote of the Stakeholder Committee and the thousands of 
employees and members of the 800 businesses and organizations which are 
members of the Coalition for Western Heritage and Open Space point to 
widespread opposition to S1689. We request that our community's serious 
concerns regarding grazing management, public access, national 
security, illegal immigration, human and drug smuggling, flood control 
and water capture be fully addressed before further consideration of 
this legislation.

    The Chairman. Thank you very much.
    I'm told that Mr. DuBois would like to be last, and if that 
is the preference, Mr. John Hummer, why don't you go right 
ahead and we'll hear from you next.

 STATEMENT OF JOHN L. HUMMER, CHAIR OF THE BOARD OF DIRECTORS, 
             GREATER LAS CRUCES CHAMBER OF COMMERCE

    Mr. Hummer. Thank you.
    Senator Bingaman, Senator Udall, Members of the Senate 
Energy and Natural Resources Committee, and citizens of Dona 
Ana County, thank you for allowing me to sit on the panel 
today.
    My name is John Hummer and I am here representing The 
Greater Las Cruces Chamber of Commerce, which represents 
approximately 100 small and large businesses throughout our 
community.
    In our October 20th, 2009 letter, signed by me as the 2009 
Chairman, and unanimously approved by our Board of Directors, 
we set forth an outline of responses to S. 1689. In that 
letter, full support for wilderness designation of the Organ 
Mountains was strongly endorsed and you have our full support 
on that part of the legislation. The Organ Mountains have long 
been the focus of protection by this community.
    The letter went on to detail our position and concerns on 
the other areas based on national security, economic demands, 
and the recognition of historical access for the community. 
Although not limited to, but where the Chamber disagreed with 
your legislation, were the protective measures of the Potrillo 
Mountain complex. The scoping process, we believe, did not 
adequately address the dangers of wilderness designation near 
the border. Throughout this debate, the reference to the 2006 
MOU has been held out to solve access problems for the Border 
Patrol. None other than Secretary of Homeland Security, Janet 
Napolitano, discounted this very contention. In Napolitano's 
October 2, 2009 written testimony to the ranking member of the 
House Subcommittee on National Parks, Forests and Public Lands, 
2 major points were revealed.
    First, Ms. Napolitano wrote, ``While the USBP recognized 
the importance and value of wilderness area designations, they 
can have a significant impact on USBP operations . . .'' 
Second, her report revealed the failings of the 2006 MOU in 
practice in the field. She wrote in reference to the document, 
``. . . along the southwest border it (the MOU) can be 
detrimental to the most effective accomplishment of the (USBP) 
mission.''
    The fact remains when Federal Wilderness is designated full 
Border Patrol authority and access is terminated, which means 
minimal flexibility. That is unacceptable in this County.
    Mr. Hummer. The issues of the Potrillo Mountain complex are 
too varied and dangerous to consider wilderness designation. 
Protection, absolutely, yes--but not wilderness designation. 
Please consider NCA for this area. The border buffer that has 
been placed in the current legislation has been discounted by 
many experts in border security.
    The conclusions that the Chamber reached after research 
have become even more convincing in written testimony that 
would have been presented today by the National Association of 
Former Border Patrol Officers if they had been invited to 
speak. If given the opportunity they would have stated the 
following: One, The presence of any wilderness on or near the 
Mexican border is a danger to the security of the United 
States. Two, designated Federal Wilderness is not causative in 
establishment and expansion of entry corridors. Third, the 
Potrillo Mountain complex has the same characteristics of 
threat potential as does Organ Pipe Cactus National Monument, 
the most dangerous park in the United States. Fourth, the strip 
or buffer between the southern extension of wilderness and the 
Potrillo complex and the border is inadequate for the Border 
Patrol to meet Congressional demands for national security. CBP 
can not be expected to interdict and apprehend illegals within 
the narrow strip from the border north to Highway 9 nor can 
they be expected to do the same thing in the same narrow 
corridor being considered north of Highway 9. If they could, 
they would be doing it right now. Fifth, CBP is restricted from 
maintaining a full presence on the ground and with technical 
hardware because of Federal land designation constraints in the 
entire Broad Canyon complex, the threat will automatically be 
extended northward exposing the village of Hatch and Highway 
26.
    The Village of Hatch has been aware of this warning, but 
they are not here today to defend their position or their 
concerns. In order for you to enjoy the support of the Las 
Cruces Chamber Board of Directors, you must not violate the 
trust we place upon your body to assure our community that you 
are considering these facts and other staggering issues that 
are just now coming to light on the Arizona border. All other 
factors pale to the consequences of your actions in this 
regard. However, I must also add that we remain steadfast in 
our insistence to not encumber this community's access to the 
greater Broad Canyon complex.
    In particular, Mr. Esslinger's testimony regarding flooding 
and water retention is precisely why wilderness designations 
and other restricted designations in and around large and 
growing population centers, municipalities and villages have 
potential life-threatening and costly consequences, and are 
therefore considered by many as damaging policy.
    In summary, our organization will adhere to the letter of 
submitted testimony in October, so long as we can be assured 
that recent developments of national security, flood control 
and new water sourcing opportunities are recognized and dealt 
with in a manner that responsibly protects our community.
    Thank you, Senators, for your time, Congressman Teague, all 
of you for your careful consideration, and for your leadership 
in this most important matter.
    Thank you.
    [The prepared statement of Mr. Hummer follows:]

Prepared Statement of John L. Hummer, Chair of the Board of Directors, 
                 Greater Las Cruces Chamber of Commerce

    Senator Bingaman, Senator Udall, Members of the Senate Energy and 
Natural Resources Committee, invited Panel members, and citizens of 
Dona Ana County thank you for allowing me to sit on this panel today. 
My name is John Hummer and I am here representing The Greater Las 
Cruces Chamber of Commerce, which represents approximately 1,000 
businesses who employ and create opportunities for tens of thousands of 
families. I am here because of the concern that portions of Senate Bill 
1689 present to those I represent.
    In the letter from the Chamber, dated October 20th, 2009, signed by 
me as the 2009 Chairman, and unanimously approved by the chamber's 
board of directors, we set forth an outline of responses to the bill 
that you crafted and submitted. In that letter, support for wilderness 
designation of the Organ Mountains was strongly endorsed. The Organ 
Mountains have been the focus of protection by this community, its 
leadership, and the social and economic underpinnings of its citizens.
    The testimony went on to detail our position on the other areas 
based on national security, economic demands, and the recognition of 
historical access for the community. Although not limited to, but where 
the Chamber disagreed with your legislation, were the protective 
measures of the Potrillo Mountain complex. The scoping process did not 
adequately address the danger of designating federal wilderness on the 
border. Throughout this debate, the reference to the 2006 MOU has been 
held out to solve access problems for the Border Patrol. In oral and or 
written testimony to Congress this past summer, none other than 
Secretary of Homeland Security, Janet Napolitano, discounted that 
contention. In a Napolitano letter dated October 2, 2009 to the Ranking 
Member of the House Subcommittee on National Parks, Forests and Public 
Lands, two major points were revealed. First, Ms. Napolitano wrote, 
``While the USBP recognized the importance and value of wilderness area 
designations, they can have a significant impact on USBP operations . . 
.'' Secondly, her report revealed the failings of the 2006 MOU in 
practice in the field. She wrote in reference to the document, ``. . . 
along the southwest border it (the MOU) can be detrimental to the most 
effective accomplishment of the (USBP) mission.''
    Notwithstanding the disclosure by Ms. Napolitano of the 
shortcomings of depending on a side agreement for access, we must be 
pragmatic about the legality of that document. If ever an environmental 
group challenges that document for any reason as being contravention of 
the statute you propose, any judge would have no alternative but to 
throw that MOU out. We cannot justify to American citizens that their 
safety and the national security of their nation is predicated on some 
document that allows conditional access to interdict and apprehend 
illegal drug and human smugglers in order to designate federal 
wilderness. The fact is when Federal Wilderness is designated full 
Border Patrol authority and access is terminated. That is unacceptable 
in this county.
    The issues of the Potrillo Mountain complex are too varied and 
dangerous to consider wilderness designation. Protection, yes . . . but 
not wilderness. The border buffer that has been placed in the current 
legislation has been discounted by experts in border security.
    The conclusions that the Chamber reached have become even more 
convincing in written testimony that would have been presented by the 
National Association of Former Border Patrol Officers if they had been 
given the opportunity to speak today. From more than 5,000 man years of 
experience with border matters, NAFBPO succinctly sets out the risks to 
our community and our nation with S.1689 if it goes forward in its 
present form.
    From that written testimony, we are warned as follows:

          1. The presence of any wilderness on the Mexican border is a 
        danger to the security of the United States.
          2. Designated Federal Wilderness is not causative in the 
        intent of illegals to enter the United States, but it is 
        causative in the establishment and expansion of entry 
        corridors.
          3. The Potrillo Mountain complex has the same characteristics 
        of threat potential to the United States as does Organ Pipe 
        Cactus National Monument, the most dangerous park in the 
        system.
          4. CBP cannot be expected to interdict and apprehend illegals 
        within the narrow strip from the border north to Highway 9 nor 
        can they be expected to do the same thing in the same narrow 
        corridor being considered north of Highway 9. If they could, 
        they would be doing it now.
          5. If CBP is restricted from maintaining a full presence on 
        the ground and with technical hardware because of federal land 
        designation constraints in the entire Broad Canyon complex, the 
        threat will automatically be extended northward exposing the 
        village of Hatch and Highway 26.

    That testimony goes on to detail how northward expansion of 
national security threats will take place if the Potrillos are 
designated Federal Wilderness. Such threats will become most pronounced 
in the Corralitos/ Broad Canyon corridor flanked by the Robledo and Las 
Uvas Mountains. The village of Hatch has been aware of this warning, 
but they are not here today to defend their position and their 
concerns.
    In order for you to enjoy the support of the Las Cruces Chamber, 
you must not violate the trust we place upon your body to assure our 
community that you are considering these facts and others that are 
coming to light on the Arizona border. All other factors pale to the 
consequences of your actions in this regard, but I must also add that 
we remain steadfast in our insistence to not encumber this community's 
access to the greater Broad Canyon complex. In our letter, we set forth 
the economic aspects of what Broad Canyon means for our future in terms 
of flood control devices, rail and utility line rights-of-way, and 
historical community back country access. Each of those issues are 
large enough that you must drop all NCA considerations and allow the 
Multiple Use Management alternative that was determined by BLM 
scientific based studies authorized and required by the 1976 Federal 
Lands Protection and Management Act. From that process, we were all 
promised that wilderness designation would be based on agency adherence 
to fidelity issues of the original act, not what some organization 
conjures up as a proxy to wilderness.
    In recent days, developments regarding the Broad Canyon complex, 
the East Side NCA, and the El Paso/ EBID settlement allowing the 
capture and beneficial use of flood water have taken on new importance. 
In short, any legislation cannot limit access to current dams, future 
dams, or devices that are intended to protect the property, health and 
welfare of our citizenry. This information is being assimilated and 
studied by an ad hoc committee made up of various bodies that are 
responsible for flood control and public safety. The results of their 
work must be reviewed and studied before any lands within the scope of 
a future project are reclassified. The drainage and flooding issues 
that Mr. Esslinger with EBID has testified to and associated with, 
specifically, the Broad Canyon Area and Organ Mountain NCA, are 
PRECISELY WHY wilderness designations and other restrictive 
designations in and around large and growing population centers, 
municipalities and villages, have potential life threatening and costly 
consequences and are therefore considered damaging policy.
    In summary, our organization conditionally adheres to the letter of 
submitted testimony, so long as the recent developments of national 
security, flood control and new water sourcing opportunities are 
recognized and dealt with in a manner that protects the community.
    Thank you for your time, for your careful consideration, and for 
your leadership in this important matter.

                               ATTACHMENT

    As mentioned during my oral testimony at yesterday's field hearing 
at New Mexico State University, I wanted to follow up with additional 
written testimony as it pertains to border / national security concerns 
with the Potrillo Mountain Complex.
    The question was asked whether or not I, or the organization I 
represented, believed that efforts were made by Senator Bingaman's 
staff to seek compromise with active border patrol officers? Here are 
some important points that I would like to add to my testimony:

  <bullet> Yes, we do believe that conversations were held between 
        certain active duty border patrol agents and the Senator's 
        staff;
  <bullet> Our concern pertains to how the conversation and questions 
        were framed;
  <bullet> Were the active border patrol agents asked, ``Given a 
        choice, with a primary consideration for national security, 
        would you prefer an NCA or multiple use designation for the 
        Potrillo Mountain Complex over Wilderness Designation?'' Or was 
        the question framed in the context that Wilderness will be 
        designated. Therefore, how much additional land would you like 
        to have as non-Wilderness? This is an important distinction.
  <bullet> The absence of public testimony by the Active United States 
        Border Patrol agency causes great concern. As such, we 
        respectfully request that an official statement be obtained and 
        released from the US Border Patrol agency as it pertains to 
        their land designation preference for this large swath of land 
        in the Potrillo Mountain Complex.
  <bullet> Furthermore, we encourage each of you to seriously consider 
        the written and submitted testimony and recommendations by the 
        Federal Retired Border Patrol Officers. This organization 
        represents years of experience, non-biased perspectives and 
        recommendations for the security of our nation.

    Thank you for your consideration with this most important aspect of 
S.B. 1689.

    The Chairman. Thank you.
    Frank, go right ahead, please.

 STATEMENT OF FRANK A. DUBOIS, FORMER NEW MEXICO SECRETARY OF 
                     AGRICULTURE, 1988-2003

    Mr. DuBois. Thank you.
    Perhaps I should clarify that my testimony today is my own, 
and shouldn't be attributed to any organization. I've acted as 
an advisor to the Western Heritage Group, but I'm here today on 
my own.
    I also hope that you'll pitch me a little slack, I can't 
get my wheelchair all the way under this table, so trying to 
sit up and hold the microphone there may be a few breaks in 
there, if that's OK.
    The other thing I'll tell you is please don't feel bad 
about my last name, DuBois. I had a football coach in high 
school who called me ``Dubious'' so please don't worry about 
that.
    [Laughter.]
    Mr. DuBois. In my testimony today I will address 3 issues: 
The grazing language in the existing bill for National 
Conservation Areas, public access and the need for a land 
designation other than Wilderness.
    The grazing language with respect to NCAs in the current 
bill really discriminates against the ranching community and 
could disable their ability to continue ranching. In my written 
testimony I give you 3 different fixes for that that I would 
like to just briefly discuss.
    As a result of ``production of forage for livestock 
grazing'' not being listed in Purposes section and you combine 
that with the consistency language, any time the BLM would seek 
to conserve, protect or enhance any of the 10 uses listed, and 
there is a potential conflict with a grazing practice, grazing 
will either be diminished or eliminated. Any time a rancher 
seeks to implement a new grazing practice and there is a 
potential conflict, the practice will not be allowed.
    Current grazing practices will be disallowed if there is a 
conflict. So, in this instance, if you would list ``the 
production of forage for livestock grazing'' in the purposes 
section, that would solve that problem and really, all the 
ranching community is requesting is to be put on an equal 
footing with the other 10 uses that are listed.
    Mr. DuBois. The second proposal, I provide you with just 
some generic grazing language that would drop the ``where 
established'' and the ``consistency'' language. I dropped the 
where established language because no such language restricts 
other uses such as wildlife or recreation, so why single out 
grazing for this restriction?
    The ``consistency'' language, removing it would become more 
important if you don't list grazing in the Purposes section. If 
you do list grazing in the Purposes section, then the 
``consistency'' language would be redundant.
    The third proposal, or fix, that I presented is taken from 
your bill, S. 874, in the section dealing with Nuts and 
Firewood, and that's your Northern New Mexico bill. In that 
bill, you provide exemptions for certain practices by the 
pinion nut and firewood harvesters in the area. So this third 
proposal would basically ask that you make similar exemptions 
for the traditional practices of ranchers in Southern New 
Mexico.
    In addition I have some questions I posed to the committee 
about the ``where established'' language in Section 4. We 
really hope the committee will look at this and give us some 
answers. For instance, is this ``where established,'' is it 
applied on an allotment basis, on an acreage basis or some 
other criteria? What impact does the ``where established'' 
language have on permitted numbers of livestock? Can permitted 
numbers be increased in a National Conservation Area under this 
language?
    So, what we're really seeking here is a clear statement 
from the committee on what Congressional intent is when you use 
that phrase ``where established''?
    The other thing is, I have not addressed the Grazing 
Guidelines for wilderness areas, but suggest you look at 
previous testimony that is submitted by several groups 
including the New Mexico Federal Lands Council which 
demonstrates the inadequacy of those grazing guidelines in 
desert ecosystems.
    The next issue is public access. Public access for hunters 
and campers and ranchers and hang gliders and law enforcement 
and other specific users has already been addressed by others 
and so I would just like to address access from the standpoint 
of the general public.
    If you review the Federal land status in Dona Ana County, 
and the status of Federal lands within a leisurely 1 hour drive 
from Las Cruces, you will find over 4 million acres of Federal 
land with either no public access or restricted access.
    Given that figure of 4 million acres where the general 
public is mostly excluded, I really must question the 
appropriateness of restricting access on another 560 square 
miles, or 358,000 acres.
    Mr. DuBois. So, what I'm suggesting, or what I'm hoping is 
that you will take into consideration the total Federal land 
mass in the Las Cruces area with this issue of public access in 
mind as you consider various land use designations.
    Finally, a designation other than wilderness. The land use 
pattern in Dona Ana County, a valley floor of private lands 
surrounded by various types of Federal land and other public 
lands is not unique to the West. As the Senator well knows, 
this particular land-use pattern and setup is all over the 
Western United States. We know that population growth combined 
with public pressure to retain privately held farmland and 
other open spaces and the public desire for additional 
recreational opportunities will continue to impact Federal 
land.
    When you add into the mix the significant decline in 
Wilderness visitations, I and many others believe a new land 
use designation is needed which will protect certain lands from 
development, but still allow for public access and enjoyment of 
these lands.
    Mr. DuBois. Some have called this--if you look at the 
literature--some have called this wilderness ``light,'' others 
wilderness ``without the big `W''' and there's been several 
names and attempts to try to describe this. But a land 
designation of this type should be considered by this committee 
for certain parcels in S. 1689 and for other legislation which 
may impact land use patterns in all of our Western communities. 
The time has come for Congress to step forward with a new land 
use designation that responds to both the national concern for 
protecting Federal lands and local concerns for development, 
recreation and traditional or cultural uses.
    Senator, I know that you're very aware that Senator Clinton 
P. Anderson chaired this very committee that I am testifying 
before today and that you now chair. He took a leadership 
position in the 8-year struggle to get the Wilderness Act 
passed. What I and others are requesting is that you continue 
with that tradition of leadership and take on the task of 
finding this new land use designation that would meet the needs 
of a modern populace.
    Thank you.
    [The prepared statement of Mr. DuBois follows:]

 Prepared Statement of Frank A. DuBois, Former New Mexico Secretary of 
                         Agriculture, 1988-2003

    In my testimony today I will address three issues.

          1. The grazing language for National Conservation Areas.
          2. Public access
          3. The need for a land designation other than Wilderness.

                       GRAZING LANGUAGE FOR NCA'S

Three Proposed Fixes

  <bullet> ``The production of forage for livestock grazing'' included 
        in Purposes section
  <bullet> The Secretary shall permit grazing within the Conservation 
        Area subject to all applicable laws (including regulations) and 
        Executive orders; and
  <bullet> Nothing in this Act precludes the use of motorized vehicles 
        or mechanical equipment for the construction or maintenance of 
        range improvements or the performance of standard ranching 
        operations.

Discussion
    As a result of the production of forage for livestock grazing not 
being listed in the Purposes section and the consistency language, any 
time the agency seeks to conserve, protect and enhance any of the 10 
uses listed and there is a potential conflict with a grazing practice, 
grazing will be either diminished or eliminated. Any time the rancher 
seeks to implement a new grazing practice and there is a potential 
conflict, that practice will not be allowed. Current grazing practices 
will be disallowed if there is a conflict. The ranching community is 
simply asking to be put on an equal footing with the other 10 uses. 
This will allow the agency to balance all the uses in determining a 
final action and protect the agency and the rancher from potential 
lawsuits.
    The second proposal drops the ``where established'' language. No 
such language restricts the other uses such as wildlife or recreation, 
so why single out grazing for this restriction? This part of our 
proposal also drops the ``consistent'' language. This would be become 
more important if livestock grazing is not listed in the Purposes 
section and ``consistent'' language is probably redundant if it is 
listed.
    The third proposal is taken from the Nuts and Firewood section of 
S.874 as introduced by Senator Bingaman. It would allow ranchers to 
continue using traditional methods of maintaining range improvements 
such as fencing, windmills, dirt tanks, pipelines, etc. It would also 
allow the use of vehicles to disperse feed and salt, rescue sick 
livestock, conduct visual inspections of livestock and range conditions 
and other such standard ranching activities.
    In addition I have some questions on the ``where established'' 
language in Section 4. Is this applied on an allotment by allotment 
basis, on an acreage basis or some other criteria? What impact does the 
``where established'' language have on permitted numbers of livestock? 
Can permitted numbers be increased in a National Conservation Area 
under this language? In other words, I'm seeking a clear enunciation of 
Congressional intent with respect to the ``where established'' language 
and I hope the Committee will provide that.
    I have not addressed the Grazing Guidelines for wilderness areas, 
but suggest you review the previous testimony presented by People For 
Preserving Our Western Heritage and the New Mexico Federal Lands 
Council which demonstrates the inadequacy of these guidelines for the 
desert ecosystem.

                             PUBLIC ACCESS

    The issue of access for hunters, campers, ranchers, hang gliders 
and other specific users I'm sure has been covered by others and I 
would like to address access from the standpoint of the general public.
    If you review the federal land status in Dona Ana County, and the 
status of federal lands within a leisurely one hour drive from Las 
Cruces, you will find over 4 million acres of federal land with either 
no public access or restricted public access.
    Given the astounding figure of over 4 million acres where the 
general public is mostly excluded, I really must question the 
appropriateness of restricting public access on another 560 square 
miles, or 358,000 acres. Please take in consideration the total federal 
land mass in the Las Cruces area with this issue of public access in 
mind as you consider various land use designations.

                  A DESIGNATION OTHER THAN WILDERNESS

    The land use pattern in Dona Ana County, a valley floor of private 
lands surrounded by various types of Federal land, is not unique to the 
west. Population growth combined with public pressure to retain 
privately held farmland and other open spaces and the public desire for 
additional recreational opportunities will continue to impact Federal 
land. When you add into the mix the significant decline in Wilderness 
visitations, I and many others believe a new land use designation is 
needed which will protect certain lands from development, but still 
allow for public access and enjoyment. Some have called this wilderness 
``light'', others wilderness ``without the big `W' ``. A land 
management designation of this type should be considered by this 
Committee for certain parcels in S. 1689 and for other legislation 
which may impact land use patterns in our western communities. The time 
has come for Congress to step forward with a new land use designation 
that responds to both national concerns for protecting Federal lands 
and local concerns for development, recreation and traditional or 
cultural uses.

    The Chairman. Thank you very much. Thank you very much.
    Let me thank all of the witnesses on this panel, this has 
been very well-prepared and constructive testimony. Let me ask 
a few questions and then I'm sure Senator Udall will have a 
few, and Congressman Teague may have a few, as well, so let me 
start.
    Let me ask you first, Gary, are there specific plans to 
construct new flood control projects in the Organ Mountains or 
dealing with the watershed coming out of the Organ Mountains, 
that you're aware of?
    Mr. Esslinger. I'm not aware of any new. I know that the 
city of Las Cruces is developing some ponds and clearly there 
are drainage plans in place.
    But, part of the problem, Senator, is EBID is not privy, 
many times, to the development on the East Mesa, and why? We're 
farmers in the Valley. But clearly, the water that runs off 
those watersheds impact us and actually drown out the Valley 
floor. So it's imperative that something greater than even 
Vision 2040 that doesn't adequately address flood control and 
water--water, in general, supply, aquifer health, all of those 
issues--it's not there. There should be some comprehensive plan 
between County, City, Dona Ana County Flood Control, the 
Federal agencies, EBID, Soil and Water Conservation Districts, 
and everyone before we even attempt to think about a wilderness 
area, we need to first of all address our water supply and our 
flood protection.
    I just feel--I've been a witness to the Hatch incident, I 
was in El Paso when--waist-deep water--and people, homes were 
devastated. Yet they still had a beautiful picture of the 
Franklin Mountains. It just doesn't make sense.
    The Chairman. Let me just ask, are you suggesting that we 
put on hold any consideration of wilderness designation until 
this larger analysis or study is done? But, you say there is no 
study underway, or planned, that you're aware of?
    Mr. Esslinger. I'm not aware of a comprehensive plan, 
Senator. I really believe that this community, these sides 
should not be split, we should be working on this together, and 
unfortunately there are too many pieces of the pie. Everybody 
wants what they want for their city or their county, but no one 
really cares about the whole region, and that's what's 
important; that's the apathy I see. That's the ``hydro-
illogical'' cycle that's here, in this Valley, and across the 
West.
    The Chairman. Let me ask John Hummer about the border 
issues. My understanding is currently there is land down near 
the border that is being managed as wilderness study area, 
which would then--would be released from that designation so 
that it could be used more generally as part of this bill. Is 
it your thought that the current wilderness study area 
designation of that land near the border is causing a security 
problem there now that needs addressing?
    Mr. Hummer. Senator, it--I will speak on behalf of the 
research and testimony that we--we received as a Chamber 
through the committee that was researching this issue, that the 
Retired Border Patrol Officers spoke to the fact that the 
buffer issue that was put in place, as you said, from their 
experience, years in the field, they felt that that would not 
prevent the attraction and the opening up of an area similar to 
what happened in Organ Pipe.
    Now, the opposition would say that, ``Well, Organ Pipe is 
directly on the border.'' But the fact is that even based on 
testimony from the officers, is that when you protect that much 
land from routine surveillance, even with that buffer, that 
nine--it's one mile at one point, I believe, and nine miles at 
the widest, if I remember correctly--that again, from their 
testimony, it just becomes a vacuum and an opportunity for a 
new flow, a new area of flow for illegal activity.
    Again, it's----
    The Chairman. I'm right, am I not, that the level of 
illegal activity in the last several years has dropped pretty 
dramatically from 2005? Because of additional Border Patrol 
personnel, because of fencing, because of vehicle barriers? 
Obviously, the economic recession has been a factor?
    Mr. Hummer. Correct, yeah, a lot of different theories and 
you just mentioned them all. Sometimes the fence, that people 
say, ``Oh, the fence, really all it does is push the activity 
away from where the fence is and up to another area,'' so 
unless that fence and surveillance is failsafe, any opening 
will create an opportunity. But, you mentioned all of the 
factors to that. Again, we're just relaying what--the testimony 
we heard and the evidence from Oregon Pipe, which is pretty 
staggering when you look at that data. It's--and we're still 
for protection. I don't want--we don't want the community to 
think, ``Oh, the Chamber wants that just for--it's concerned 
about development.'' We agree with the full protection from 
non-development, but there's other designations, NCA, that 
would not jeopardize border security.
    The Chairman. Let me ask Frank a question, here, about 
the--I'm just unclear as to what are the areas that you believe 
the public is currently able to access through motorized access 
that would be shut off under this legislation?
    Mr. DuBois. It's the--by definition. The Wilderness Act 
says, ``There are no motorized vehicles and no mechanical 
equipment.'' So that any Federal land that's designated as 
wilderness, there would no longer be motorized access. If a 
person wanted to take his family camping, they could drive up 
to the edge of the wilderness, but they could not take their 
vehicle into the wilderness.
    The same thing would be true of the hunting community, they 
could drive up to the edge of the wilderness, but they could 
not enter into the wilderness. So, that's what I meant.
    The Chairman. Right.
    Mr. DuBois. May--I wonder if--would you grant me the 
latitude to respond so some of the other questions you posed?
    The Chairman. Sure, go right ahead.
    Mr. DuBois. On the issue of flood control and the, you 
know, it's been made clear to me that the County and the City 
and the general public is way behind on the whole issue of 
flood control and the danger to the community. I don't think it 
would be correct--you know, I know this committee is not going 
to listen and say that, ``We're going to hold off on any 
legislation until the local folks get their stuff together and 
address this issue.''
    However, as I'm sure you're aware, there's been 26 
exceptions made via legislation to the Wilderness Act since its 
passage. I think you should consider, and the committee should 
consider making an exception so that in the NCAs or any other 
areas that you designate, you put in specific language that 
allows for the access, for the maintenance of existing 
structures, and allow access for the construction and 
maintenance of new structures. I think if you had language like 
that in the bill, it would resolve a lot of these flood control 
issues.
    On the WSA issue and border security, the issue there, is, 
the Border Patrol and the Bureau of Land Management have worked 
together, as long as these areas are wilderness study areas to 
give the Border Patrol access to be able to comply with most of 
their mission.
    The issue is not Border Patrol in Wilderness Study Areas, 
the issue is Border Patrol in Wilderness Areas. There are many 
things that the Border Patrol can do right now in Wilderness 
Study Areas that they would then be prevented from doing in a 
Wilderness Area. So that's the issue, there.
    As far as the number of Border Patrol interdictions and the 
declining number of illegal immigrants, et cetera, coming 
across the border, the data says that is correct. But the same 
data also says that the Border Patrol interdictions for drug 
traffickers is up, not down. That was----
    The Chairman. I think that's--that's a--it's good news that 
they're interdicting the drug traffickers.
    Let me call on Senator Udall for his questions.
    Senator Udall. I also want to thank this panel for being 
very specific at this point in land, very constructive. I think 
at this point in legislation, it's important to hear--as Mr. 
Hummer, you've done in your letter, very specific proposals and 
put them out there.
    So, Gary, let me start with you. The--and you use the term, 
Gary, you know, when you talk about better use of high storm 
water flows that will potentially be the result of climate 
change and replenish the County's water supply. I think you 
said in your oral testimony, startup as high as possible in the 
watershed.
    So, what I'm wondering, could you go into more detail as to 
how you would propose to do this and where the potential areas 
for such entrapment of runoff?
    Mr. Esslinger. Senator Udall, I wish I could; that's the 
problem. Climate change is a moving target, and clearly what 
would happen behind us to the east on the Organ Mountains could 
be completely different than what we saw in Hatch or down in El 
Paso, only because the microbursts at that time came across and 
hit in a specific area over and over again.
    I certainly think that, as Frank said, there's a way that 
we should get all of the agencies together and then come about 
and talk about it. Weisner Road may be that buffer that the 
councilwoman spoke of. But below that, there may need--be need 
to put 3 or 4 more different and smaller retention dams in 
place below that.
    You have to understand that Tortugas drainage, which is 
this drainage right here that comes right through this 
University is 13,000 acres, 20 square miles. It all dumps into 
1 drainage--2 flood control dams that were built for 50-year 
storm events. They just won't handle the water like the core 
dam will. If you don't plan up there far enough up, then it's 
going to be difficult to know what we're going to have as 
impact down below. That's throughout this Valley.
    West Mesa flooding at Pacacho, Summer Park in Acra, all 
were devastating floods in 2006. So certainly, that terrain is 
complete different from the terrain here to the east of us.
    But we have to look at it comprehensively and study it. 
That's my answer.
    Senator Udall. Has your organization, have you done that? 
Then, have you moved forward with the effort which, as you 
heard in the first panel, they're working on Vision 2040, which 
is a plan for the City and County down here; have you 
approached them with recommendations and suggestions? I mean, 
are you--the reason I was asking about these potential 
entrapments, I mean, if you've studied them--are you plugging 
them in with the City and County in the plan they have going?
    Mr. Esslinger. No, sir.
    Senator Udall. OK, well that's--no, that's a good--that's 
the answer--I wanted a direct answer to the question. Please, 
go ahead if you want to elaborate on it.
    Mr. Esslinger. Senator, I was appointed at one time to be 
on the Advisory Committee to the Vision 2040 and I was asked to 
step down and they elected someone from the Farm Bureau to 
represent agriculture because I was too biased about water.
    Mr. Esslinger. Water creates a lot of hurdles in this 
Valley, but we've lived through them. This is what's so unique 
about Mesilla and Rincon Valleys and the Rio Grande Project. 
Our forefathers planned very well what we were to do with our 
water, and now we've even improved on it to where not all of 
our water has to go to Texas, either. So that's pretty good 
planning.
    The point that I'm trying to say right now is, though, we 
have all of these groups--County, Flood Control, Federal 
agencies--but we don't get in the room and talk about it 
sensibly, we talk about it independently, and that's the 
problem.
    Senator Udall. OK, thank you.
    Senator Udall. Now, Mr. Cooper--Mr. Cooper and Mr. DuBois, 
both of mentioned wilderness. I think Clint Anderson's name was 
mentioned which--who many of you know was a national leader on 
wilderness and as you said, led the committee that Senator 
Bingaman chairs and led on the Wilderness Bill, created 
wilderness and he was very aggressive about that. I think that, 
in looking at this, that Senator Bingaman--and one of the 
things that Clint Anderson did is he preserved, you know, the 
big compromise in wilderness had to do with the preservation of 
grazing in wilderness areas. That was the--the cattlemen said, 
``If you're going to do this, we can go along with it,'' and 
that's what allowed him to move forward and do that.
    Senator Bingaman, in his committee, following on the heels 
of that, have taken the ``may'' language in the bill and said 
``shall''--``shall.'' They've inserted that language after 
hearing your comments. I'm wondering, isn't that a big step 
toward moving toward the kind of compromise we need to see in 
this legislation?
    Mr. DuBois. To be perfectly honest with you, changing the 
language from ``may'' to ``shall'' means absolutely nothing.
    Senator Udall. I would beg to disagree. But please go 
ahead, but there's a huge difference in the law between a 
discretionary act and an act where you say ``shall'' where you 
instruct an agency to do something.
    Mr. DuBois. I totally agree with that.
    Senator Udall. But that's, you know--
    Mr. DuBois. I totally agree with that.
    Senator Udall. Yes, yes.
    Mr. DuBois. But what I'm saying is, ``shall issue a 
permit,'' that permit, as a result of the area going into NCA, 
that permit could be for 10 cows instead of 100 cows and you're 
still in compliance with the law because you have issued a 
permit, but the end result is an economic unit that can no 
longer be survived by that ranching family. So, that's why I 
made the statement that I did. I understand the difference in 
the law, what I'm talking about is the practical impact on the 
ranching community in these areas if that language becomes law, 
yet it doesn't make that much difference.
    Senator Udall. Thank you.
    Mr. Cooper, would you like to respond to that? To that 
question?
    Mr. Cooper. I totally agree with Frank, you know, we 
recognize as much as anybody the language that's in the 
Wilderness Act itself that allows livestock grazing to 
continue, but it's all of these forces that are brought on us, 
the restrictions allowing the outside forces, environmental 
issues and so forth to come in and affect our operations--maybe 
shut us down or cut us down, whatever--that eventually put 
grazing out of business in wilderness.
    There are ranches for sale today in Luna County which are 
involved Wilderness Study Areas for which there are no buyers, 
because they figure you guys are headed there next. They 
won't--nobody wants them because of all of the threats that 
they won't make it there.
    Mr. DuBois. Senator, I addressed the issue in NCAs, could I 
be given the opportunity to respond to your question about 
grazing and wilderness?
    Senator Udall. Yes, well, they--yes. Let me just----
    Mr. DuBois. Sure.
    Senator Udall [continuing]. Point out from both of your 2 
answers. Congress has specifically stated that wilderness can 
not be used to reduce animal unit months. So, I mean, that's in 
the law. That's in the law. So, I think some of what you're 
saying has already been dealt with as far as a legal 
instruction to these Federal agencies. But please, go ahead, 
Frank.
    Mr. DuBois. The issue of grazing and wilderness as compared 
to the NCAs and the desert ecosystem down here, the grazing and 
wilderness, that language that was put in, in the original--I 
believe it was the Colorado Wilderness Act--those grazing 
guidelines were put in that Act, and since then, each State's 
Congressional delegation, when they've delegated wilderness, 
have included, by reference, in the legislation, those grazing 
guidelines. But those grazing guidelines were drafted when most 
of the wilderness was in high country. They addressed issues in 
the high country where there's seasonal grazing, and in many of 
those high country areas, there are natural waters, and there 
are natural boundaries. So, you don't have the water issue that 
much, you don't have the fencing issue that much, and the 
grazing is only seasonal in nature.
    If you move to the desert ecosystem and what's being 
proposed down here, you have an instance where you don't have 
natural water, you don't have natural boundaries and it's year-
round grazing, it's not just seasonal--it determines their 
entire income, not just part of their income.
    So, our concern is those guidelines that were set up for 
wilderness in the high country will not work in a desert 
ecosystem. That's what our primary concern is, as far as 
grazing and wilderness.
    Senator Udall. Yes. Thank you very much.
    Chairman Bingaman, I hope that we have a chance as we move 
along to maybe have our BLM Resource witnesses possibly answer 
some of the issues that have been raised here, because I think 
they're out there, on the ground, dealing with this every day.
    Mr. Hummer, I'm going to just be very, very brief, 
because--but I--to me, you're quoting a border organization, 
I'm not sure who the organization is, the National Association 
of Former Border Patrol Officers, I mean, I enormously respect 
border officers that have serve the country, but what Senator 
Bingaman and his staff, I think, have done here and what we've 
done in working with this legislation, is reach out to the 
Border Patrol, the people that are on the ground, that are 
working there right now. This proposal's been change 
dramatically--taken areas out of Wilderness Study in order to 
put a buffer there--in accordance with their wishes and what 
they want. I don't see any acknowledgement of that. Maybe I've 
missed it in your letter, but there has been this real----
    Senator Udall. No, seriously--there has been this real 
working effort, do you acknowledge that?
    Mr. Hummer. Yes.
    Senator Udall. There has been a real attempt to try to deal 
with the realities in working with the Border Patrol and having 
an understanding with them.
    Mr. Hummer. Yes, that's a fair statement. I actually had 
information in my testimony but to get under 5 minutes I cut 
out some additional commentary on my written testimony that's 
submitted; I did address that issue.
    Yes, and we--Dara Parker, the Senator's staff member--we 
spoke at the time that this was going on and actually said, 
``We would like to be able to hear from current Border Patrol, 
active duty Border Patrol agents,'' they can not do that. They 
can not--they were not able to go public. I think you all know 
that they, typically they don't do that. So, we were not able 
to get firsthand information from that.
    I can sit up here and say, anecdotally that there's active 
Border Patrol agents that feel the same way that we do on our 
testimony, but they're not going to be able to come public on 
that and say that.
    So, do I believe that Dara met with some folks? Yes, I do. 
Is that representative of the whole Border Patrol? We don't 
know. We don't know that. So, that's my response to that.
    Senator Udall. Thank you.
    Thank you to all of this panel, you've been very helpful. 
Thank you very much.
    The Chairman. Congressman Teague, go right ahead.
    Congressman Teague. Yes, thank you.
    Once again, I want to thank everyone that's here today for 
taking time to come to this. I especially want to thank the 
panel; I appreciate your qualified and honest answers, you 
know, to the questions that have been asked. One of the things 
about going last is that most of the questions on my list have 
already been asked, and so I won't ask you all about them 
again.
    But, Mr. Esslinger, I wanted to talk to you because I think 
you deal with something that's very important and you have an 
immense responsibility to control the floods and everything, 
but how can we work together to craft a proposal that protects 
our public lands and allows for future public infrastructure 
improvements and at the same time, you know, I think some of 
the things that you've brought up that's so very important is 
the potential to flood homes and businesses and I just wanted 
to know how you felt we could work together, because I wanted 
to try to get you the tools that you think we need to prevent 
that from happening.
    Mr. Esslinger. Thank you, Congressman. Right now there is, 
in the works, a planning group that I'm very excited to be a 
party to, but it was organized by the Dona Ana Soil and Water 
Conservation District. They came to me and said, ``Do you want 
to be a party to this?'' I said, ``Yes,'' and I said--I asked, 
``What are you going to try to do?'' They said, ``We want to 
try to do a regional water authority, develop a regional water 
authority.'' Something similar on the lines of a MAFGA in 
Albuquerque, or even one that was formed here in Las Cruces 
years ago called the Las Cruces Metropolitan.
    The problem with that is, it only reaches the area of the 
City limits, so the County was left out of any sort of flood 
planning. We need to get beyond that barrier, and maybe that's 
where you can help us, develop something that says all of these 
entities that have different revenue streams, have different 
bonding abilities could come together and we could do something 
more regionally than trying to do it piecemeal. Certainly I 
would hope that you could support us in that effort.
    We've developed a task force called Swim or Sink. I don't 
know what that acronym is going to spell out, but it sounds 
good, because certainly we're in this boat together. I don't 
want that goose that you want, cooked.
    Congressman Teague. Thank you. Thank you for that. I don't 
think any of that wants that goose cooked, we want to take care 
of that goose.
    Let's see, this next question could be for Mr. DuBois or 
Mr. Cooper, either one or actually for both of you, you know. 
As I said earlier in my opening statement, you know, I'm 
opposed to selling public land off to private interests. I 
think that, you know, and whatever capacity we keep it for, I 
think it's the public land and we should keep it for public 
land.
    Congressman Teague. But do you all believe we should sell 
public land off to private interests, and do you think any of 
the land in this designation that we're talking about today, 
should any of that be sold off to private interests?
    Mr. Cooper. The answer to that is no. We do not feel like 
any of the lands that are in S. 1689 should be sold to private 
interests and developed. Our, you know, I spoke earlier of what 
we proposed for withdrawal from sale or exchange of all of the 
wilderness study areas, and that would have prevented sale.
    Mr. Cooper. We do think that, you know, the State and the 
Federal Government have an obligation to provide areas for this 
city to grow. It's going to have to grow out of the Valley and 
on State and Federal lands, but I don't think it would need to 
encroach on any of the areas that we're talking about.
    Frank?
    Mr. DuBois. If you look at--let me just say, briefly, up 
front, I think the issue in Dona Ana County is not whether or 
not to protect these lands, the issue is what mechanism do you 
use to protect them. That's the real disagreement among the 
group.
    Mr. DuBois. The proposal that was put forward by people for 
Preserving our Western Heritage withdrew all of these lands 
from disposal, so that they could never be sold or exchanged. 
They would remain in Federal ownership in perpetuity. So that 
is really not an issue. Like I said, the issue is not 
protection versus no protection, but how we protect these 
lands.
    Congressman Teague. Thank you, thank both of you and I'm 
really glad to hear your answers, as I said earlier, at least 
we're on the same page, we want to protect the lands, we just 
have different ideas of how to do it. So, I mean, I think that 
pretty much speaks for everybody in here. I appreciate you 
all's honest statements on that.
    John, you know, I really appreciate your commitment to the 
security in the border and stuff like that because that's 
pretty important to me, but what changes do you believe that we 
need to make to the wilderness proposal to help ensure 
protection to the borders and what else do you think we need to 
do to protect our border? I mean, more agents, more--anything 
that you might think?
    Mr. Hummer. Congressman, our belief is--and my personal 
belief, too, is--similar to what Frank had mentioned, it's not 
about protection, we agree with that, protecting the Potrillo 
Complex from development, but switching the designation for 
something other than wilderness--NCA can provide protection, as 
well.
    I guess our position is, why even risk what could happen, 
based on testimony from people that are far more knowledgeable 
in the field of border security than myself and the Chamber and 
the--right next door, in Arizona, I mean, the evidence is 
overwhelming and again, people are arguing on the margins 
saying, ``Well, it's right up to the border, you know, we have 
a buffer,'' testimony after testimony from experts have 
commented on what's going on in Arizona saying, ``This small 
buffer, it doesn't prevent the attraction of illegal activity 
that can occur,'' so why risk it? That's kind of our question 
we're putting forth and, protect it--yes. But not with 
wilderness NCA.
    Other questions, I think everybody in Southern New Mexico 
would support added funding for Border Patrol Agents for new 
types of technology, surveillance, aerial, unmanned aerial, the 
more investment the better that you all could help not only the 
Nation but New Mexico, I think everybody shares that, that 
goal.
    Congressman Teague. OK, thank you. Once again, thank the 
panel for the good, honest answers and thank all of you for 
being here.
    The Chairman. Yes, let me thank this panel also, and I 
think it's been very constructive testimony.
    We've had 2 panels, we have a third panel with four 
additional witnesses to come make their testimony. We'll take 
about a 10-minute break and then start again about 4:30 p.m.
    [Recessed.]
    The Chairman. OK, why don't we get started again? Would 
everybody who wants to be here for the last panel please take a 
seat? Otherwise, go outside.
    The Chairman. All right. As we say in the Senate, please 
take your conversations to the cloakroom.
    The Chairman. Move outside if you would rather continue 
your conversation. We appreciate everyone's staying behind, I 
know it's getting late in the afternoon.
    Let me just introduce this panel and then we will hear from 
them, first we will hear from Nathan Small who is the 
Conservation Coordinator with the New Mexico Wilderness 
Alliance.
    The Chairman. Next we will hear--Nathan, you obviously 
brought your cheering squad.
    Next is John Munoz, who is a Board Member with the Hispano 
Chamber of Commerce in de Las Cruces, we appreciate you being 
here.
    The Chairman. Next is Mr. Jim Bates who is a Board Member 
with the Dona Ana County Associated Sportsmen.
    The Chairman. Finally Rolando Trevino, who is the Director 
of Engineering with the Western Pipeline Engineering Projects 
for El Paso Natural Gas. Thank you all for being here.
    The Chairman. Nathan, why don't you start? Please.

  STATEMENT OF NATHAN P. SMALL, CONSERVATION COORDINATOR, NEW 
                   MEXICO WILDERNESS ALLIANCE

    Mr. Small. Yes, sir.
    Thank you, Senator. Thank you, Senator Bingaman and Senator 
Udall for inviting me here to say a few words on the Organ 
Mountains-Desert Peaks Wilderness Act, S. 1689. We are all 
close to something incredibly special. Permanently protecting 
natural lands and treasures like the Organ Mountains, Broad 
Canyon, the Potrillos, and more. We are here because of hard 
work, cooperation, compromise, and commitment.
    It's been asked for decades--what will happen to our 
magnificent mountains? First called Los Organos by the early 
Spaniards, the Organ Mountains have to come to define our 
region and inspire our community. In too many other 
communities, such nearby natural treasures have been overrun. 
We do not want to see that happen here. Almost 80 percent of 
the lands to be protected as wilderness in S. 1689 are now 
temporarily protected as wilderness study areas. In most cases, 
this designation has been there for over 2o decades, so we have 
a very good start--temporary wilderness study areas, knowing 
what goes on in them and being comfortable with the management 
schemes. We have a good start.
    To permanently protect these mountains requires an act of 
Congress, and we have to work together. I am honored to have 
been part of groups that worked to identify and then overcome 
challenges. Local agreements with sportsmen, and I am proud to 
be a hunter, ironed out longstanding vehicular access issues. 
Even the Las Cruces Homebuilder's Association supported this 
exact proposal, even larger, in fact, before undoing that 
agreement.
    Many issues needed much more attention to resolve. Senator 
Bingaman, you and your staff have done a masterful job of 
gathering input, working with all stakeholders and building an 
incredibly balanced bill. This legislation made changes to 
proactively deal with any problems including, excluding all 
corrals and drinkers for cattle ranching, excluding over 16,000 
of Wilderness Study Area to better address border security.
    In addition, existing agreements with Border Patrol to use 
vehicles in pursuit without any need for permission entering 
Wilderness Areas in pursuit of suspects all contribute to the 
balance in this bill.
    To be sure, changes were made. To be sure, also, most 
changes have taken away lands from conservation designations. 
For border security, cattle ranching, flood control and 
community growth, these changes came through the diligent work 
of our community, and especially your staff, and Senator Udall 
and they should be supported.
    The buffer along the southern part of the Potrillos is a 
number of miles in length, expanded under your proposed 
legislation which I think we can all agree, improves the 
situation on the ground today, allows for total placement of 
infrastructure within this miles-wide strip that is much larger 
than others that have been held up as examples in Arizona, and 
so I think as one of the many benefits you all have 
accomplished.
    Supporters desires have been clear at every turn. Hundreds 
of concerned citizens attended a November 2006 meeting at the 
Farm and Ranch Heritage Museum to support wilderness.
    In June 2008, hundreds more came to oppose efforts that 
would have sold sell-out protections in the Organ Mountains and 
sold off massive amounts of local, open space, public lands.
    When S. 1689 was introduced, editorials, local government 
resolutions of support and thankful phone calls all poured in.
    Senators, by introducing the Organ Mountains-Desert Peaks 
Wilderness Act, you have acknowledged the overwhelming desire 
of our community members to ensure that a piece of our beloved 
wild treasures will be here for their grandchildren and beyond. 
Hundreds are here today to support your efforts. When S. 1689 
passes and is signed into law, future generations will be 
forever grateful that you had the vision and commitment to make 
this conservation measure a reality.
    I would like to read a quick email. I think we get--rightly 
so--focused on scoring away all of the details, and again, I 
believe a masterful job has been done with that. But there are 
also these intangible issues. I grew up, learned how to hunt 
from my grandfather and now I'll read you an email from a 
grandmother in this community.
    Over the age of 80, she took a walk into Valles Canyon to 
see the incredible petroglyphs that stand there on public land. 
It took an extra long time to go down and come back, but it was 
a wonderful trip for all. Her name is Marnie Levril, this is 
Marnie's email. ``I just got your message about the meeting on 
February 15, oh how I would like to be there. But I fell and 
broke my hip--I know, 'tis the pits, but it happened--and I'm 
in Good Samaritan Healthcare Center,'' she has since returned 
home, ``Getting physical therapy and can't make it. I hope 
there is a big crowd. Please add my voice to others, if you 
can, who wish they could be there to speak up but can't make it 
in person. Mine is a heartfelt message that we need to hold on 
to all of the wilderness we can. When it is gone, it is gone 
forever. Now is the time to take the step that will ensure 
future discovery trips, once in a lifetime experiences for new 
hikers, and other wilderness experiences for those who come 
after us.''
    Powerful email, thank you Senators. I thank you all in the 
crowd, everyone who has come out today. It is a very important 
issue and preserving these lands so that we can continue to 
have the gem that defines our region where we can take future 
generations and go ourselves is an incredibly worthy goal.
    Thank you.
    [The prepared statement of Mr. Small follows:]

 Prepared Statement of Nathan P. Small, Conservation Coordinator, New 
                       Mexico Wilderness Alliance

    The Organ Mountains Desert Peaks Wilderness Act, S. 1689, is 
strong, community inspired legislation. It has been built through the 
hard work of many different stakeholders, and also through the guidance 
of good leadership--both on the local and national levels. On behalf of 
the New Mexico Wilderness Alliance, I am proud to endorse this 
important legislation that was developed over many years and with an 
impressive amount of public input. In my testimony, I will touch on 
just some of the bill's many merits.
    The most important aspect of S. 1689 is that it protects special 
public lands that are worthy of Wilderness designation. The magnificent 
Organ Mountains are the dramatic backdrop for Las Cruces, NM's second 
largest city. Midway up their steep slopes, you can find clear streams 
flowing past Ponderosa Pine trees, while far below urban life sends 
residents scrambling through the day. Across the Rio Grande and to the 
west rise the Robledo Mountains, home to the newly minted Prehistoric 
Trackways National Monument. This Monument celebrates Pre-Cambrian 
tracks that are among the most scientifically important examples in the 
world. The Robledos hold many other natural treasures, as attested to 
during a recent camping trip where hikers saw 12 mule deer within two 
hours of leaving their vehicle. Immediately north and west of the 
Robledo Mountains begins the Broad Canyon Country. Flat topped bajadas 
are cut by winding canyons. In places the canyons narrow, and rock 
walls rise on either side. Native American petroglyphs grace these 
hidden halls, and riparian areas where tinajas trap precious water. 
Farther north are the peaks of the Sierra de Las Uvas Mountains. 
Containing equal measures of rolling grasslands and rugged lava rock 
ridges, these mountains shelter many plant and animal species and reach 
above 6000 feet in elevation. South of the Sierra de Las Uvas rise the 
Potrillo Mountains complex--a large and diverse mosaic that contains 
lava flows teeming with barrel cactus and soaptree yuccas, with the 
fresh rootings left by javelina herds following twisting grass filled 
draws in between jagged lava cliffs. Also in the Potrillo Mountains 
complex stretch a chain of cinder cone mountains. The towering summits 
of Mt. Cox and Mt. Riley overlook the region, towering above the 
symmetrical slopes of the East Potrillo Mountains.
    Most of these lands have, for decades, been classified as 
Wilderness Study Areas (WSAs) by the Bureau of Land Management (BLM). 
We must turn our gazes backward and tip our hats in appreciation for 
the foresight shown by BLM in Dona Ana County in the mid 1980's, when 
most of the WSA's were identified. Portions of the Potrillo Mountains, 
Sierra de Las Uvas Mountains, Robledo and Organ Mountains all received 
interim protections as WSA's. While public lands designated as WSAs 
receive special management by the BLM, they do not have the gold 
standard of protection that Wilderness designation provides.
    Other lands included in S. 1689--Broad Canyon and the East Potrillo 
Mountains--do not currently enjoy interim WSA protection. Fortunately, 
Broad Canyon's hidden riparian areas, sweeping grasslands, beautiful 
petroglyph-pocked cliffs, and stunning diversity of plant and animal 
species remain true to the 1964 Wilderness Act's key criteria. The 
Broad Canyon Country does possess, ``outstanding opportunities for 
solitude or a primitive and unconfined type of recreation at least five 
thousand acres of land [and containing] ecological, geological, or 
other features of scientific, educational, scenic, or historical 
value'', in accordance with the 1964 Wilderness Act. The craggy summits 
and quiet canyons in the rugged East Potrillo Mountains also meet these 
qualifications. Thus, both areas richly deserve the Wilderness 
protections now offered to them in S. 1689.
    Many citizens, some who were members of conservation organizations 
and others who were not, have long sought protections for Broad Canyon, 
the East Potrillo Mountains, and even other areas not included in S. 
1689. They worked to rectify the oversights that excluded them from the 
original WSA interim protections. We owe these citizens a debt of 
gratitude for their long hours, tireless dedication, and lasting 
commitment to conservation. The New Mexico Wilderness Alliance (NMWA) 
is proud to have played an important role in documenting and validating 
both the values and boundaries that furthered discussions and fine 
tuned map proposals for protecting Broad Canyon and the East Potrillo 
Mountains.
    These passionate advocates were far from the only community members 
interested in protecting our County's natural lands. Local sportsmen, 
part of a long line that stretches back to some of America's first and 
most important conservationists, have spent generations pursuing game 
or just a good photograph in local wild lands. In the spirit of 
cooperation, local sportsmen leaders sat down and helped develop 
proposals and ideas to protect vast amounts of high quality roadless 
habitat while also identifying sufficient vehicular access for people 
and even quail hunting dogs that can quickly tire during a day's 
hunting. These agreements took time to accomplish, but once made have 
held fast.
    To your credit, S. 1689 reflects many such community proposed 
compromises, and it is stronger for this fact.
    There are many groups who have worked together to build a strong 
foundation for S. 1689. Many of the most active share a strong service 
and stewardship ethic that shows itself time and again in work to 
restore and improve public lands.
    Again, take the example of the many local sportsmen organizations. 
The Dona Ana County Associated Sportsmen, Quail Unlimited, Southwest 
Consolidated Sportsmen, Wild Turkey Sportsmen's Association and New 
Mexico Wildlife Federation--to name a few--have literally spent tens of 
thousands of dollars on habitat improvement projects, while 
volunteering untold amounts of time. The Back Country Horsemen helped 
build the Soledad Canyon Trail in the proposed Organ Mountains National 
Conservation Area, and the NM Wilderness Alliance has worked on local 
erosion control projects among others. Around the community school 
teachers have taken classes out to Aguirre Springs, and there are 
numerous hiking clubs who take regular trips into proposed Wilderness 
areas.
    The strength of S. 1689, the Organ Mountains Desert Peaks 
Wilderness Act are the many groups and individuals who helped craft it 
and now support it. We are a community that is connected to our nearby 
natural treasures--public lands like the Organ Mountains and Broad 
Canyon. Permanently protecting this connection is critical to our 
community's future well being.
    Harnessing the community energy and passion would never have been 
possible without the outstanding leadership of Senator Jeff Bingaman 
and his staff. To his credit, Senator Pete V. Domenici helped begin 
this conversation in 2004. However, Senator Bingaman and his staff have 
come in and completed a painstaking process of stakeholder input, on 
the ground verification, and boundary adjustment to reach this moment. 
Senator Udall and his staff also played a very positive role in 
finalizing the legislation. Both Senators are to be commended for their 
commitment to using local input in crafting this legislation.
    To be sure, conservationists have had to accept hard decisions. One 
such decision would release over 16,000 acres of land along the 
southern boundary of the West Potrillo Mountains WSA. Another would 
change the designation for the majority of Broad Canyon from Wilderness 
to NCA. However, Senator Bingaman and Senator Udall offered robust 
justification for the changes. On the challenges of flood control and 
border security we are all aware of the need for common ground, and 
being part of this community only makes the need for well balanced 
approaches more important.
    One area where we have not had to compromise is on the numerous 
boundary adjustments made for grazing permittes. Going back to the 
original 1964 Wilderness Act, and fine tuned with the release of the 
1990 Congressional Grazing Guidelines, it is clear that Wilderness 
designation and ranching can and do coexist. We support that 
coexistence.
    Objections to S.1689 have been raised. Most have focused on the 
coexistence of Wilderness designation and ranching. On this subject, to 
again be perfectly clear, we support the proper application of the 
original Wilderness Act and the Congressional Grazing Guidelines, which 
work together to ensure grazing where an existing use can smoothly 
continue after Wilderness designation. Some other objections, focused 
around border security and flood control, would be proactively 
addressed through this legislation, and in fact help improve the 
current situation on the ground. It is not necessary to take up each 
objection in this testimony. Some objections simply eclipse the 
imagination, such as the once heard contention that Wilderness 
designation would restrict air travel to the Las Cruces airport.
    However, one other that should be addressed is the contention that 
Search and Rescue operations, using mechanized vehicles or helicopters, 
cannot take place in designated Wilderness areas. In December 2006, 
James Newberry, then the NM State Search and Rescue Resource Officer, 
clearly stated that Search and Rescue missions in response to life and 
limb situations in Wilderness areas could and did use mechanized 
vehicles in their efforts, when necessary and feasible due to terrain 
limitations.
    Before concluding, please allow me to briefly relate my story. It 
began and continues in the Land of Enchantment. I grew up with a 
connection to the land. My grandfather would take me hunting, wood 
gathering, horse-back riding and exploring on Mt. Taylor, near Grants. 
While attending the College of Wooster in Ohio, I began rediscovering a 
passion for the land and especially for taking others out into nature. 
After graduation, I quickly returned home. Since moving to Las Cruces, 
I feel incredibly fortunate to have helped lead dozens of trips into 
proposed Wilderness and NCA lands. The youngest participant, who was 
all of three months old at the time, was carried by her mother on a 
Mother's Day Hike into Soledad Canyon in the Organ Mountains. Our 
oldest participant was in her 80's, and made the trip to view the 
magnificent petroglyphs of Valles Canyon in the Broad Canyon Country. I 
have been fortunate to pursue game in S. 1689's proposed Wilderness 
areas and ride my horse through its sweeping grasslands. Like so many 
other residents and visitors alike, I love local natural treasures like 
the Organ Mountains, Broad Canyon, the Potrillos and the Robledos.
    Our community is ready for the Organ Mountains-Desert Peaks 
Wilderness Act to be passed into law. Thank you Senators for crafting 
this legislation and listening to the community while doing so. Thank 
you also for introducing it in Congress, and I look forward to thanking 
our entire delegation for helping pass S. 1689 on to the President. 
Then it can be signed into law, forever protecting some of Southern New 
Mexico's most magnificent public lands.

    The Chairman. Thank you very much.
    Mr. Munoz, please go right ahead.

   STATEMENT OF JOHN P. MUNOZ, DIRECTOR SITEL, BOARD MEMBER, 
          HISPANO CHAMBER OF COMMERCE, LAS CRUCES, NM

    Mr. Munoz. Chairman Bingaman and Senator Udall, Congressman 
Teague, thank you very much for this opportunity to testify in 
support of S. 1689. My name is John Munoz and I am the Director 
of Sitel Las cruces. Officially, I'm known as Mr. Sitel, but my 
name for the record is Munoz, so thank you very much.
    We started this group here 4 years ago with 3employees. Now 
we employ over 500 residents and are a multi-million dollar 
award-winning operation. I also proudly serve on the Board of 
Directors for the Hispano Chamber of Commerce. The mission of 
Chamber of Commerce is to advocate for economic development, 
education, cultural awareness, and community service. Our 
Chamber, made up of over 300 small, medium and large businesses 
carefully and closely reviewed the potential of S. 1689.
    It is clear to us that protecting these precious lands is 
good for business, good for the environment, and good for our 
community. While there are many reasons to support swift 
passage of S. 1689, I wish to focus my remarks on the economic 
justifications for doing so.
    Our community is vibrant and growing. We have higher than 
the national average rates of population growth, in-migration, 
and employment. There are many factors which contribute to our 
overall growth and economic strength. We have an outstanding 
Land Grant University with NMSU on-campus today, large Federal 
installations in White Sands Missile Range, the Goddard NASA 
Test Facility, and phenomenal growth in DACC Community College 
and our ability to attract and draw people and businesses at a 
rapid rate. One of these reasons is the Organ Mountains. With 
rooms to grow, many newcomers settle here in large part because 
of our high quality of life. AARP recently cited hiking and 
camping in the Organ Mountains as one of the main draws that 
put Las Cruces near the top of communities for Baby Boomers to 
retire. Choosing to relocate to a community because of the 
quality of life is known as ``amenity migration'' a phrase made 
popular by recent economic studies.
    As my own example will show, employers are on the lookout 
for high quality of life areas for their employees--employees 
like mine who range from 18.5 to 79 years of age.
    The Hispano Chamber and others recently sponsored a 
Wilderness Economic Conference. This Conference drew in over 
100 people from Las Cruces and surrounding communities on a 
cold, snowy Saturday morning, and Las Crucens do not like to 
drive in the snow, so I think that hat conference was a huge 
success.
    Much information was shared on the potential of the 
economic opportunities. According to an outdoor industry 
association study, outdoor recreation contributes roughly $730 
billion to the U.S. economy annually and about $3.8 billion to 
New Mexico's economy. It makes sense that visitors to our 
community--whether bicycling, camping, hunting or wildlife 
watching--will buy foods and supplies and possibly stay at one 
of our hotels.
    DACC College is pioneering a program to develop and support 
local tourism initiatives with the focus on eco-tourism 
connected to local public lands. Led by their dynamic 
President, Dr. Margie Wetta, DACC has seen a tremendous 
enrollment growth and is one of the top colleges in this 
region.
    Their interest in leveraging economic gain and local jobs 
from lands included in S. 1689 is a testament to our 
community's hunger for economic growth through conservation.
    You know, 4 years ago when we were looking at sites and I 
was asked what I thought of Las Cruces and would I be willing 
to move here, I knew very little about this area. A few years 
ago, my dad convinced me as I was driving back home to Texas to 
take the scenic route. I did, but I started late, so I--and I 
want to phrase this carefully--I stopped to go to the bathroom, 
get gas for my car, it was dark, so I really didn't see 
anything except the gas station. So, I moved on.
    Years later, during the day, when I was flown over here and 
asked to look at the area, I was surprised and amazed. I saw 
the beautiful Organ Mountains, and I was just awed. The next 
step was to convince my wife. Shortly after that, we flew my 
son and my wife over. It was a rough start, especially leaving 
El Paso and passing through the dairy farms and the distinct 
and impressionable smell where I got ``the look'' from my wife. 
I kept focused, kept straight on the Las Cruces.
    Eventually, we got to Las Cruces, a little time passed, my 
son and wife, for the first time saw a stunning sunset in those 
beautiful and pristine and majestic Organ Mountains. They were 
hooked.
    Obviously, we made a financial and business decision on 
labor markets, weather, real estate, however there were other 
cities that had similar indicators, some perhaps slightly 
better. But I can't put a number or a measure to it, but the 
Organ Mountains and these wildlands really made an impression 
on me, and especially, as well, the people of Las Cruces. 
That's what sealed the deal for me. So I thought, this was a 
place where I would want to relocate and raise my family.
    My personal experience and my business experience tell me 
that S. 1689 is right for Southern New Mexico. When 
conservationists and Chambers of Commerce can work together for 
the betterment of the community, that is a very good thing.
    Thank you for your time, Senators.
    [The prepared statement of Mr. Munoz follows:]

  Prepared Statement of John P. Munoz, Director Sitel, Board Member, 
              Hispano Chamber of Commerce, Las Cruces, NM

    Chairman Bingaman and Senator Udall, thank you very much for this 
opportunity to testify in support of S.1689, the Organ Mountains-Desert 
Peaks Wilderness Act of 2009. My name is John Munoz, and I am the 
Director of Sitel Las Cruces. We started this group here four years ago 
with three employees. Now we employ over 500 residents and are a multi-
million dollar award-winning operation. I also proudly serve on the 
Board of Directors for the Hispano Chamber of Commerce de Las Cruces. 
The mission of the Hispano Chamber of Commerce is to advocate for 
economic development, education, community service, and cultural 
awareness.
    Our organization made up of over 300 small medium and large 
businesses carefully and closely reviewed the potential of S.1689. It 
is clear to us that protecting these precious lands is good for 
business, good for the environment, and good for our community. While 
there are many reasons to support swift passage of S. 1689, I wish to 
focus my remarks on the economic justifications for doing so.
    Our community is vibrant and growing. We have higher than the 
national average rates of population growth, in-migration, and 
employment. There are many factors which contribute to our overall 
continued economic strength. We have an outstanding Land Grant 
University with NMSU, large federal installations in White Sands 
Missile Range, the Goddard NASA Test Facility, and our ability to 
attract and draw people and businesses at a rapid rate. And we also 
have abundant, and in many cases visually striking and easily 
accessible public lands.
    Foremost among these are the iconic Organ Mountains. Appearing on 
numerous business marquees, shop signs, and mastheads--the Organs are a 
clear defining characteristic of our community. They are part of our 
identity in Southern New Mexico. Las Cruces retains room to grow, but 
we count ourselves lucky to have the Organs and their foothills as a 
place where full scale development will abut but not invade.
    Many newcomers settle here in large part because of our high 
quality of life. A key component of that quality of life is the open 
natural public lands surrounding our community. AARP recently cited 
``hiking and camping in the Organ Mountains'', as one of the main draws 
that put Las Cruces near the top of communities for Baby Boomers to 
retire. As you will see, my own settlement story is intimately 
connected to the Organ Mountains.
    Choosing to relocate to a community because of its quality of life 
is known as Amenity Migration, a phrase made popular by recent economic 
studies. These amenities--scenery, recreation, clean air and water--are 
not only important to retirees. As my own example will show, employers 
are on the lookout for high quality of life areas--for our employees to 
raise their families. With our close proximity to the El Paso airport, 
a burgeoning alternative energy industry, and an increasingly 
technology and research focused University, conditions are ideal to 
spur strong and sustained economic growth.
    Across the West, counties with protected public lands outperform 
their peers on economic performance indicators than those without 
protected public lands. A key ingredient in this equation is having a 
good transportation infrastructure, and being close to an airport. The 
presence of a University is also important. Let's look at Las Cruces, 
and Dona Ana County. With our two interstates--I-10 and I-25--along 
with the nearby El Paso International Airport and New Mexico State 
University, our community meets all of these important criteria. And, 
although we currently lack permanently protected public lands, we do 
have temporarily protected Wilderness Study Areas. After these areas 
were given interim protections, our population and per-capita income 
continued growing, according to a 2005 Sonoran Institute study. By 
moving ahead now with S. 1689 to permanently protect our wilderness 
areas, and with a committed branding effort already taking shape, our 
community stands poised to reap economic gain from the Organ Mountains-
Desert Peaks Wilderness Act.
    The Hispano Chamber and others recently sponsored the Wilderness 
Economics conference. This conference drew in over 100 people from Las 
Cruces and surrounding communities on a cold snowy Saturday morning. 
Much information was shared on potential economic opportunities. 
According to the Outdoor Industry Association Study outdoor recreation 
contributes roughly $730 billion dollars to the US economy annually and 
$3.8 billion to New Mexico's economy. It makes sense that visitors to 
our community whether bicycling, camping, hunting, or wildlife watching 
will buy food and supplies and possibly stay in one of our local 
hotels.
    Dona Ana Community College is tasked with workforce training and 
rapid educational improvement. DACC is pioneering a program to develop 
and support local tourism initiatives with a focus on ecotourism 
connected to local public lands. Led by their dynamic President, Dr. 
Margie Huerta, DACC has seen tremendous enrollment growth and is seen 
as one of the top regional Community Colleges. Their interest in 
leveraging economic gain and local jobs from lands included in S. 1689 
is testament to our community's hunger for economic growth through 
conservation.
    I realize this isn't the magic bullet for jobs. While many across 
our great nation are struggling or have been impacted by the recent 
economic downturn, I would think creating some jobs would be the right 
thing to do.
    As mentioned my story is connected to the Organ Mountains. When we 
were looking at sites I was asked what I thought of Las Cruces and 
would I be willing to move here and start-up Sitel Las Cruces. I knew 
very little about this area. On a long trip years ago, I stopped in Las 
Cruces to fill-up my car and go to the bathroom. I was tired and it was 
dark so I didn't get to see much. I was completely surprised when years 
later I came into Las Cruces and saw the Organ Mountains and these 
magnificent wild lands. Convincing my wife was the next step. Shortly 
after my visit we flew over here. It was a rough start after leaving El 
Paso and passing by the dairy farms and that interesting and 
impressionable smell.
    However, once we entered Las Cruces and my wife and son experienced 
their first stunning sun-set and the ever so pristine and majestic 
Organs.
    Obviously we made a financial and business decision based on labor 
market, weather, and real-estate; however, there we other city sites 
with similar indicators a couple slightly better. I can't measure or 
put a number to it but the impression of the Organs and these lands 
help seal the deal for me. This was the place I wanted to relocate and 
raise my family.
    My personal experience and my business experience tell me S.1689 is 
right for Southern New Mexico. And, when conservationist and chambers 
of commerce can work together for the betterment of their community 
again, that is a very good thing.

    The Chairman. Thank you very much.
    Thank you very much.
    Mr. Bates? We're glad to hear from you, go ahead.

        STATEMENT OF JIM BATES, RESIDENT, LAS CRUCES, NM

    Mr. Bates. Can everybody hear me?
    Thank you, Senators and Congressman. I remember you from a 
quail hunt, I believe, Congressman Teague. I won't tell that 
story.
    Congressman Teague. Please don't.
    Mr. Bates. My name is Jim Bates----
    The Chairman. He didn't shoot anyone, did he?
    Mr. Bates. There was a lot of conversation about that, I 
think, the incident you're referring to, there, so--but no, he 
didn't.
    Anyhow, my name is Jim Bates. I am here in Las Cruces, I've 
lived here since 1965. You might ask what I'm doing up here on 
the panel, I don't know either, but I'll give you some 
background information.
    I graduated from Las Cruces High School and New Mexico 
State University with a degree in Wildlife Science. I have been 
a building contractor in this community for the last 32 years, 
professionally I'm a member of the building industry's 
Association of Southern New Mexico, which was formally known as 
the Las Cruces Homebuilder's Association and I have served on 
its Board of Directors and have served as Chairman of the 
Remodeler's Council for them.
    One of the reasons I'm up here is because I'm actively 
involved with many local, State and national conservation 
organizations, including the National Wild Turkey Federation, 
the New Mexico Wildlife Federation, the Rocky Mountain Elk 
Foundation, Ducks Unlimited, Quail Unlimited, Southwest 
Consolidated Sportsmen, Dona Ana County Associated Sportsmen 
and Wild Turkey Sportsmen's Association. I either hold or have 
held leadership positions in all of these. Anybody wants to go 
debate that with my wife, please feel free to do so, as to the 
merits of that.
    These organizations represent the interests of thousands of 
sportsmen and conservationists in this area and throughout the 
State. Because of my extensive involvement with these groups, I 
believe I have a good understanding of the issues and concerns 
of their members. Make no mistake, however, by assuming that my 
comments represent all sportsmen or sportsmen's groups 
concerned with this issue. They do not. Based on my personal 
assessment, and that of many others I've spoken with, I do 
believe that they represent the position of a strong majority 
of those sportsmen to be affected by the outcome of this 
process.
    I am very familiar with the areas being considered for 
protection. I have spent many days of my life exploring these 
areas. I have driven most, if not all, of the existing roads in 
these areas, and have hiked and/or hunted almost every ``nook 
and cranny'' to be found there.
    I have also been actively involved in the community 
discussion and debate that has taken place regarding this 
proposal, not only in recent years but over the 2 decades since 
the establishment of the wilderness study areas, as well. I 
have a firm foundation for conveying information about these 
areas that may be of importance in discussion of the proposed 
legislation.
    I believe I can accurately state that the wilderness 
proposal, in its initial form and wording, would likely not 
have received support from the majority of sportsmen's groups. 
However, the process of debate and compromise that occurred 
during the community forums and meetings that took place has 
alleviated our concerns and brought us to a point of being 
strong supporters of the legislation.
    From my perspective, every effort has been made to appease 
those individuals and groups that have participated in the 
process. Very real compromises and concessions have been made. 
Concerns have been expressed about the elimination of roads and 
access in these areas. About how livelihoods would be impacted 
and about how the public good and public safety would be 
jeopardized. Those of us that support the wilderness proposal 
recognize these concerns and much effort had been taken to 
address them, just as similar efforts were made to address the 
concerns of sportsmen and other recreational users that have 
come to support this legislation.
    We recognize that others oppose this legislation and have 
had valid issues and concerns. It is unfortunate that the 
spirit of compromise that has worked so well to bring us to 
where we are today has not been able to satisfy their 
misgivings with the wilderness proposal.
    I have personally discussed various aspects of the proposal 
with some of the individuals involved, and my perception is 
that these individuals are well-meaning folks with a general 
distrust of the government and its intervention into their 
lives. I would submit to you that such distrust is not grounds 
for the dismissal of this process, of this legislation, or the 
future well-being of these unique and fragile areas that this 
legislation will protect.
    Having said that, trust is a 2-edged sword. We, as 
citizens, landowners, businessmen, sportsmen, and other 
recreational users, have put our faith in the government on the 
line to do what is right with these areas. Compromises have 
been made and stipulations have been agreed upon in the name of 
good faith among all the entities involved here. We expect 
these agreements to be adhered to and the rights and privileges 
of all the stakeholders, as designated in this wilderness 
legislation, to be maintained in perpetuity.
    Finally, we are all aware of the growth that is occurring 
in this region, and as such, we should have the vision to 
realize the impacts that growth will have on the area and its 
inhabitants, both human and otherwise. We have been granted the 
wisdom, foresight, and opportunity to take measures to ensure 
that the natural treasures that surround us, and the plant and 
animal communities that reside in them, will not be lost.
    It has been said the wilderness designation is the ``gold 
standard'' for protecting places and insuring future 
generations have the opportunity to enjoy them. Let us not 
waste this opportunity to achieve that standard.
    [The prepared statement of Mr. Bates follows:]

       Prepared Statement of Jim Bates, Resident, Las Cruces, NM

    My name is James (Jim) Bradley Bates. I am a Las Cruces resident 
and have lived here since 1965. I graduated from Las Cruces High School 
in 1969 and received a degree in Wildlife Science from New Mexico State 
University in 1973. I received my journeyman carpenters certification 
from the Carpenters Union in 1978 and became a licensed General 
Contractor in the state of New Mexico shortly thereafter. I have worked 
in the Las Cruces area as a general contractor in the building industry 
since that time.
    I believe I was chosen to speak towards the proposed wilderness 
legislation as a result of my familiarity of the areas in question over 
the last four decades, and also because of my involvement with many 
conservation and sportsmen's groups in the community and state. I am 
currently the NM state chapter president for the National Wild Turkey 
Federation and chairman of the Mesilla Valley Longbeards chapter of 
NWTF. I currently represent the NWTF on the Southwest Consolidated 
Sportsmen (SCS) steering committee. I have also served as chairman of 
SCS. In addition, I am on the Board of Directors of the Dona Ana County 
Associated Sportsmen and the Wild Turkey Sportsmen's Association and 
have served as president of those organizations, as well. I have also 
served as chairman of the local Rocky Mountain Elk Foundation and Mule 
Deer Foundation banquet and fundraising committees, and have served on 
the banquet/fundraising committee for Ducks Unlimited. I am a member of 
the local Quail Unlimited chapter and the New Mexico Wildlife 
Federation. These organizations represent the interests of thousands of 
sportsmen and conservationists in this area and throughout the state.
    Because of my extensive involvement with these groups, I believe I 
have a good understanding of the issues and concerns of their members. 
Hopefully, I will be able to adequately represent the prevailing 
attitudes and sentiments of these groups in this forum. Make no 
mistake, however, by assuming that my statements and/or comments 
represent all sportsmen or sportsmen's groups concerned with this 
issue. They do not. Based on my personal assessment, I do believe that 
they represent the position of a strong majority of those sportsmen to 
be affected by the outcome of this process.
    As previously stated, I am very familiar with the areas being 
considered for protection. I have spent many days of my life exploring 
and recreating in these areas. I have driven most, if not all, of the 
existing roads in these areas, and have hiked and/or hunted almost 
every ``nook and cranny'' to be found there. As such, I believe I have 
a firm foundation for conveying information about these areas that may 
be of importance in the discussion of the proposed legislation.
    I have also been actively involved in the process of considering 
the fate of the areas of concern, not only from the community 
discussion and debate that has taken place in the last several years, 
but from a much longer perspective that began 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f1fcfdffe3e4d4f1e6f9f4cfd2e2fffffbe3d0f5fef5e2f7e9bee3f5fef1e4f5bef7ffe6">[email&#160;protected]</a>, & <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42062330231d12233029273002202b2c25232f232c6c31272c2336276c252d34">[email&#160;protected]</a> 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6923061b0e0c363a00051f08442b08071c0c05061a290b00070e08040807471a0c07081d0c470e061f">[email&#160;protected]</a> two decades ago with the 
establishment of the wilderness study areas. The wilderness issue in 
question has been discussed in many conservation and sportsmen's forums 
well prior to that occurring in the last few years. Those discussions 
included many concerns about the future designation of wilderness for 
these areas, and in fact, I can confidently state that the wilderness 
proposal, in its initial form and wording, would likely not have 
received support from the majority of these groups. The fact is, 
though, that the process of debate and compromise that occurred during 
the community forums and meetings that took place has alleviated our 
concerns and, in turn, brought us to the point of being strong 
supporters of the legislation.
    From my perspective, every effort has been made to appease those 
individuals and groups that have participated in the process. Very real 
compromises and concessions have been made. Existing roads that were 
proposed to be eliminated have been left intact, both to the benefit of 
the ranching interests, and also to provide reasonable access to the 
wilderness areas for recreational users. In reality, very few ``legal'' 
roads within the proposed boundaries will be closed, and the ones that 
will be closed are, in general, currently open only to those possessing 
off-road-vehicle type capabilities. Once again, though, the number and 
length of the roads that will closed as a result of the passage of this 
legislation is insignificant.
    Certain off-highway vehicle (OHV) users have stated that wilderness 
designation will impact their recreational privileges in these areas. 
The fact is that their privileges will be no more affected than those 
of the general public. Knowledgeable public land users in Dona Ana 
County are already aware that all motorized off-road vehicle use is 
currently prohibited except on designated roads. Furthermore, hundreds 
of miles of legal roads exist on hundreds of thousands of acres 
throughout the county in areas similar to those under consideration for 
wilderness designation,....roads that will not be impacted by this 
legislation. The idea that this wilderness designation will 
significantly impact OHV recreational uses is unfounded.
    Similarly, concern has been expressed about the ability of law 
enforcement officials to effectively carry out their duties as a result 
of potential wilderness designation, especially in the West Potrillo 
Wilderness complex. My understanding of this concern is that it regards 
the flow of illegal traffic and activities in a generally northern 
direction from the Mexican border. Currently, to my knowledge, there is 
only one legally designated road that runs north through the proposed 
wilderness complex that will be closed as a result of the legislation. 
This road is a very rough, often washed-out, two-track trail that runs 
approximately two-thirds the length of the West Potrillo Mountains. The 
southern two thirds of this jeep trail would be closed as part of the 
wilderness. At this time, anybody can legally drive that road. 
Therefore, law enforcement has no concrete reason to suspect illegal 
activity is occurring if the road is driven. However, if that road is 
closed, any motorized vehicle activity on that road will be illegal and 
hence, cause for investigation. The closure of that road, if anything, 
will make law enforcement easier, not more difficult. Remember, there 
is no legal off-road vehicle use on public lands now. Therefore, any 
evidence of motorized vehicle use along the southern wilderness 
boundary will be cause for investigation, and that investigation will 
be allowed to take place, as I understand it, within the provisions of 
the wilderness legislation.
    Finally, the argument has been made that certain works for the 
public good and safety will be inhibited by wilderness designation for 
these areas. Specifically, flood control has been mentioned. This 
concern is laudable, and if it indeed a real issue, it should be 
addressed. However, many of us, sportsmen or not, question the validity 
of this argument against wilderness, as well. The fundamental question 
to be asked is, ``Where are these areas of concern, and how are they 
impacted by wilderness designation?'' If there are real issues 
regarding public good and safety, let's identify and address them. Let 
us not use them as a justification for condemning this wilderness 
legislation.
    We recognize that others oppose this legislation and have had valid 
issues and concerns, as well. It is unfortunate that the spirit of 
compromise that has worked so well to bring us to where we are today, 
has not been able to satisfy their misgivings with the wilderness 
designations. I have personally discussed various aspects of the 
proposal with some of the individuals involved, and my perception is 
that these individuals are well-meaning folks with a general distrust 
of the government and its intervention into their lives. I would submit 
to you that such distrust is not grounds for the dismissal of this 
process, this legislation, or the future well-being of these unique and 
fragile areas and their natural inhabitants that truly deserve the 
protection that this legislation will provide.
    Having said that, trust is a two-edged sword. We, as citizens, 
landowners, businessmen, sportsmen, and other recreational users, have 
put on faith in the government on the line to do what is right with 
these areas. Compromises have been made and stipulations have been 
agreed upon in the name of good faith among all the entities involved 
here. We expect these agreements to be adhered to and the rights and 
privileges of all the stakeholders, as designated in this wilderness 
legislation to be maintained in perpetuity.
    Finally, we are all aware of the growth that is occurring in this 
region, and we should have the vision to realize the impacts that 
growth will have on the area and its inhabitants, both human and 
otherwise. We have been granted the wisdom, foresight, and opportunity 
to take measures to insure that the natural treasures that surround us, 
and the plant and animal communities that reside in them, will not be 
lost. It has been said the wilderness designation is the ``gold 
standard'' for protecting places and insuring future generations have 
the opportunity to enjoy them. Let us not waste this opportunity for 
gold.

    The Chairman. Thank you very much.
    Next we have Rolando Trevino, who is with El Paso Natural 
Gas. Go right ahead, please.

 STATEMENT OF ROLANDO TREVINO, DIRECTOR, ENGINEERING, WESTERN 
       PIPELINE ENGINEERING PROJECTS, EL PASO NATURAL GAS

    Mr. Trevino. OK, before I start my remarks, I have to say 
that I'm somewhat jealous of the other panel members. It 
appears that they have many, many friends in the audience, and 
I regret, I have but one co-worker and one employee in the 
audience, if they're still here, this afternoon. But I will 
persevere.
    Mr. Trevino. Good afternoon, Chairman Bingaman, Senator 
Udall, Congressman Teague, and thank you for the opportunity to 
testify today before the Senate Energy and Natural Resources 
Committee regarding S. 1689, The Organ Mountains-Desert Peaks 
Wilderness Act. My name is Rolando Trevino. I am Director of 
Engineering Projects for El Paso Corporation's Western Pipeline 
group.
    El Paso Corporation is organized around 2 businesses--
pipelines and exploration and production. We own North 
America's largest interstate natural gas pipeline, some 42,000 
miles, transporting more than a quarter of the natural gas 
consumed in the country each day.
    Our E&P operation ranks in the top 10 domestic independent 
producers, operating in high-quality basins across the United 
States. In New Mexico, El Paso Exploration & Production Company 
operates more than 1,000 natural gas wells in the Raton Basin, 
and is a non-operating working interest owner in hundreds more 
wells in the San Juan Basin.
    El Paso Natural Gas Company (EPNG), one of El Paso's 
Western Pipelines, owns and operates a system of natural gas 
pipelines that brings gas from the Permian Basin in Texas and 
the San Juan Basin in New Mexico and Colorado to West Texas, 
New Mexico, Nevada, California and Arizona. In New Mexico, El 
Paso Natural Gas owns and operates 2,788 miles of pipe.
    Today, I am here to testify about how working with Senator 
Bingaman's office we have been able to reach an agreement 
allowing the conservation area created by S. 1689, The Organ 
Mountains-Desert Peaks Wilderness Act, which would designate 
public land in Dona Ana County as Wilderness and National 
Conservation Areas and our pipeline system to co-exist in the 
best interest of both projects.
    In particular, we appreciate how the Senator's staff 
initially reached out to us to gather input. We know Senator 
Bingaman is committed to energy production as well as the 
environment and we appreciate his willingness to work with us 
to ensure that we are able to continue to deliver a reliable 
source of natural gas to his constituents in New Mexico and 
customers in the surrounding states of Colorado, Texas, Nevada, 
California and Arizona. For the past several months we have 
been working closely with the Senator and his staff to achieve 
this goal. I am pleased to be able to testify today that we 
have been able to reach an agreement to ensure not only that 
our pipelines are outside the conservation area but also that 
the Senator and his staff continue to work with us to ensure 
that we would be able to do any additional work on the pipeline 
that is necessary and undergo a process known as looping.
    Although no final map has been produced at this point, we 
are attaching a map which will generally shows our 
understanding of the agreement we reached establishing a 
southern boundary for the conservation area that is 
sufficiently north of our pipeline facilities to ensure that we 
can engage in our activities to operate and maintain our 
facilities and to adequately serve our customers.
    We have marked on the map to demonstrate the location and 
we look forward to continue working with staff to ensure that 
the final boundary will be consistent with our discussions. I 
ask that this map be entered into the record for today's 
hearing.
    Thank you for opportunity to testify and I look forward to 
answering any questions.
    [The prepared statement of Mr. Trevino follows:]

 Prepared Statement of Rolando Trevino, Director, Engineering, Western 
           Pipeline Engineering Projects, El Paso Natural Gas

    Good Afternoon, Chairman Bingaman and Senator Udall and thank you 
for the opportunity to testify today before the Senate Energy and 
Natural Resources Committee regarding S. 1689, The Organ Mountains-
Desert Peaks Wilderness Act. My name is Rolando I. Trevino. I am the 
Director of Engineering Projects for El Paso Corporation's Western 
Pipeline group.
    El Paso Corporation is organized around two core businesses--
pipelines and exploration and production. We own North America's 
largest interstate natural gas pipeline system--approximately 42,000 
miles--transporting more than a quarter of the natural gas consumed in 
the country each day. Our E&P operation ranks in the top 10 domestic 
independent producers, operating in high-quality basins across the 
United States. In New Mexico, El Paso Exploration & Production Company 
operates more than 1,000 natural gas wells in the Raton Basin, and is a 
non-operating working interest owner in hundreds more wells in the San 
Juan Basin.
    El Paso Natural Gas Company (EPNG), one of El Paso's Western 
Pipelines, owns and operates a system of natural gas pipelines that 
brings gas from the Permian Basin in Texas and the San Juan Basin in 
New Mexico and Colorado to West Texas, New Mexico, Nevada, California 
and Arizona. In New Mexico, El Paso Natural Gas owns and operates 2788 
miles of pipe.
    Today, I am here to testify about how working with Senator 
Bingaman's office we have been able to reach an agreement allowing the 
conservation area created by S. 1689, The Organ Mountains-Desert Peaks 
Wilderness Act, which would designate public land in Dona Ana County as 
Wilderness and National Conservation Areas and our pipeline system to 
co-exist in the best interest of both projects. In particular, we 
appreciate how the Senator's staff initially reached out to us to 
gather input. We know Senator Bingaman is committed to energy 
production as well as the environment and we appreciate his willingness 
to work with us to ensure that we are able to continue to deliver a 
reliable source of natural gas to his constituents in New Mexico and 
customers in the surrounding states of Colorado, Texas, Nevada, 
California and Arizona.
    For the past several months we have been working closely with the 
Senator and his staff to achieve this goal. I am pleased to be able to 
testify today that we have been able to reach an agreement to ensure 
not only that our pipelines are outside the conservation area but also 
that the Senator and his staff continued to work with us to ensure that 
we would be able to do any additional work on the pipeline if necessary 
or undergo a process known as looping. Although no final map has been 
produced at this point, we are attaching a map which generally shows 
our understanding of the agreement we reached establishing a southern 
boundary for the conservation area that is sufficiently north of our 
pipeline facilities to ensure that we can engage in activities 
necessary to operate and maintain our facilities and to adequately 
serve our customers. We have placed a black line on the map to 
demonstrate this location and we look forward to continue working with 
staff to ensure that the final boundary will be consistent with our 
discussions. I ask that this map be entered into the record for today's 
hearing.
    Thank you for opportunity to testify and I look forward to 
answering any questions.

    The Chairman. We will include that map and all of the 
testimony--the full testimony--of all witnesses, this panel and 
the previous 2 panels.
    Let me just ask one or 2 questions, here.
    Mr. Bates, one of the points that was made by the previous 
panel was that the designations of areas as wilderness would be 
a hindrance to the ability of folks to get out and picnic and 
hunt and otherwise enjoy the areas that we've contemplating 
enhanced protection for in this legislation. What's your 
reaction on that? What's your thinking?
    Mr. Bates. I think the point that needs to be made 
initially is that these areas were designated as potential 
wilderness areas because they were lacking many, or extensive, 
road systems within them to begin with. You know, some of 
these, specifically the West Potrillo Mountains area they're--
even though there are some roads being deleted from use in 
that, there are actually very few roads that transect that area 
now. So, the number of roads that would be affected by that is 
minimal, in my opinion. Also in the other areas.
    In terms of the use of the areas by people that want to go 
there for recreational purposes, the--one of the things in the 
compromise process that sportsmen approached the other 
stakeholders about, was making sure that adequate access was 
left for people to get to these areas for recreational 
purposes. There was significant compromise made regarding that.
    I am of the opinion that anybody that wants to go out there 
to hunt, camp, hike, whatever, will be able to get to adequate 
locations to have a quality experience there, but we still have 
the opportunity to maintain the qualities and, you know, the 
scenic values and all of those things that we're trying to 
achieve with this legislation.
    The Chairman. You're referring, I guess, to some of the 
accommodation that has been made in cherry stem provisions 
where we basically are taking some of the roads that are going 
to be maintained and accessible to the public and taking those 
out of wilderness designation and widening the area around 
them. Is that the reference you're making?
    Mr. Bates. Kind of, yes.
    The Chairman. Would you be more specific about what you're 
saying?
    Mr. Bates. Maybe I'm misunderstanding your question. The 
question is--clarify it just a little more for me, you want to 
know how this impacting recreational opportunities for people?
    The Chairman. Yes, I'm wondering, if I'm just a general 
member of the public and I want to go out and hunt in some of 
these areas, and I get a hunting license to do so and all, 
you're satisfied that my ability to do that is protected?
    Mr. Bates. Not only am I satisfied that it's protected, but 
I think for that specific instance that over time, hunters and 
outdoorsmen and sportsmen will find that this, the wilderness 
designation will actually be a big benefit to them.
    The Chairman. Senator Udall?
    Senator Udall. They're--I guess in a sense when you're the 
last panel, you've been sitting here listening to a lot of the 
testimony--there was testimony on grazing, there was testimony 
on border security, testimony on some of the things Chairman 
Bingaman just asked. Just as an opening question, I just wanted 
to give any of you an opportunity to comment on things you 
might have heard that you either agree or disagree with. Talk 
about it in the context--and Nathan, you mentioned the idea of 
working as a coalition, this panel is a good example of 
building a coalition, grassroots support--how long have you 
been working on this? How long have you spent toiling in the 
vineyards to get these kinds of things done? Could you please?
    Mr. Small. Yes, sir. Thank you, Senator Udall, Congressman 
Teague, Chairman Bingaman.
    I think we have to acknowledge folks like Jim Bates, here, 
who were involved in discussions decades ago on how to get 
these areas protected, and to move from the temporary 
wilderness study area designation, so you have, literally, 
hundreds of folks in the community who this has been a 
significant part of their life for decades.
    However, in efforts--I think you started to see a coalition 
coalesce and come together beginning in 2005. They were very--
there was proposals from former Senator Domenici that kind of 
opened the discussion on this. What you saw, some ideas--
especially in terms of the sell-off of public lands--were not 
well-received. However as you see here today, from all 
perspectives, protecting lands is very important to this 
community and so you started to get groups coming together.
    Very early on there was strong business support for the 
idea, what you see on business marquees, the Organ Mountains, a 
way to make sure that that continues on into the future. Public 
meetings were held, and I think it's very clear that the 
turnout often surprised everyone. Where literally hundreds of 
folks would spend time--similar to today--to come out and be a 
part of this.
    Sportsmen, users, horsemen, I think is a very key 
constituency and as folks--especially with the horsemen who get 
into these areas and who value solitude, being able to close 
with vehicular access, but also areas that are not overrun by 
either development or motorized vehicles, had a very early and 
important voice in this. So the natural pull of conservation, 
its importance to the community, made a coalition that was many 
years in the making, bear fruit.
    That, I believe has included the hundreds of business 
organizations, dozens of local--mostly local--organizations 
that range from neighborhood groups to Chambers of Commerce. 
That's all underlined by the citizen support that I think we've 
seen today, even with some folks leaving, that stuck through.
    So, I think that's a way--one thing that I think your 
comment brings up an interesting point is the coalition, it 
grew because compromise was made. There's always been a very, I 
think, a yearning to find that agreement amongst all groups.
    So when we look at things like the grazing guidelines which 
I believe actually were developed in Arizona and apply to BLM 
Wilderness Areas in Arizona were developed and oftentimes for 
Desert Wilderness Study areas in Arizona to address specific 
concerns that I think, while not identical, but are similar to 
here--we have folks who yearn for that, to spread itself wider 
in the community.
    I think what we can see is that it met with much success. 
Of course, there's never unanimity, even for whether the sky is 
blue or some other color. But overall, the agreement that's 
been reached, I'm very honored to have been a part of that. But 
I think the individuals in this room today, many who could not 
be here, and many of the panelists speak to the fact that it 
covers a very wide, and deep and committed constituency.
    Thank you.
    Mr. Munoz: One of the things that I heard and I believe 
possibly Congressman Teague kind of spurred this on or talked 
about this, as far as job creation. You know, I know that, 
first I want to say that during the break someone who I hadn't 
seen in awhile came up to me and says, ``Wow, John, you look 
really old.''
    Mr. Munoz. I said, ``You know, it's been 2 rough years in 
business. But we've persevered and we're doing well.''
    The, you know, one of the things that I want to stress is 
that, you know, I've heard, this isn't the magic bullet for 
jobs. It may not be. However, there's so much potential to work 
together to conserve and protect lands and to also emerge new 
businesses and have entrepreneurs, you know, take what's made 
this country great.
    You know, magic bullet or not, you know, if this creates 
some jobs, you know, we'll take it. In this economy where 
people are struggling, where people have been affected by the 
economic downturn, if it's not a magic bullet, if it's bows and 
arrows, sticks and stones, we'll take that.
    Mr. Bates. Senator, if I might address your original 
question regarding some of the comments that were made 
previously. I don't know where to start. I've got, you know, 
I've heard the arguments about the flooding issues and--first 
point to be made is we're not--those of us that are for this 
proposal do not discount those concerns. I mean, we're 
absolutely in unison with those folks in trying to resolve 
those issues, if indeed they are real issues.
    From my own standpoint, I've got some reservations about 
whether some of those issues are, indeed, fact-based. For 
instance--I'm just going to throw these out here because they 
come to mind--is the flooding issue. You know, to me, to 
resolve a flooding issue you put big dams, like has been done, 
down here in the lower part of these arroyos to catch the water 
that runs off from the mountains. I mean, that's been the 
theory that has been used for decades and yet all of a sudden 
that theory doesn't seem to be going to work. I question that.
    The second thing is regarding the illegal traffic flow of 
aliens, illegal aliens into the United States with mal-intent, 
if you will, whatever it might be. You know, the statement is 
made that--I get the impression that we've got this buffer zone 
which apparently isn't big enough for some folks, and that once 
these illegals reach the wilderness or the proposed wilderness 
boundary that they're home free, that they've got a get out of 
jail card. I mean, where does that come from? Does that mean we 
can't apprehend them anymore if they get to the wilderness 
boundary? I don't get that.
    There was one other thing, what was it? Anyway, the whole 
point is that I think--oh, I know what it is. I wanted to use a 
cliche on this was, I see this whole thing, the--those that are 
against the wilderness proposal as kind of like throwing the 
baby out with the bath water type thing. We don't--we've got 
this proposal, but because we have these few issues that we're 
not willing to try to overcome with reason and compromise, that 
we just want to discount the whole process and the whole 
proposal for these wilderness areas and I just--I can't see 
that, and I don't agree with it. I think that that's the point 
to be made, here. Is that we can reconcile these things and 
still do what these areas and the people here deserve.
    Senator Udall. Mr. Trevino, could you also comment? This 
covers a lot of lands where you have infrastructure. I mean, is 
there anything that hurts the ability for you to provide the 
oil and gas and other utility services to people as a result of 
the passage of legislation like this?
    Mr. Trevino. Let me see first, if I may, I'd like to 
commend Chairman Bingaman for holding these meetings here in 
the heart of where this issue matters, in Dona Ana County. Also 
I'd like to commend everyone here in the audience. No matter 
where you stand on this issue, I think it's amazing and truly 
gratifying to see our democratic processes work, because I 
think this is what this country's about. So, again, I commend 
everyone here today.
    As you said, Senator, I'm in the business of maintaining 
and sometimes building energy infrastructure throughout not 
only the Southwest, but our company does so literally coast to 
coast. I think many of the issues that arise in that 
environment and that arena is folks don't generally want 
infrastructure in their backyard, the NIMBY complex, if you 
will.
    But, I think what I've learned in some 20 years of service 
in the energy industry is that through collaboration, through 
dialog, things can co-exist. I think that's that lesson that 
can be learned here, today. Certainly there are a plethora of 
issues that were all brought out today and are certainly 
relevant, but I think through healthy dialog there is an end, 
and it can work for everybody
    Senator Udall. Thank you. Thank you for your testimony.
    The Chairman. Congressman Teague, go right ahead.
    Congressman Teague. Of all of the questions that came up 
earlier today, I did want to ask, does anybody on this panel 
have a comment to make about the border security?
    Yes, we'll start with you, Nathan, and we'll just go down 
the list.
    Mr. Small. Thank you, Congressman Teague.
    I believe as I expressed earlier, there is a very large 
swath of land creating a buffer several miles on either side of 
the divide with Highway 9 that would be created with this 
legislation. If no legislation were to pass, we would be stuck 
with the same situation today which, although in public 
testimony, Border Patrol has testified that there are no huge 
problems with illegal activities, I can think we all agree that 
it would better to improve the situation.
    As conservationists, I think there always comes a moment 
when you realize you will never get everything that you want or 
ask for. That moment has come with this legislation. I think 
the exclusion of a significant amount of land based--as 
Chairman Bingaman said, on recommendations from Border Patrol 
itself--is to be commended and to be supported. By creating 
that additional buffer on the north side of Highway 9, allowing 
for the placement of infrastructure in various points at the 
complete discretion of Border Patrol is a positive thing.
    Again, Chairman, you are to be commended, you and your 
staff on this. I think as conservationists we realize it is an 
important issue and one which we support those action.
    One area where we have not had to even, I think, swallow, 
is when it comes to extra allowances for drinkers and for 
corrals and other ranching infrastructure. We have said--and I 
believe strongly--that ranching and wilderness can co-exist, 
and that it is incumbent on everyone--including 
conservationists--to help make that happen.
    So, along with the border security issue, that is one that 
has been proactively addressed with this legislation. Thank 
you.
    Congressman Teague. Mr. Munoz, do you have any comments 
about the border security?
    Mr. Munoz: No, I just want to echo Councilor Small's 
comment about consensus. I mean, we go through that a lot in 
business and I'm sure in your line of business, as well, 
there's a lot of consensus. We pulled and spent time with our 
members make sure we were doing the right thing when we wanted 
to support this legislation as a Chamber. You know, initially 
there were a lot of questions that were asked. We covered those 
questions, we discussed with other business owners, other 
community leaders, and then, you know, we come to a point 
where, you know, there's--you know, where I would say 75 to 80 
percent consensus on this. The fringes on the outside--and 
again, we talked, I don't know if we would consider that the 
cloakroom out there for Las Cruces, but outside, you know, I 
was talking to someone--the person who called me older--and he 
said, ``You know, it's really how we go about this. We both, 
you know, both sides want--feel strongly about certain points 
and we want to go about this in the way we think is the right 
way.''
    But we both agreed, again, I can say, that it's about 
consensus. We both want the good thing for Las Cruces, for 
Southern New Mexico, but it's how we get there. To wrap this 
up, as Nathan was saying, we come to a point where it's 
consensus and it's time to move forward with it.
    Congressman Teague. OK, Mr. Bates.
    Mr. Bates. Congressman, I think I kind of made my position 
on that a little bit ago, but basically I don't think the 
status of the problem is going to change whether or not that 
area is called a wilderness or anything else. I think it's--the 
problem exists, we have to deal with it, we have to find some 
method of controlling the problem and taking care of it, but I 
don't think it has anything to do with the wilderness or not, 
personally.
    Congressman Teague. Mr. Trevino.
    Mr. Trevino. Congressman, I have nothing further to add on 
that.
    Congressman Teague. OK. One other question that I wanted to 
ask, especially of Mr. Munoz, because of being with the Chamber 
of Commerce, how did the Organ Mountains and the public lands, 
you know, they provide a unique brand for Dona Ana County and 
how does that brand benefit us economically, and how do you see 
the economic benefit coming from that?
    Mr. Munoz. You know, the branding has almost started 
naturally already. I believe it was mentioned on many of the 
marquees, mass heads, you have the Organ Mountains, in fact, on 
our own internal letterhead I have a picture of the mountains 
in the background and our site in front of it, and so we have 
an internal employee newsletter that has that piece.
    But I think that when we have that brand we're going to--we 
have the ability and there's so much more potential now to 
attract visitors, to attract companies who want to move here, 
to attract retirees who will bring, you know, their income to 
this area, and so I think that when you're talking about the 
precious resource, which is the Organ Mountains, that's 
something that we want to protect, something that we can market 
and brand.
    Seven hundred and thirty billion dollars nationally is a 
lot. If New Mexico and Las Cruces can get a piece of that pie, 
we'd love to have that here.
    Congressman Teague. Yes, you do see that as a way to create 
jobs by preserving our public lands and all of that as an 
economic tool for Dona Ana County and Las Cruces?
    Mr. Munoz. Yes, Congressman, yes. When we did the 
conference on Wilderness of Economics, we started in other 
areas, looked at Western States who had protected and 
unprotected lands and, you know, the studies clearly show that 
areas with protected lands do better on economic indicators.
    Congressman Teague. Once again, I'd like to thank the 
Senator Bingaman for hosting this and for allowing me to 
participate and thank all of you all for coming, thank the 
panel for their answers.
    Thank you.
    The Chairman. Thank you very much.
    Let me make 2 more thank yous and then one more 
announcement and then we'll stop.
    First, we get credit for a lot of stuff in the Congress 
that we never do, our staff does it, and we also get blame, but 
usually we do the things we get blamed for.
    At any rate, let me just mention Jorge Silva Bonjuelos has 
worked very hard on this.
    The Chairman. Dara Parker, Dara's worked very hard on this.
    The Chairman. David Brooks, who is with our Energy 
Committee staff, David has worked very hard on this.
    The Chairman. I know that Senator Udall has staff that has 
also worked very hard on this and Congressman Teague, as well.
    The Chairman. We thank them very much for the hard work.
    I want to thank all of you--I know that there are hundreds 
of hours, thousands of hours of time represented in this room 
of people who've worked on trying to get this right, and that's 
what we're trying to do, that's the purpose of this hearing. We 
want to move ahead with this, as Mr. Bates said, but we want to 
do it in the best way we can and we think today's hearing will 
help us in that regard.
    Let me also just mention again, as I did at the beginning 
of the hearing that anyone who would like to submit testimony 
can do so, either get it to Tom Udall's office, here in Las 
Cruces, get it to my office here in Las Cruces, Congressman 
Teague, we get it to your office, you get it over to us, and 
we'll put it in the record for this hearing. If you're unable 
to do that, send it to us at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4135243235282c2e2f3801242f243326386f32242f2035246f262e37">[email&#160;protected]</a> and 
try to do that by the close of business Friday so that we can 
get the complete testimony and have it to review.
    But thank you all very much for being here, I think this 
has been a good hearing, we appreciate it.
    [Whereupon, at 5:24 p.m., the hearing was adjourned]

                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

               Statement of Beth Bardwell, Las Cruces, NM

    Dear Senators:
    I wanted to thank you for your recent Field Hearing on the Organ 
Mts-Desert Peaks Wilderness legislation. I whole heartedly stand in 
support of this legislation. I am a 15 year resident of Las Cruces and 
the public lands that fall within the protected boundaries under this 
legislation are beautiful and contain the values that inspired the 
Wilderness Act many years ago. My family consists of two daughters, 
aged 12 and 15, plus my husband. We regularly hike in the affected 
public lands and will continue to do so after passage of this 
legislation. We will have no problem accessing these public lands after 
they receive Congressional recognition as wilderness or NCA. Those who 
say the public will be unable to access them upon passage of this Act, 
do not understand that there are many people, like my family, who 
prefer to leave the motorized vehicles on the existing roads, and 
travel by foot into these beautiful lands. I know if we protect these 
public lands now, my grandchildren will have the same privilege I do 
now to enjoy them.
    If we do not have the courage and vision to protect these public 
lands now, they will continue to be fragmented, altered for economic 
development and private gain and potentially privatized. Of particular 
beauty and value is the Broad Canyon area. It will connect the western 
sky islands and upland Chihuahuan Desert Grasslands west of the Rio 
Grande with those on the east providing a vast and protected corridor 
for wildlife and ecosystem processes and function to continue 
unaltered. Many of the grazing leases within the Broad Canyon complex 
are now owned by New Mexico State Parks and complement their fee title 
holding on the Rio Grande where riparian and wetland restoration is 
underway.
    I urge you to pass the legislation without further amendment and as 
quickly as possible.

                                 ______
                                 
  Statement of David B. Roewe, Executive Director, Building Industry 
                   Association of Southern New Mexico

    Dear Senator Bingaman
    This is to advise you and the Senate Committee on Energy and 
Natural Resources the BIA of SNM has endorsed the proposal of the 
Greater Las Cruces Chamber of Commerce on S.1689, as presented to your 
committee on October 22, 2009 and February 15, 2010.
    We join them in recommending two changes to your proposal:

          1. The complete Potrillo Mountain Complex be removed from the 
        Wilderness category and instead be designated as a National 
        Conservation Area. Border security must be of high priority for 
        this entire area.
          2. The entire Broad Canyon area be made free of any 
        legislative designations. For purposes of flood control and the 
        future growth of our community we must continue to have public 
        access to this area.

    We also endorse their proposed language changes for National 
Conservation Areas.
    Please know the field hearing has heightened our concerns on border 
security and flood control and we sincerely hope you will consider 
these proposed changes as you contemplate S.1689.
    We also request this letter be made part of the official hearing 
record.

                                 ______
                                 
  Statement of Bill Mattiace, Vice President of Governmental Affairs, 
                 Greater Las Cruces Chamber of Commerce

    Senator Jeff Bingaman & Senator Tom Udall, I thank you for the time 
spent on this Jeff Steinborn and Nathan Hill initiative for Wilderness 
designation of land surrounding Las Cruces. My concern is raising the 
land values in the city of Las Cruces, particularly thousands of acres 
of land in the Steinborn Sonoma Ranch area of the East Mesa. Fact 
check: Sonoran Institute Publication indicates that the land values and 
economic boom to private land in cities where Wilderness designations 
have been declared increse by 45%.
    Organ Mountains deserve the Federal Wilderness protection,and maybe 
the Robledo Range, but stop there!
    Address the water shed concerns, the security concerns and the 
ranching culture of New Mexico..I suggest you set aside the Robledos 
and the Organ Mts now and until you collect appropiate data from the 
water experts and current conditions from the Border Patrol..the 500 
Friends of Jeff & Nathan will be happy and live happily ever after in 
their homes at the base of the Organ Mountains.

                                 ______
                                 
            Statement of Bob and Dona Hearn, Las Cruces, NM

    Thanks to Senators Bingaman and Udall for sponsoring the 
legislation holding the Wilderness Field Hearings in Las Cruces on Feb 
15th. We would like to add these comments to the record.
    The turnout was solidly in favor of the legislation--this is a 
proposition strongly supported by the people of this region.
    There are many issues around the edges of the bill, to ``fix up'' 
this or that. But there are no fatal flaws, and if we wait until all 
the little issues are cleared up, the whole thing will never happen. 
Let's get it done, then trim and adjust as necessary.
    My wife and I live at the foot of the Organs, surrounded by BLM and 
State Land which is all in a Wilderness Study Area, and all of which is 
a working cattle ranch. The cattle are happy, the rancher is happy, and 
the WSA status does not interfere with their operation--been there for 
years.
    We come from Phoenix and San Diego, and have seen how growth can 
just gradually take over an area, without anyone quite realizing it. 
Now both of those regions are overgrown, and most of the wonderful 
natural areas have been paved over. We can make sure this doesn't 
happen to all of our great areas of natural beauty by setting them 
aside now, all at once, so the matter is settled.
    There is plenty of land in Dona Ana County for development for as 
far ahead as any planning can see--we can welcome all who want to come 
live here with us, and still keep the beauties and advantages of our 
natural heritage preserved.
    Thanks again for your hard work on this project, and for your 
consideration.

                                 ______
                                 
             Statement of Cheryl Fallstead, Las Cruces, NM

    I am writing in support of the Organ Mountains-Desert Peaks 
Wilderness Bill. I have lived in Las Cruces, New Mexico, for four years 
and every day enjoy the beauty of the mountain areas surrounding the 
city. I, along with hundreds of other wilderness supporters, attended 
the field hearing on Feb. 15 and appreciated the opportunity to hear 
from people expressing differing points of view. Based on my 
understanding of the information presented, Senators Bingaman and Udall 
have worked hard to incorporate factors into the bill that should held 
to create a compromise that works for people who want to protect the 
fragile ecosystems and allow access for recreation, while still 
allowing ranchers who graze cattle in these areas to continue their 
livelihoods. Many people expressed concern about border security, which 
I believe is adequately addressed in the bill.
    I also recently attended a seminar on how protected areas can 
improve the local economy through wilderness tourism. I believe that 
there is great potential for this area to provide tourism-related jobs 
and hope that we can both grow our economy and protect our local 
natural treasures.
    While there may still be some final details to be ironed out so 
that all sides will be satisfied with this bill, I urge passage of the 
Organ Mountains-Desert Peaks Wilderness bill in order to protect these 
areas for generations to come.

                                 ______
                                 
                Statement of David Beyer, Las Cruces, NM

    As an avid outdoor enthusiast and lifelong ``desert rat'', I am 
opposed to the wilderness being proposed in Dona Ana County for many 
reasons.
    First and foremost, to put wilderness areas so close to a populated 
area such as Las Cruces would be unenforceable. Even if it were to be 
fenced off, there is not enough law enforcement to be able to keep the 
motor vehicles out of all the proposed areas. The only people it would 
keep out are the law abiding citizens, which are currently the extended 
eyes and ears of local law enforcement. These areas would become a 
haven for illegal activity.
    Having spent most of my 50+ years in Dona Ana County, I have 
developed a tremendous affection for our beautiful desert. I enjoy 
hiking, camping, hunting, and off-roading here, and take a lot of pride 
in doing so responsibly, as do most of the people I know. It won't be 
too many years from now that I may not be able to hike and hunt as I do 
now, and designating these areas as a wilderness would mean the end of 
my ability to enjoy and help with these lands. History has taught us 
that the elders teach the new generations, and we owe it to our land to 
be able to mentor our children and grandchildren in responsible 
management of public lands. My fondest childhood memories are of trips 
to the desert camping or hunting with my dad, who taught me to respect 
it and not destroy it.
    My father was able to enjoy our public land even in his latter 
years because he was still able to drive his jeep out long after he 
lost the ability to walk any distance. Please don't lock us out just 
because of some physical infirmity that may beset us.

                                 ______
                                 
               Statement of David Soules, Las Cruces, NM

    Thank you for introducing the Organ Mountains--Desert Peaks 
Wilderness Act. I am particularly impressed with the process you have 
pursued to gain consensus among a very diverse community of interest 
groups. I believe compromise is essential to a strong democracy, and I 
commend you and your staff for the leadership you have demonstrated to 
that end.
    Please let me introduce myself. My name is David Soules, and I am a 
lifetime resident of Las Cruces, New Mexico. Over the span of more than 
50 years, I have grown to treasure the tremendous resource of wild 
places surrounding Las Cruces. As a child, I can remember picnics at 
the base of the Robledos and exploring ``Geronimo's Cave'' in what is 
now part of the Trackways National Monument and La Cueva, at the base 
of the Organ Mountains. As a youth, my brother and I raised steers; one 
of those calves came from a ranch near Lookout Mountain in the 
Robledos, and two from the Cox Ranch near what is now the Visitor 
Center at Dripping Springs. We also delivered newspapers by horseback. 
As a boy scout, we camped and hiked in the Dona Ana Mountains, and in 
Fillmore Canyon in the Organs. As a teenager and young adult, my 
friends and I often hiked in the Organs: near Aguirre Springs and 
Sugarloaf, up Achenbach and Soledad Canyons, and on one occasion 
through Rabbit Ears pass. For the last 40 years I have hunted, hiked, 
and camped extensively in all of the areas encompassed by the Organ 
Mountains and Desert Peaks Wilderness Act. I have driven on virtually 
every road within these areas, and have extensive personal knowledge of 
the terrain, topography, and wildlife. I am an active member of several 
conservation organizations, and have been a proponent of permanent 
protection of these areas for decades.
    As we move ever closer to what I fervently hope will be long-term 
protection of these national treasures, I would like to offer some 
comments on what appear to be the primary concerns of those who remain 
opposed to the current proposal. It seems the concerns fall into three 
major categories: restricted vehicular access, border security, and 
watershed management.
    With regard to vehicular access, it is my understanding that just 
to qualify for wilderness designation the areas in question must be 
largely unaltered by man. Given that the boundaries of the proposed 
wilderness areas have been modified during the scoping process to 
preserve most of the existing vehicular access routes, I find the claim 
that public access will be severely restricted to be simply untrue. 
Further, for the group that wants to preserve western heritage, I heard 
no discussion of using horses in that capacity. It sounded as though 
preserving western heritage somehow meant unfettered access for 
ranchers via pickup truck to all areas, even though the wilderness act 
specifically allows reasonable vehicular access to maintain 
improvements such as water structures and fences that were in place 
prior to wilderness designation. I also find it noteworthy that local 
and state horsemen organizations support the current proposal.
    With regard to Border Security, I once again commend you and your 
staff for modifying the existing proposal to provide an increased 
buffer area near the United States--Mexico border in response to input 
from actual border security personnel. Although detractors have 
expressed the opinion that the lack of roads impedes security 
operations, I have spoken with knowledgeable border security officials 
with exactly the opposite view. Modern surveillance techniques are 
quite effective at detection and interdiction of intruders in remote 
regions. It is urban environments that often confound security 
operations.
    Lastly, with regard to proper watershed management, we have 
certainly learned that most watershed problems are the direct result of 
human intervention. What better remedy can there be than to minimize 
human impact? All of the lands within the proposed wilderness and 
national conservation areas are desert and desert mountain environments 
that were shaped in recent geologic times by normally sparse rainfall 
with occasional local flooding. That is literally what formed the 
beautiful and multifaceted landscape that we all enjoy. To suggest that 
we need to plan ahead for climate change by impounding what little 
water that falls in this area as high as possible in the mountains 
seems incredibly ill-conceived.
    In closing, I heard loud and clear at the recent hearing in Las 
Cruces that all groups support some form of protection for these lands. 
In my view, the combination of Wilderness with buffer areas under 
National Conservation Area status is an excellent approach for 
achieving reasonable protection. I implore you to continue with your 
efforts to move the Organ Mountains and Desert Peaks Wilderness Act 
through the legislative process. As a result of your efforts, I have 
seen the local community move from modest to overwhelming support as 
the meaningful compromises have materialized, and I believe we are on 
the brink of preserving something very special for future generations.

                                 ______
                                 
                 Statement of Eleanor Wootten, Gila, NM

    Dear Senator Bingaman and Senator Udall,
    First let me congratulate you on taking the time to have a field 
hearing on this fantastic bill in Las Cruces last Monday. You conducted 
the hearing extremely well, showing much patience at times. Your 
questions were to the point and fair. Thank you.
    Having worked in the background with my husband, Tom Wootten, for 
many years on pushing having this bill come to pass, you need to know I 
am totally in favor of it. We have long needed some protection for the 
southern part of New Mexico. While I now live in the Gila area part 
time and part time in Las Cruces, I was raised in Las Cruces for the 
better part of my life having come there in 1946. I have seen many 
changes in the county, most especially population growth, and worry 
about the empty spaces filling in faster than they can be protected. 
This bill offers protection for a least a big piece of the county. It 
was long in coming and deserves to happen.
    Thank you both from my heart.

                                 ______
                                 
                  Statement of Frank and Rosa Holguin

    To: The Honorable Senators Bingaman and Udall
    We would like to thank you for allowing comments on Senate Bill 
1689.
    My name is Frank Holguin and my wife Rosa and I ranch on the 
Robledo Mountains. Ninety five percent of our grazing permit is part of 
the proposed Robledo Mountain Wilderness in Senate Bill 1689.
    My experience with wilderness came during my tenure as County 
Extension Agriculture Agent. I served in Valencia County for 20 years 
and during that time I developed good working relations with many of 
the ranchers that had allotments on the Manzano Wilderness. As the 
County Agent I facilitated and attended many meetings between the 
ranchers and the Forest Service. Most of the meetings were very typical 
in the sense that Forest Service was always concerned about the over 
utilization of the forage and the ranchers always had concerns about 
the Forest Service's inability to review and approve range improvements 
that would help them comply with their grazing management plans. Many 
of the range improvement applications would take months and years to be 
reviewed and approved if they were approved at all, while cattle 
numbers were being reduced sometimes temporarily or at times even 
permanently.
    The economic viability of most of the ranchers that were on 
wilderness was a constant concern. As a result, many of the allotments 
have been consolidated so that ranchers can keep and maintain 
economically viable numbers of cattle and most of the community 
allotments on the east of the Manzanos have all but disappeared. 
Ranchers that were on the wilderness endured an unreasonable amount of 
scrutiny and economic hardships in order to comply with wilderness 
regulations. Ironically, public range land that was under multiple use 
and private range land always seemed to be in as good or better 
condition than wilderness or range land that had not had cattle on it 
for 20 years. Many of the life long county residents felt that the 
Manzano Mountains were better served and managed before wilderness.
    In our opinion wilderness designation is not the best protection 
option for public lands. I retired from Extension in 2006 and my wife 
retired from teaching in 2008. We returned to the family farm and 
ranch, and any wilderness designation is of great concern to our 
family. Our permit has not had any range improvement approved since it 
was made a Wilderness Study Area in the early 1980s, a situation that 
has cut our grazing season in half. We are the third generation with 
extended family and friends on both sides of the border and we are all 
very aware of the border security problems, flood and irrigation water 
concerns, and energy and economic growth issues that this county must 
address in the near future. Wilderness protection designation will 
negatively impact each of these important public policy issues. Please 
consider other more reasonable protection designations that will 
address many of the same protection and conservation concerns.

                                 ______
                                 
                Statement of Gary Dickey, Del Norte, CO

    To Whom It May Concern:
    I am a third-generation rancher, farmer and outfitter in the San 
Luis Valley, Colorado, and am writing to share my positive experiences 
with grazing in wilderness. In short, the only problem with wilderness 
is simply that there's not enough of it.
    The absence of motorized vehicles where I graze in the Weminuche 
Wilderness Area is helpful in that the use of off-road vehicles in 
these remote areas tears up the landscape, scares our cattle, creates 
unauthorized roads and dust problems while also destroying the 
character of the landscape. Unfortunately, the boundaries in this and 
many other wilderness areas are often not heeded, with motorized 
vehicles going into restricted wilderness areas. To address this 
problem, I believe it would be helpful to mark wilderness boundaries 
better and then ensure that these borders are enforced.
    Protecting our most unique and threatened areas as wilderness can 
serve not only to protect these natural resources but also to maintain 
traditional uses such as ranching, hunting and fishing. I believe that 
the beautiful scenery, rural landscapes, abundant fish and wildlife, 
agricultural heritage and opportunities for outdoor activities all 
contribute to the high quality of life that we enjoy in rural Southern 
Colorado, a quality of life that has been improved with wilderness 
designation.

                                 ______
                                 
     Statement of Gill Sorg, Las Cruces City Councillor, District 5

    Dear Senators,
    I ask you to pass this Act with all due haste. I have been working 
for our Wilderness in Dona Ana County for over 4 years and others have 
been for much longer. We have worked with several groups to compromise 
yet some groups are unwilling to do so. Besides being Las Cruces City 
Councilor, I have been an Audubon member since 2001, President of the 
Mesilla Valley Audubon Chapter, a Biologist, Wildlife Biologist, 
Wildlife Manager and conservationist for all my life. Only with 
Wilderness designation can the wildlife and its habitat be preserved 
for future generations. I choose to speak for the wildlife who cannot 
speak for themselves. Without protection from motorized vehicles and 
over grazing their habitat will deteriorate.
    It's simple, pass the Act as you wrote it.
    Thank you.

                                 ______
                                 
                 Statement of Greg Wright, Southern NM

    Dear Senators Bingaman and Udall,
    Thank you so much for taking the time to hear what all parties have 
to say regarding the Organ Mountains Desert Peaks Wilderness Act this 
week in Las Cruces. Be assured that many more supporting voices went 
unheard, and many more founded reasons for protection went unaddressed.
    Critics of the act referred to the proposed wilderness as 
exclusion, but it's just the opposite. This desert ecosystem is 
fragile, and as a wildlife biologist I have a firm understanding of the 
disturbance tolerance of such places. As a hunter I also value areas 
that provide as wild of an experience as possible, without the sounds 
of motors or the smell of exhaust. Please know that I'm in full support 
of your decision to save this rugged country--you're saving an 
ecosystem, a sunset, and the spirit of adventure.

                                 ______
                                 
                Statement of Howard Gross, Santa Fe, NM

    Dear Members of the Senate Energy and Natural Resources Committee:
    I am writing to share my comments about the Organ Mountains-Desert 
Peaks Wilderness Act (OMDPWA) and my impressions of the Feb. 15 ENR 
field hearing on this bill in Las Cruces, NM.
    I fully support the OMDPWA as currently written. I think it is a 
balanced piece of legislation that preserves our heritage for future 
generations to enjoy while also accounting for the needs of many land 
users. A lot of compromises have been made in this bill to accommodate 
opposition. Its time to move it forward so that it can become law.
    I was impressed with the large number of supporters of this bill 
that showed up for the field hearing...around 500 people by my 
estimated count. It was also interested to hear the objections about 
the bill from its opponents. However, most of those arguments rang 
hollow to me because most of the lands in the bill are already managed 
as wilderness through their Wilderness Study Area (WSA) status. The 
arguments about wilderness designation creating a corridor for illegal 
immigration and smuggling seem particularly misleading because, again, 
the Potrillos are already managed as wilderness through WSA status and 
because of agreements between federal agencies that allows federal 
agents to access wilderness under certain conditions.
    Lastly, I believe that passage of the OMDPWA will be good for the 
economy of Las Cruces. Studies from the Sonoran Institute have shown 
that communities in close proximity to protected public lands outpace 
similar cities without such proximity in many economic indicators. 
Communities with protected lands are appealing as locations for 
retirees, business relocation, and tourism. Personally, living in Santa 
Fe I look for warmer locations in NM to visit during the winter to 
escape the cold. In fact, my girlfriend and I spent $250 locally this 
past weekend coming to Las Crucues to hike in the Organ Mountains, stay 
at a hotel in town, buy gas, and eat in two wonderful restaurants . The 
prospect of the OMDPWA becoming law elevates the Las Cruces region as a 
priority destination for me for exploring newly protected wildlands.
    Thanks for considering these comments.

                                 ______
                                 
       Statement of Jerry Cochran, Cochran Ranch, Monte Vista, CO

    To Whom It May Concern:
    As a second-generation rancher who grazes on Wilderness lands, I 
have seen how protecting our natural heritage requires responsible 
stewardship on both private and public lands. I graze in the Weminuche 
Wilderness Area and have found this a positive experience and helpful 
to my ranching operation. Not having motorized vehicles where my cattle 
graze is helpful because it doesn't disturb our cattle or wildlife.
    We work hard to not over-graze and keep the allotment as healthy as 
possible. Protecting our most unique and threatened areas as wilderness 
can serve not only to protect these natural resources for future 
generations but can also serve to maintain traditional uses such as 
ranching, hunting and fishing.
    In closing, I believe wilderness, when it includes local 
stakeholders in the decision making process, works well not only for 
preserving our rich natural heritage but for ensuring traditional uses 
of our public lands, like ranching, hunting and fishing. I look forward 
to following the Organ Mountains-Desert Peaks Wilderness legislation as 
it works its way through Congress, and hopefully, to eventual passage.

                                 ______
                                 
       Statement of Jim Graham, Sun & Earth Inc., Las Cruces, NM

    This is a response to the issue of flood control in the proposed 
wilderness areas of Southern NM by Professor Susan Bolton, a Civil 
Engineering Graduate from NMSU and professor of surface hydrology at 
the University of Washington.

          Hydrologically speaking there is no reason for upper 
        watershed storage if the lower watershed is undeveloped or 
        properly developed to well known standards of runoff control 
        and impervious area control. Most of the watershed draining the 
        Organ Mts are relatively small and dams on them would store 
        correspondingly small amounts of water. If EBID is that 
        concerned about flood control, why are they using one of their 
        current flood control areas for storage of spoil? Why are they 
        not demanding stricter controls on building and development 
        codes to prevent excess runoff for development. Those are far 
        less expensive and would do far more to lower the costs to 
        their members than would building new storage anywhere in the 
        watershed. Preserving natural watersheds, such as those found 
        in the Organ Mts. is one of the most agreed upon and 
        scientifically validated methods of sustaining groundwater 
        recharge and inexpensive downstream flood control. I know of no 
        reasons why ranchers would lose or need to cease grazing.
          Susan Bolton, Ph.d., P.E.

                                 ______
                                 
               Statement of Joel Hoffman, Las Cruces, NM

    Dear Sir or Madam:
    I was happy to support wilderness protection at the field hearing 
on Monday for the proposal aimed at protecting local natural treasures 
like the Organ Mountains, Broad Canyon, and the Potrillo Mountains. 
More than 500 interested citizens attended, and as I listened to the 
many voices, one thing was clear: community members want our precious 
public lands protected so that New Mexicans can forever enjoy these 
wild places.
    I commend Senators Bingaman and Udall and Congressman Teague for 
working hard to listen to the concerns of all community members. I feel 
very confident that the proposed legislation can permanently preserve 
our county's spectacular public lands while being flexible enough to 
secure our border, accommodate ranching infrastructure needs, and meet 
water conservation concerns. After years of discussion capped off by 
this field hearing, now is the time to move this bill forward. During a 
President's Day weekend devoted to honoring our nation as well as 
Valentines Day celebrating our loved ones, this bill is timely: it 
guarantees the permanent protection of our natural heritage and beauty 
as a gift for our children and grandchildren. I can imagine no better 
way to serve our community now and in future generations. Sincerely, 
Joel Hoffman Las Cruces, New Mexico

                                 ______
                                 
              Statement of John P. Bronson, Las Cruces, NM

    I support the Organ Mountains-Desert Peaks Wilderness Act, Senate 
Bill 1689 .
    I attended the Senate Field Hearing on Mon. Feb 15th. The Panelists 
raised several issues which need to be addressed.
    The statement that the NCAs would hurt border security is not 
credible due to the distance between the current NCAs and the border. 
Also the only source for that view is a single retired border patrol 
officer.
    Gary Esslinger of the Elephant Butte Irrigation District claimed 
the the wilderness designation would hurt flood control. I live in the 
Tortugas Drainage that he talked about. All of the flood control 
infrastructure is in the downstream end of the drainage. This is 
roughly 10 miles from the Organ Mountains Wilderness. There is no 
evidence that the EBID has, or will ever, put flood control dams in the 
mountains. This is a red herring.
    The wilderness proposals have made many accommodations for 
ranching, contrary to the statements of some of the panelists.

                                 ______
                                 
                  Statement of Judy Keeler, Animas, NM

    To: The Honorable Senators Bingaman and Udall
    First, I would like to thank you for taking testimony on Senate 
Bill 1689 and for holding the hearing in Las Cruces, NM.
    My family has lived and worked in southern New Mexico since the 
1890's.
    As a rancher and a descendent of a ranching family, we've had a lot 
of experience with ``public lands'' and the federal land and wildlife 
management agencies tasked with managing the wildlife and the federal 
lands.
    I've been forced to become some-what of an expert on the federal 
laws that have changed the way our lands are being managed. Many of 
these laws, i.e., Federal Land Management Policy Act, Endangered 
Species Act and Wilderness Act were passed by Congress with the best of 
intentions. However once the rules were promulgated by the federal 
agencies tasked with administering these laws and regulations were 
developed by the federal bureaucracies, somehow the good intentions 
became onerous ``rules'' and ``regulations''.to those who must now 
live, work and try to make a living under them.
    Such is the case of the Wilderness Bill. The intent of the 
Wilderness Bill was to protect roadless areas of 5000 acres or more. It 
was also supposed to be an area that was ``untrammeled by man'', where 
man himself was a visitor who did not remain.
    According to this definition, BLM determined many proposed 
wilderness areas did not fit the definition of wilderness and 
recommended they not be included in the wilderness system. Eventually 
these areas became known as Wilderness Study Areas (WSAs). 
Unfortunately, it was left up to Congress to make the final 
determination on the status of these areas. They did not. So today we 
have wilderness proponents again pushing for wilderness, but this time 
they are expanding their demands as exemplified by the proposed 
wilderness areas around Las Cruces.
    Because the definition of wilderness and the process has been 
convoluted through time, I believe the recommendations as proposed by 
Frank DuBois and the People for Preserving our Western Heritage makes 
the most sense.
    It's time Congress come up with an alternative to wilderness that 
includes clear language protecting grazing, allows ``mechanized'' uses 
such as wheel chairs, various climbing equipment, chainsaws, hang 
gliders, strollers, and bicycles and allows for future mineral 
development, when done in an ecological sustainable manner.
    The only area in Senate Bill 1689 that should be considered for 
wilderness is the Oregon Mountains. None of the other areas belong in 
the bill.
    I am opposed to Senate Bill 1689 as it is currently written and ask 
you to reconsider your bill based on the historical definition of 
wilderness and the true intent of the Wilderness Act.
    However, the best alternative would be to work with the People for 
Preserving our Western Heritage and come up with another designation 
for these areas we would all like to protect from subdivision and 
development.

                                 ______
                                 
                Statement of Marcy Scott, Las Cruces, NM

    I attended the meeting held on Monday Feb.15th at NMSU in Las 
Cruces, to show my enthusiastic support of the proposed Organ 
Mountains-Desert Peaks Wilderness. I have also written individual 
letters to our entire NM delegation in support of this legislation in 
the past. While I appreciate some of the concerns that opponents 
expressed at the meeting, I strongly feel that preserving these 
precious parcels of land are vital for preserving our long-term 
interests as a community. I remember hearing former Secretary of the 
Interior Bruce Babbitt say several years ago that we Las Crucens must 
be vigilant in ensuring that the iconic Organ Mountains be protected 
from overzealous development, rather than see them compromised for 
perpetuity as happened in Phoenix and some other western towns. I feel 
the same way about the Robledo Mountains, the scenery of which drew us 
to live here and beckons out my window each and every day. If we lose 
these unique places, or allow them to be degraded beyond redemption, 
they will be lost forever. I urge the Senators to take all steps 
possible to complete work on this critical piece of legislation! Thank 
you for your consideration.

                                 ______
                                 
              Statement of Mary Jo Johns, Santa Teresa, NM

    Honorable Jeff Bingaman,
    I was in attendance at the Organ Mountains-Desert Peaks Wilderness 
Act meeting held at New Mexico State University on February 8, 2010. At 
the conclusion of the meeting I sat for a few minutes to reflect on the 
statements that had been prepared and became sad because I didn't think 
much had been accomplished for the effort that had been made.
    Please, hear me out that my first thought was that most of us in 
attendance all want preservation of our multi-purpose lands. But I got 
a distinct feeling of a ``fear monger'' tactic used in scaring this 
group of people into thinking that all 376,000 acres, to be designated 
Wilderness, was going to be developed into something at which no one 
wanted to look. The greatest percentage of comments was directed to 
development at the base of the Organ Mountains and not wanting to 
become another El Paso. In reality, Senator Bingaman, the Organ 
Mountains Wilderness is a small part. The largest amount of land, Aden 
Lava Flow and the Potrillo Mountains, is mainly used for grazing, 
hunting, recreation and out of the publics' eye and well off any main 
road.
    Gary Eslinger and Frank DuBois plea to get all groups together so a 
common understanding of the terminology and words used in ths proposal 
is paramount. Could this plan become a NCA designation, allowing multi-
purpose use without the worry of over-development? What mechanisms will 
be provided to protect the land from sale or exchange? It appears that 
the ranchers have done a pretty good job in being good stewards so far 
and wish to continue in its preservation.
    I'm sure there has been much time afforded to the development of 
this report by you and your staff, but I beseech you to reconsider a 
``guick fix'' and give more time to this matter.

                                 ______
                                 
           Statement of Natille H. Zimmerman, Las Cruces, NM

    The Organ Mountains-Desert Peaks Wilderness Act: Thank you for 
considering comments about this wonderful possibility that will need 
your attention soon. As one who as long been concerned about our 
natural environment and resources I am writing to ask your support for 
the Organ Mountain-Desert Peaks Act. The review of this project has 
been intense and prolonged; we are excited that it can now become a 
reality. This designation would not only bring a favorable economic 
improvement to our communities but would also enrich our spiritual 
awareness of God's presence within our midst. Our natural areas must be 
protected.

                                 ______
                                 

 Statement of Don L. ``Bebo'' Lee, President, New Mexico Federal Lands 
                        Council, Alamogordo, NM

    On behalf of the membership of the New Mexico Federal Lands Council 
(NMFLC) representing the grazing industry on federal and state trust 
lands, thank you for holding a field hearing on this most important 
issue to the land, the wildlife, the people, the custom and culture, 
and the economy of Southern New Mexico. We greatly appreciate the fact 
that both Chairman Jeff Bingaman and Senator Tom Udall took the time to 
come to Las Cruces to participate in this hearing.
    Thank you also for the opportunity to add additional testimony to 
the record for S 1689. This issue has been one of deep concern to those 
who will be most directly impacted.
    While most would like to see some sort of designation to conserve 
the natural wonders in the area, this sweeping wilderness designation 
will not provide the appropriate balance between the needs of nature 
and the people who habitat the area.
    In addition to all the previous concerns that have been expressed 
about the impact of a wilderness designation to the land itself as well 
as the economic needs of the area, the hearing brought stronger light 
some concerns.
    Although there has been an adjustment made to the original 
designation to provide a zone between the wilderness area for Border 
Patrol, Homeland Security will be compromised. The restrictive nature 
of the designation does not allow for any motorized or mechanical 
operations. This designation severely limits access to the wilderness 
area and does not afford continued security of the area. There will not 
be any observance of the area on the ground, which undermines the 
objectives of the Department of Homeland Security efforts and Customs 
and Border Patrol duties. The agencies, much less the public, will not 
have access to the area which in itself fosters many other issues. No 
legal access to the area means that there enhanced possibility of 
unlawful entry into the designated area. This designation is a payday 
for illegal operations such as terrorism, drug and human smuggling and 
a safe haven for law enforcement endeavors.
    Another issue is that of watershed management. Since the wilderness 
designation calls for limited access to the area, all watershed 
management and upkeep will no longer be viable. The geography of the 
land is conducive for runoff flows and, without management, the flood 
plain is in great danger of severe flooding. All infrastructures on the 
designated areas will fall into disrepair and eventually there will be 
no sign of any human existence in the area.
    The wilderness designation in Dona Ana County will also affect 
livestock producers in the area. Since some of the areas already have 
infrastructure such as roads, pipelines and utilities, they simply do 
not qualify for wilderness status. The designation is to maintain a 
pristine natural environment with no evidence of human interaction 
whatsoever.
    The Wilderness Act and other such laws were passed by Congress with 
the great of intentions. However once the federal agencies tasked with 
administering these laws promulgated rules and regulations, somehow the 
good intentions became oppressive mandates to those have who been 
stewards of the land for generations. Such is the case of the 
Wilderness Bill. The intent of the Wilderness Bill was to protect 
roadless areas of 5000 acres or more. It was also supposed to be an 
area that was ``untrammeled by man'', where man himself was a visitor 
who did not remain.
    According to this definition, the Bureau of Land Management (BLM) 
determined many proposed wilderness areas did not fit the criteria for 
wilderness and recommended they not be included in the wilderness 
system.
    Eventually these areas became known as Wilderness Study Areas 
(WSAs). Unfortunately, it was left up to Congress to make the final 
determination on the status of these areas. They did not. So today we 
have wilderness proponents again pushing for wilderness, but this time 
they are expanding their demands as exemplified by the proposed 
wilderness areas around Las Cruces.
    Because the definition of wilderness and the process for its' 
designation has been convoluted through time, I believe the 
recommendations proposed by Frank DuBois and the People for Preserving 
our Western Heritage makes the most sense for the protection and future 
of all concerned.
    It is time Congress come up with an alternative to wilderness that 
includes multiple use and clear language protecting grazing, allows 
``mechanized'' uses such as wheel chairs, various climbing equipment, 
chainsaws, hang gliders, strollers, and bicycles and allows for future 
mineral development, when done in an ecological sustainable manner.
    The only area in S 1689 that should be considered for wilderness is 
the Oregon Mountains. None of the other areas belong in the bill.
    NMFLC opposes to Senate Bill 1689 as it is currently written and 
respectfully request that the Committee reconsider this bill based on 
the historical definition of wilderness and the true spirit and intent 
of the Wilderness Act.

                                 ______
                                 
     Statement of Obbie Dickey, Diamond D Bar Ranch, Del Norte, CO

    To Whom It May Concern:
    As a rancher and outfitter in San Luis Valley, Colorado, who grazes 
in wilderness, I know first-hand the value that wilderness holds for 
both conserving our natural resources for future generations and for 
traditional uses like ranching, hunting and fishing. In short, grazing 
in wilderness has worked well for my family.
    I take my cattle up to the Trout C&H Allotment in the Weminuche 
Wilderness Area several months a year during the grazing season. It is 
always a relief that I don't have to deal with motorized vehicles in 
this area. Elsewhere, motorized vehicles on our public lands can create 
big problems for ranchers, hikers and sportsmen by creating new trails, 
creating new trails, scaring cattle and stirring up lots of dust.
    As a rancher and outfitter, I work to manage land not only for 
economic benefit but also to protect air and water quality and provide 
habitat for wildlife. The beautiful scenery, rural character of the 
landscape and abundant wildlife all contribute to the high quality of 
life that we enjoy here in San Luis Valley. It is why I am in favor of 
protecting our most unique and threatened areas as wilderness, which 
serves not only to protect these natural resources from motorized 
vehicles and development but maintains important traditional uses such 
as ranching, hunting and fishing.
    In closing, I look forward to hearing more about the Organ 
Mountains-Desert Peaks Wilderness Bill as it works its way through 
Congress.

                                 ______
                                 
                      Statement of Paul R. Turner

    I attended the recent senate field hearing in Las Cruces and 
carefully read the handout that was provided concerning changes made in 
the proposed Act relative to border security and grazing. These changes 
appear to address the majority of potential concerns about those issues 
in a responsible, respectful manner. If there are other changes that 
can address reasonable concerns, I have no problem with them being 
addressed. However, I suspect that opponents of this legislation will 
continue to oppose any proposed wilderness designations in southwestern 
New Mexico as a means to delay legislation regardless of your efforts 
to make the Act more acceptable. I urge my senators and congressmen to 
push this legislation forward despite the delaying tactics being used 
to derail any action. It is apparent to me that many opponents of this 
proposed legislation are not truly willing to compromise their 
positions and hope nothing is done to establish wilderness areas in 
Dona Ana County.
    I retired from New Mexico State University 6 years ago after 30 
years of teaching and research in the Department of Fishery and 
Wildlife Sciences. During that time I spent hundreds of days with my 
NMSU students, members of my son's Boy Scout troop, friends and family 
backpacking, fishing, hunting, and enjoying the scenic vistas and 
wilderness areas of New Mexico. I recently backpacked into the Gila 
Wilderness to fish for Gila trout and hope to continue hiking, fishing, 
and hunting for many more years. I urge you to take timely action to 
protect the scenic areas included in the proposed legislation so that 
current residents and future visitors can continue to enjoy the unique 
qualities that wilderness status will provide. My decision to remain in 
Las Cruces after retirement stems from my love of the state and its 
wilderness areas and scenic qualities. The designation of these 
wilderness areas will make me proud to be a resident of Dona Ana County 
and New Mexico. I truly believe this Act will add to the outdoor appeal 
of this area.
    Thank you for your tireless efforts.

                                 ______
                                 
               Statement of Phil Harvey, Jr., Mesilla, NM

    Dear Senators Bingaman, Udall, and the Senate Committee on Energy 
and Natural Resources,
    I am writing to oppose S.1689, The Organ Mountains-Desert Peaks 
Wilderness Act for the following reasons:

          1. The proposed land does not meet the intent of the 1964 
        Wilderness Act, nor the definition of wilderness which is 
        ``Untrammeled by the hand of man.'' There are roads, fences, 
        wells, corrals, dirt tanks, and many other signs of man on most 
        of the proposed wilderness areas. Man has been utilizing the 
        proposed wilderness areas for thousands of years, with heavier 
        usage ensuing when the Spaniards and Anglos settled the area.
          2. Border security will be compromised by the designation of 
        these wilderness areas. Those of us that live near the Mexican 
        border are already under threat from illegals entering our 
        nation to smuggle humans, guns, drugs , and commit other 
        crimes. If the Border Patrol, Sheriff's Departments, or other 
        law enforcement are prohibited from patrolling these areas, 
        then this bill only serves to encourage and give confidence to 
        these criminals. One need only look at the trash and illegal 
        trafficking that is ongoing in the wilderness in Arizona, and 
        Organ Pipe National Monument in California to see what will 
        happen in our area of southern New Mexico. Our law enforcement 
        will be prohibited from making routine patrols in the 
        wilderness; they will be prohibited from having sensors, radio 
        transmitters, and microwave towers in the wilderness. The 1964 
        Wilderness Act prohibits permanent roads, temporary roads, the 
        use of motor vehicles or motorized equipment, the landing of 
        aircraft, the use of any mechanical transportation ( including 
        bicycles), and the building of any type of structures. At this 
        time, we certainly do not need to weaken and diminish the 
        effectiveness of our Border Patrol and law enforcement in 
        southern New Mexico.
          3. Flood control and the management of water will be greatly 
        impaired if the proposed areas are declared wilderness. Without 
        significant concessions to allow the building of dams, flood 
        water dikes, diversions, and the maintenance of existing dams 
        and structures, it can be expected that more flooding of homes 
        and other property can be expected. Wilderness will make 
        planned projects for monitoring and capturing flood water 
        virtually impossible, and definitely more costly and difficult, 
        if it is done at all.
          4. Livestock grazing permittees will be dealt a very harsh 
        blow if they cannot check and feed their cattle in an efficient 
        way, and the maintenance of wells, fences, dirt tanks, and 
        corrals will be made completely impractical, if not impossible. 
        Ranchers have been on most of the proposed wilderness areas for 
        many, many years, and have had viable economic entities in 
        their ranches. The development of water for livestock by 
        ranchers for livestock equally benefits wildlife, and were it 
        not for the ranchers, there would be no permanent water for 
        wildlife in almost all of these proposed wilderness areas. 
        Concessions such as saying ``grazing permits shall be issued'' 
        for these areas do not give the ranches any certainty that 
        their permitted numbers of livestock will be allowed. When you 
        cut a rancher's permit by 90%, you have put him out of 
        business. A graphic example is the Gila Wilderness where U.S. 
        Government policies and environmentalist's lawsuits have 
        destroyed the livestock industry in the Wilderness.
          5. There are alternatives to Wilderness designation that will 
        protect the lands in Dona Ana County. The Portrillos can be 
        protected in the same way that the Valle Vidal was protected. 
        The one-page bill that was supported by both Sen. Bingaman and 
        then Rep. Udall, simply withdraws the federal land from 
        disposal and the mining laws, but does not close the area to 
        vehicular access. This same principle can also be applied to 
        the Organ Mountains, and especially the area that is the 
        foothills directly west of the base of the mountain. The 
        beautiful views will be preserved, the wildlife will still have 
        water, families can drive up to campsites, the Border Patrol 
        can apprehend illegals and drug-runners, EBID can maintain 
        flood control structures to help avoid a more disastrous flood 
        than that which occurred in Hatch a few years ago, ranchers 
        will have a chance of staying in business (you know that un-
        harvested grass finally loses it's root system and dies, and 
        poses a great fire threat!), and the State Trust lands within 
        the proposed Wilderness areas will continue to produce revenues 
        for education in the State of New Mexico.

    Again, I urge the Committee to reject the Wilderness designation of 
these thousands of acres in Dona Ana County, and to seek alternative, 
equally effective means of protection. Thank you for this opportunity 
to comment on S.1689.

                                 ______
                                 
               Statement of Philip VanVeen, Democrat, NM

    Although I am in favor of preservation, for the most part, I 
noticed that the information about this Wilderness bill has been very 
one-sided. I feel it is important for the public and for Public 
Officials to fully understand both sides of this situation before 
determining the best course of action. The information I am presenting 
is for Dona Ana County only, but should be looked into for all Counties 
in question. If you look at the current land use map you will notice 
that Dona Ana County currently has one third of its land closed to the 
public: WSMR, Ft. Bliss, WSNM and Jornada Experimental Range. Most of 
that land is true Wilderness Territory as hikers and horses are also 
forbidden on it.
    One of my concerns is people like myself, who because of an injury 
or for other reasons cannot hike great distances or on uneven ground 
and would need better access than a Wilderness Designation currently 
provides.
    These areas currently have established BLM vehicle trails. Most of 
these trails have existed for over 30 years and allow access to the 
beauty that is New Mexico for a lot of people. It seems that these 
trails have worked out well over the last 30 years. Please consider 
keeping them open for use so ALL citizens can enjoy our wilderness 
areas. I am a photographer and have no other way to capture this beauty 
than to have access via established vehicle trails.
    As I said in the beginning of this letter, I believe in 
preservation, and I believe that the BLM does a good job of managing 
our public lands but there is room for improvement. I am a firm 
believer that the Organ Mountains define who we are as a community and 
need to be protected, however we would be better served by a State Park 
than a Wilderness bill. Currently we have two State Parks in the Organ 
Mountains: Dripping Springs and Aguirre Springs. Why not combine them 
with the rest of the area into one State Park. This would protect the 
land while still allowing limited access to those who cannot hike the 
rough untamed trails.
    Thank you for your time and please consider keeping our Public 
Lands available to the public.

                                 ______
                                 
             Statement of Richard E. Jacobs, Las Cruces, NM

    Honorable Senators,
    I am a retired geologist/geophysicist with 30 years experience in 
oil and gas exploration, and worked on the front lines where new oil 
and gas fields are discovered. I have played a significant role in the 
drilling of 41 oil and/or gas wells, and have a commercial success 
ratio of 48%, well above the industry average. I am also a board member 
of the Paleozoic Trackways Foundation, and participated in the efforts 
to gain National Monument status for the Permian age mega-trackways 
site located in the Robledo Mountains of Dona Ana County, NM, our 
nation's newest National Monument. I am involved with the scientific 
community in the area, and was granted the BLM's first research permit 
for the Prehistoric Trackways National Monument.
    Proposed wilderness areas in Dona Ana County, NM, also contain many 
significant fossil and mineralogical sites. For example, a mummified 
Pleistocene-age giant sloth was discovered many years ago by Boy Scouts 
exploring a fumarole at Aden Crater. The sloth is now in residence at 
the Smithsonian Institution in Washington, D.C. If that area had been 
designated as a Wilderness Area at that time, it is likely that the 
sloth would have remained undiscovered.
    In conversations with Dr. Spencer Lucas, Ph.D., Curator for Geology 
and Paleontology, New Mexico Museum of Natural History, Albuquerque, 
NM, he pointed out that, in his experience, when an area is designated 
as a wilderness, vehicular access stops. Having no vehicular access 
severely impacts paleontological and geological research. Fossil 
samples and geologic samples are often quite heavy, and transport to 
research facilities at local universities or for display at museums can 
be impossible without vehicular access in the field. Likewise, 
scientific instruments like gravity meters, magneto-telluric 
instruments, and induced potential instruments can be quite awkward and 
heavy to carry into the field, and some require large batteries or 
electrical generators, thereby limiting research.
    The rugged lands contained within the S.B. 1689 Proposed Wilderness 
Areas have large areas, such as the Aden Flow area and the Potrillo 
Mountains, that need further scientific research. We know that the 
Permian age petrified wood deposits recently discovered in the 
Prehistoric Trackways National Monument extend northward into the 
proposed Wilderness Area adjacent to the national monument, and it is 
likely that the Permian trackways extend there as well.
    Almost everyone agrees that the areas need protection from sale and 
development. The form which the protection takes is the issue. Most 
interests would be best served by the less restrictive National 
Conservation Area designation. Thank you.

                                 ______
                                 
             Statement of Robert G. Church, Las Cruces, NM

    U. S. Senator Jeff Bingaman:
    Thank you for hosting the hearing on Senate Bill 1689, ``The Organ 
Mountain Desert Parks Wilderness Bill'' at the Corbett Center on the 
NMSU campus on Monday February 15, 2010.
    Information and testimony provided through your office or by others 
is quite misleading to the general public. Although wording in the 
Wilderness Act does provide for some motorized/mechanical 
transportation and grazing; in reality, conditions and practices in the 
field can and do present severe obstacles, which has lead to the final 
exclusion of these practices in the Gila Wilderness (+500,000 acres, 
only 150 miles from Las Cruces ). For example, there is now NO grazing 
in the Gila Wilderness, and to my knowledge NO use of emergency 
response (mechanized equipment) is allowed in this wilderness. There is 
no reason to believe field practices in the proposed areas would 
differ. The results will be similar to those found in the Gila 
Wilderness; over time, through administrative practices, ranching/
grazing would be eliminated and no motorized travel/mechanized 
equipment would be allowed.
    Other issues which have not been adequately addressed concern 
possible flooding and border security. Both of these major issues have 
moved to the forefront in the past 2 years. I truly believe any 
wilderness area near the border would be detrimental to our security. 
Examples have been presented from areas in or adjacent to Dona Ana 
County and areas in Arizona. However, these issues have been recklessly 
dismissed by the comments like ``it cannot happen here'' or ``it's 
different here.'' In my opinion, less movement by illegal's from Mexico 
has been impacted just as much by our current recession (i.e.: lack of 
low entry jobs) as the border fence construction and increased manpower 
and surveillance. When you change the ``Rules of Engagement'' for the 
military or the Border Patrol, it usually means more restrictions on 
their tactics, resulting in less effective operations, more chance for 
injuries or death and greater cost.
    These unintended results are not truly representative of the action 
that the citizens of Dona Ana County want to see. I am a firm believer 
in the need for wilderness areas and the protection of special areas. 
However, this bill, as proposed, encompasses too many small parcels, 
scattered over Dona Ana County and will become an administrative 
nightmare. The support of the citizens of Las Cruces appears to be 
correctly centered on protection of the Organ Mountains and the 
beautiful views of them. I suggest that the current bill be modified to 
create an Organ Mountain Wilderness, and all the other areas be listed/
managed as National Conservation Areas.
    You reconsideration of the true actions and results of this 
proposed bill would be greatly appreciated.
    Thank you.

                                 ______
                                 
                    Statement of Scott Eschenbrenner

    As a concerned parent, citizens and sportsman, I have several 
concerns regarding the Wilderness Act that is being considered by the 
Senate.
    As a concerned parent, I am worried about the drug related violence 
that is 45 miles south of my home and the future ability for our 
federal and local authorities to control this real threat to our every 
day existence. Without the ability to operate and protect our borders, 
I fear that illegal activities and potential terrorists will have an 
unchecked passageway to our backyard.
    As a concerned citizen in Dona Ana County, my concerns regarding 
flood control and water management hit close to home during the 2006 
floods. We need to insure future maintenance and possibly expansion of 
flood control measures that will maintain the safety of the citizens 
and property owners of Dona Ana County.
    Finally, as a sportsman, I fear the loss of my ability to recreate 
and enjoy our natural surroundings due to the loss of vehicular access 
to these areas. I grew up with friends and family in these desert areas 
and recently have enjoyed the quality time with my children on our 
various hunting and off-roading adventures. This is time well spent and 
not in front of a video game or TV. By denying us access to these 
areas, I feel that we are limiting future recreational activities. I 
have spent the last 30 years enjoying these areas that this bill wishes 
to close and realize that should this wilderness legislation be enacted 
it will prevent us from enjoying them in the same fashion as before.
    In the 30 years of outdoor enjoyment, I have yet to see any signs 
of serious neglect, willful destruction or waste of these natural 
resources. To the contrary I have seen signs of sportsmen creating 
habitat for wildlife, ranchers maintaining improvements and carrying 
capacity, and off-road enthusiasts providing and maintaining areas for 
those uses all cohabitating in the areas this bill wishes to close.
    I feel that the protection of the Organ Mountains and the recently 
discovered trackways are worth preserving but as for the remaining 
275,000 acres of land that will be off limits to motorized traffic, 
these areas do not appear to meet the 1964 Wilderness bills original 
intent. I appreciate the opportunity to voice my concerns at the field 
hearing yesterday and through this electronic message today. It appears 
that there are other logical means with which to protect these lands, 
similar to the legislation that was passed to protect the Valle Vidal, 
which is truly a national treasure.

                                 ______
                                 
          Statement of Thomas (Tom) C. Simpson, Las Cruces, NM

    Dear Energy Committee US Senate:
    I am extremely concerned with the contents of this Bill and opposed 
to its passage with it's present content.
    I am a native New Mexican that loves, enjoys and is proud of the 
beauty and diversity of this great state.
    I will be the first to agree that our Organ Mountains need to be 
preserved for future generations, but disagree very strongly that the 
remainder of the land proposed to be wilderness be so designated. I do 
believe that a less restrictive designation would be more appropriate.
    I have concerns about border safety on the proposed Portillo, Aden 
Crater, White Thorn, Wilderness areas.
    This would be a haven of refuge for the illegal activities that are 
currently occurring and will continue to occur on our southern border.
    The Uvas Mountains, Broad Canyon proposed wilderness raises some 
serious concerns about flooding in the Rio Grande valley. Several large 
arroyos like Broad Canyon, Faulkner canyon, Fuller Canyon.Placitas 
Arroyos and others drain into the Rio Grande, Only one of these (Broad 
Canyon) has any type of flood control and that is only to slow down the 
initial surge of water. There are no provisions for storage of any of 
this wild water so that it may be put to beneficial use. As the area 
grows and water becomes more valuable there needs to be a method 
developed that would allow this water to be stored and put to 
beneficial use rather than sending the water to Texas. If these areas 
are designated Wilderness it will forever prohibit any development of 
these waters or provide safety to the residences and businesses of the 
valley.
    It is my belief that none of us can predict what our future will be 
100 years from now. To forever restrict these lands as the Wilderness 
designation does is not very wise. Yes, protect and do not develop 
these lands but not put them off limit to 99.9% of our citizens and 
endanger citizens and property in the process. In my view it would be 
short sighted to restrict all of these lands as the Wilderness 
designation does.

                                 ______
                                 
Statement of Tom Hutchinson, Dona Ana County Resident, Business Owner, 
  Captain, USNR, Retired Chairman of the Board, Citizens Bank of Las 
 Cruces, Past Chair of the Greater Las Cruces Chamber of Commerce and 
            the Mesilla Valley Economic Development Alliance

    Dear Members of the Senate Energy and Natural Resources Committee,
    I want to thank Senator Bingaman, Udall and Congressman Teague for 
conducting the Senate Energy Committee Field Hearing on Monday, 
February 15, 2010, in Las Cruces, NM, regarding S1689.
    One observation, and a very significant one for that matter, is 
that both sides of the argument, those citizens who embrace all 
elements of S1689, and those citizens who would like to see 
modifications, all agree that the Organ Mountains be retained as a 
Wilderness Area and all other areas of Dona Ana County considered in 
S1689 be withdrawn from future development of any kind and retained as 
public lands.
    The larger concern is under what designation these other lands best 
serve the public interest.
    The three issues that seemed to generate the most discussion 
centered around National Security and Wilderness designations on or in 
close proximity to our National Border, the public safety issues 
associated with access to lands for flood control and water capture 
projects, and the historical use of lands.
    As you know, when making decisions that have elements of risk, 
whether concerning national security or public safety, in nearly all 
cases, one cannot totally eliminate risk, but one can manage it.
    In the case of the Potrillo Mountain Complex, although there 
appears to be some concession in S1689 for a buffer between the Border 
and the Potrillo Mountain Complex Wilderness area, the Wilderness area 
is still dangerously close to the Border and raises the probability of 
sheltering/fostering illegal activity and preventing law enforcement to 
aggressively take action.
    If we know, and Border Patrol Agents both active and retired tell 
me so, that access and apprehension activity would be less hampered in 
an areas other than a Wilderness designation, i.e. NCA, and we can 
manage the risk better with a less restrictive designation, it would 
seem the prudent and responsible decision to make is to designate the 
Potrillo Mountain Complex as an NCA. As an NCA, we still preserve it, 
and law enforcement has greater and more flexible access.
    With regard to the Broad Canyon Area and Organ Mountain NCA, Gary 
Esslinger with EBID, made an extremely compelling argument regarding 
the public safety risk associated with limiting access and activity in 
those areas associated with flood control and water capture. Again, if 
we can manage the public safety risk by giving the Broad Canyon Area 
and Organ Mountain NCA designations that can allow appropriate and 
responsible access to effectively manage flood control and water 
drainage challenges, then, with the proper designation, we can preserve 
the area and give meaningful access to necessary agencies/groups to 
manage water issues.
    This is precisely why Wilderness designated areas in already remote 
areas typically have very little border security or public safety 
concerns. On the other hand, Wilderness designations in close proximity 
to an international border or population centers raise credible 
national security and public safety concerns.
    Regarding historical land use, a large area of land was recently 
designated Wilderness and NCA in Northern New Mexico by Congress and 
signed into law by the President with the majority of that land 
designated NCA to accommodate the historical activities associated with 
gathering Pinon nuts among other things. Cannot the same argument be 
made for the generations of Ranchers who have ranched these lands in 
Dona Ana County since our Territorial days. Is not ranching who we are 
in the Southwest and a big part of our culture. Do we want Wilderness 
Designated Areas to take away this part of our history as well?
    As a final note, I believe as effective as the field hearing was, 
both sides of the argument could have benefited from understanding the 
town of Hatch's perspective on S1689 as well as having a representative 
from the Border Patrol, retired or active, comment on their 
recommendations and experiences.
    With regard to Hatch, they not only experienced a catastrophic 
flood in 2006, but also chose to reverse their support entirely for the 
``Citizens Proposal.'' It would have benefited all at the Hearing to 
have understood first hand, why they reversed support.
    With regard to the Border Patrol and Law Enforcement, the evidence 
of illegal activity associated with the Border Wilderness Areas in 
Arizona is scary. It seems there are those that want to ignore and 
dismiss that this same activity could occur in New Mexico. Best case 
scenario, even if the probability of what occurred along the Border in 
Arizona was less in New Mexico, would it still not be wise and prudent 
to establish an area designation that would give Border security the 
best probability to succeed and further minimize risk.
    In closing, as you deliberate, assess and evaluate S1689, I 
respectfully request the Committee make the most responsible and common 
sense decision(s) for the good of the general public, not just 
Wilderness advocates.

                                 ______
                                 
                       Statement of Gary E. Thurm

    Mark South, a former Forest Service employee who decades ago wrote 
the guidelines for some of the wilderness designations in Arizona, now 
thinks efforts to write new Wilderness into law go too far.
    ``Tell me, which is doing more damage to the environment: the 
ranchers' fence or the people coming through, the trails, the litter, 
the water bottles?'' he said. ``I think, with what we're seeing along 
the border, trying to preserve anything beyond the laws existing now is 
pointless. Is Wilderness needed? Yeah. But we need to ask how much is 
too much?''
    This is a great question and one that deserves an answer. I am not 
sure of the answer, but see troubles in our country and the dynamic of 
a free people suffering if we continue this course of stripping all 
potential benefit from these lands from the people who care most about 
protecting them, who live on the land, protect it as their own and 
graze their livestock there. First, Wilderness is not a need, it is a 
reality. It has been defined for us by our forefathers. It exists. It 
is not created and changed to become wilderness, rather it just is. Our 
government land, whether federal or state, must be managed, and managed 
it is. Could it continue to be managed better by the stewards of the 
range who have kept and managed those lands for the last two centuries? 
I believe so.
    My folks are stewards. They and their cowboys take care of many 
acres of New Mexico rangeland. They take pride in what they do. A 
majority of the ranch lands are owned by the federal government and are 
managed by the ranchers in cooperation with BLM, with little or no aid 
in day to day management from the BLM. It is critical that the rancher, 
the land owner, the grazing permittee, be able to manage the land, in a 
way that preserves its historic character. ``We the people'' do that 
and do it well. We do not ask for monetary compensation, yet, have to 
deal with Wilderness designations and restrictions, adding additional 
controls by government to lands that are already pristine, well 
managed, and not being developed for monetary gain. Also, there should 
be some equality when it comes to the amount of land locked up under 
Wilderness designation and land which remains open to all the citizens.
    The federal lands are best managed by the people who have the tools 
to manage that land and who have a vested interest. The land is a 
precious commodity, just as water is in regions and communities all 
over. Is this not our land? Have we not shed blood for it? Have we not 
protected it? This land is our land and government needs to keep that 
in mind when it comes to restricting its use beyond practical limits 
that will not work long-term. S 1689, and the myriad of other bills to 
come, come perilously close to restricting the lands to the point of 
having no value to anyone. When that happens, all benefit and 
meaningfitl management will cease. Illegal immigration and smuggling 
operations will be the beneficiaries.
    Many families have been on these lands for generations, and for the 
most part have been good stewards. Wilderness has its place, but a lot 
of our lands do not need that restriction. The sign that allows only 
some people entrance, not all, if posted, should be posted with 
caution. Our rights are inherent in the steps that were taken to have a 
free country with limited government and rule. For our rights to be 
taken without compensation is fracturing the tie that binds.

                                 ______
                                 
             Statement of Gregory Z. Smith, Las Cruces, NM

    Dear Senators Bingaman and Udall,
    Thank you for coming to Las Cruces to conduct the hearing regarding 
the Organ Mountains--Desert Peaks Wilderness Act. The Organ Mountains 
are indeed iconic, and they do provide a natural focus for our 
community. I wholeheartedly support passage of the Organ Mountains--
Desert Peaks Wilderness Act. Let me share my reasons:

  <bullet> Surpassing beauty
  <bullet> Healthy environment
  <bullet> Wildlife refuge
  <bullet> Hands-on education
  <bullet> Economic reality

    In these distressing economic times, it might be a hard sell to 
saylhat the value of natural beauty surpasses other considerations. 
Nonetheless, l have to assert that the Organ Mountains are so stunning 
we willingly ignore power poles, multi-storey hotels, and other 
distractions to admire the force of nature that our mountains are That 
is, when those man-made structures are in the foreground with the 
mountains thrusting skyward miles in the distance. However, to allow 
development or other visible activities closer to the mountains would 
be to make man-made intrusions more insistent, much like allowing 
someone to add an advertisement across the bottom of Leonardo da 
Vinci's Mona Lisa. Nature has provided us with a masterpiece, and we 
should have the wisdom to conserve it.
    This desert environment recovers slowly from disturbances; thus, 
particulate matter in the air and elements in the water almost 
certainly increase when soil has been exposed. Erosion is more likely 
to occur, and non-native plant life is better able to take root. While 
nature left undisturbed may never be in absolutely complete balance, it 
is more likely to be in an exaggerated state of unbalance when too much 
is scraped and not enough is left wild. That eventually has to impact 
human quality of life.
    In a related way, the wild, nearly impossible to tame, areas in and 
around the Organ Mountains provide home to creatures that cannot easily 
coexist with human incursions into their habitats and migratory routes. 
As intelligent, educated beings capable of more self determination than 
the plants and animals in that area, it falls to us to make the 
decisions that impact lives other than our own. We can be thoughtful 
and globally minded when we make our choices.
    Children especially, but all of us, learn from immersion, when we 
are surrounded by the elements of an experience. While field trips to a 
wilderness area can certainly provide such all encompassing 
experiences, when the area is so visible, as with the Organ Mountains, 
that experience becomes more of an ongoing, integrated part of every 
life in the community. It is a learning opportunity of many dimensions 
and with many lessons.
    There is also an economic truth that must be acknowledged. 
Development in the vicinity of the Organ Mountains is going to require 
new, and likely more expensive, infrastructure. Transporting materials 
and people to and from those more remote sites is going to be more 
expensive, and it is going to increase the amount of time spent 
commuting for eventual residents working and shopping in Las Cruces.
    Let us make the right choice for the above and more reasons, and 
let us preserve as much wilderness as can be preserved around our Organ 
Mountains.
                                 ______
                                 
                                      Las Cruces TEA Party,
                                 Las Cruces, NM, February 18, 2010.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Bldg, Washington, DC.
    Dear Senator Bingaman: The members of the Las Cruces TEA Party, as 
citizens of Dona Ana County. appreciate your efforts and those of 
Senator Udall in holding a field hearing in Las Cruces on February 15, 
2010, to listen to the concerns and opinions of area residents on the 
proposed bill, S1689 Organ Mountain-Desert Peaks Wilderness Bill. The 
hearing room was packed with concerned citizens on both sides of the 
issue. and the consensus of all present was that our mountains and our 
desert lands need to be protected. The disagreement, however, is not 
whether our lands need preservation and protection, but rather in the 
method which should be used in protecting our lands.
    We urge you to carefully read and study the testimonies given by 
Mr. Gary Esslinger, Mr. Tom Cooper, Mr. John Hummer, and Mr. Frank 
DuBois. These men are not opposed to protecting our land. But they are 
opposed to the severe restrictions which would be placed upon the users 
of the land should the bill pass and the designated areas become 
wilderness. And we stand in support of these arguments. Here are our 
major concerns:

          1. It is our understanding that the maps provided to the 
        committee along with this proposed bill are incomplete. Please 
        Google a map of southern Dona Ana County. If you look at the 
        topographical map, the area indeed looks like only vast land 
        dotted with mountains and cinder cones. But look at a close-up. 
        You will see that there is a web of roads to service windmills, 
        drinkers, pipelines, hunters, and recreationists. The evidence 
        of human habitation and development is quite obvious. It does 
        not fit the Wilderness Act of 1964 definition of remote, 
        primeval, and pristine areas where ``the imprint of man's work 
        (is) substantially unnoticeable.''
          2. We urge you to carefully read the testimonies of Mr. Gary 
        Esslinger and Mr. Joe Delk which address the issues concerning 
        flood control and capture of flood waters in the area. Future 
        growth of Las Cruces is dependent upon the availability of 
        water, whether it comes from under ground or from rains. People 
        who have not lived in this desert area simply do not realize 
        the ferocity and devastating damage that can be done by sudden 
        and unpredictable summer thunderstorms as evidenced by the 
        Hatch floods of 2006. Nor do they realize the scarcity of water 
        from underground sources. A wilderness designation would 
        prohibit future improvements to alleviate the water issues in 
        our community.
          3. The issue of border security is perhaps the most urgent 
        concern of area residents. Consider the desecration of the land 
        and the security issues in southern Arizona in the Organ Pipe 
        Cactus National Monument. A small ``buffer zone'' along the New 
        Mexico-Mexican border is not going to resolve the problem of 
        illegals crossing the border. The ranchers in the Potrillo 
        Desert Peaks area now work closely with border patrol in trying 
        to apprehend drug smugglers, gun runners, gangs and other 
        violators. Criminals will have vehicles, but law enforcement 
        will be restricted.
          Ranchers are apprehensive about leaving their families 
        unprotected even now when the Border Patrol has unlimited 
        access to the area. If this is designated wilderness, law 
        enforcement will be severely limited. Our law enforcement 
        officers need the flexibility to patrol, not just pursue. Our 
        local sheriff has publicly stated he will not send his deputies 
        into the wilderness areas because of lack of radio 
        communications and without the use of motorized vehicles. The 
        number of Border Patrol officers assigned to this area is 
        inadequate now; yet President Obama recently declared that he 
        will be reducing the number of Border Patrol agents along the 
        southern New Mexico border.

    Finally, we urge the committee to seriously consider the challenge 
by Mr. Frank DuBois who asked Senator Bingaman to take the lead in 
composing legislation which would preserve and protect our land without 
the wilderness designation. Each of us wants to continue to admire the 
grandeur of the majestic Organ Mountains, take our families there for 
picnics; and watch the vermillion colors of a sunset on the landmark of 
the Mesilla Valley. Each of us wants to be assured that ranchers can 
continue to earn a livelihood on the west mesa area of the Potrillos. 
And each of us wants to be secure in our homes knowing that the Border 
Patrol and law enforcement are uninhibited in their efforts to patrol 
and protect our country's southern border. A compromise can be reached 
to allow for the undisturbed beauty of our Organ Mountains and the 
continued use of our surrounding deserts without jeopardizing the 
welfare, security and safety of our citizens
    I request this letter and enclosures be made part of the official 
hearing record on S.1689.
            Respectfully,
                                               Jerry Clark,
                                                         President.
                                 ______
                                 
                                          Village of Hatch,
                                      Hatch, NM, February 15, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
Re: S.1689

    Dear Senator Bingaman and committee members: The Village of Hatch, 
New Mexico was not invited to offer testimony at your public hearing 
addressing S.1689 on this, February 15, 2010. As such, it is important 
that you and your committee accept this written testimony for the 
purposes of assuring our village and it concerned residents that they 
have been represented in this process. Be aware that the legislation as 
it stands today is not a document that our community can accept or 
support.
    After endorsing the NMWA presentation of the pending legislation, 
our village government investigated the scope of the proposal and came 
away very concerned of whom and what was being proposed. To this day, 
our concerns of public safety and security are not satisfied, and, in 
fact, recent discovery of facts compound our position of nonsupport.
    This village has three major objections. The first is border 
security. Your efforts to pass this legislation have sidestepped the 
real issues of border security. The silence that the Border Patrol has 
continued to demonstrate reflects the political requirement that their 
hierarchy must maintain in their duty to any current administration. To 
use the BP's public silence to the threat of border security issues as 
the assumption of public safety is unacceptable and dangerous. Federal 
Wilderness to our south and in the line of the active corridor only 
compounds the security threat that already exists for Hatch. Your 
committee needs to understand what wilderness areas adjacent to Arizona 
cities are creating. The Saguaro West nomination to the 10 most 
dangerous parks in the nation is evidence of what such areas create 
near community centers.
    Starting in 2004, this village has been devastated by floods. It is 
only a miracle that similar catastrophic rain events have not occurred 
in areas downstream. When they do, and they will, towns and villages 
downstream will be inundated similar to our tragedies. We are aware of 
the testimonial response of EBID and their pleading for access to all 
watersheds that empty into the Rio Grande. This village supports that 
call to commence a comprehensive effort to curb flood event damage. 
What is equally important is that you recognize the importance of the 
EBID/ El Paso settlement that would also allow the capture and use of 
those flood waters. The consequences are huge and it is your fiduciary 
responsibility to support this county to that end.
    Thirdly, the assumption that the county is in support of closing 
back country access to the mechanized public is ludicrous. The support 
that has clamored to that clarion call is not represented by the 
majority of citizens in this village nor any other small village that 
views the relationship with the access to our rural lands as a 
birthright and a primary way of life. The fact that our citizenry 
accesses the areas considered for wilderness is a large reason why the 
results of the BP activities are so successful and our village is as 
safe as it now is. If you orchestrate a closure of those areas, you 
will create a void that will be filled with illicit activities. This 
town cannot and will not support such a progressive, short sided, 
politically correct boondoggle.
    The Village Council and the Office of the Mayor which I occupy 
request that our written testimony be recorded and a response returned. 
This information will be shared with our village constituency and the 
entire Village of Hatch will watch the progression of this matter 
closely. It is with regret that we could not present this in testimony 
orally.
            Sincerely,
                                              Judd Nordyke,
                                                             Mayor.

                                 ______
                                 
 Statement of Joe Delk, Chairman, Dona Ana Soil and Water Conservation 
                        District, Las Cruces, NM

    The Dona Ana Soil and Water Conservation District (DASWCD) is 
mandated by New Mexico law to control and prevent soil erosion, prevent 
flood water and sediment damage, and further the conservation and 
beneficial application of water. Senate Bill 1689 has serious 
ramifications that could directly affect this board's ability to adhere 
to that mandate.
    The scope and breadth of DASWCD' s authority span nearly the 
entirety of lands included in SB 1689. Included in the footprint of the 
proposal are scores of reclamation dams that are now in excess of 40 
years of age. Many of those dams have had no maintenance in years. The 
DASWCD has taken an aggressive stance in addressing that problem, and 
if NCA and for federal Wilderness designation hinders our ability or 
the ability of this community to perform maintenance and improvement 
strategies, a growing risk to residents downstream form those 
structures is imminent. What happened to Hatch, NM starting in 2005, 
will eventually occur in the entirety of the watershed expanse to the 
north and south.
    In the past several months, DASWCD has pursued the organization of 
a coalition of organizations that share responsibilities for matters of 
public health and safety. The effort was predicated on a number of 
things not the least of which was recent year statutory changes that 
have set forth requirements of upgrades on existing NM dams. The matter 
of such dams in Dona Ana County is made more complicated by the various 
ownership and delegated maintenance responsibilities. Dams that were 
once relied upon to protect farmlands have become protection facilities 
for residential development by default in that there were no other 
structures constructed or identified to assure the higher degree of 
protection necessary for downstream development.
    The scope and the mix of authority and ownership make this a very 
complicated undertaking. The matter is complicated further by the 
eventual engineering and improvement requirements to bring this flood 
control system into a fully functional and dynamic entity that has the 
authority and financial capability of maintaining the proper and 
statutory requirements of public health and safety.
    One of the early expectations is that improved flood control and 
monitoring system components may be necessary upslope from the river 
channel and the valley floors. Such a requirement along with city 
expansion will require moving upslope(s) to install and monitor 
facilities. Any restriction imposed by wilderness and or NCA access 
could prove to be not only unworkable, but life threatening.
    The DASWCD is only one of several organizations that requested 
Senator Bingaman to hold this public hearing. Since our board was not 
invited to speak, it is imperative that the Senate Energy and Natural 
Resources Committee address and resolve the following issues before any 
Congressional action is taken on S.1689.

          1. The city of Las Cruces, along with other villages and 
        towns in the county will only continue to grow. It was learned 
        even this week that Las Cruces was ranked in the top 10 small 
        cities for retirement in all of America. Our city and county 
        planners must be able to plan for sensible growth. Any managed 
        growth cannot take place without knowing the limitations for 
        managing flood events upslope from that development. Any and 
        all NCA designation must be designed to allow protection of 
        citizenry and personal property from such events.
          2. DASWCD, in its organizational endeavor to define the scope 
        of the noted project, has joined forces with several 
        organizations including the Dona Ana and Sierra County(ies) 
        Flood Commissions, Caballo Soil and Water Conservation District 
        and EBID to assure that the system improvements are 
        comprehensive and support the mission of the collaborating 
        organizations. Any management plan developed for an NCA must 
        include authority to support and promote the resulting 
        management plan of the participating organizations.
          3. EBID, in its critical role as manager of waters delivered 
        from Elephant Butte, has taken on the role of managing and 
        maintaining many of the existing flood control dams. The EBID 
        settlement with El Paso, regarding the status of flood waters, 
        only compounds the requirement to incorporate any and all 
        changes in the greater storm water management infrastructure so 
        that such waters are routed into EBID facilities for the 
        purpose of putting such waters into beneficial use. This 
        situation complicates and yet elevates the opportunity for this 
        county to address what has become a new and unexpected water 
        supply and only amplifies the need for the county to (maintain 
        unfettered access to the entirety of the lower Rio Grande 
        Watershed for expansion of stormwater management.
          4. This development places a fiduciary responsibility on the 
        honorable Senators of the State of New Mexico to fully support 
        this process of defining how this entire watershed system must 
        be addressed for the opportunity to assure public safety, 
        protection of property and. at the same time, enhance the long 
        term water supply of Dona Ana County.
          5. All pending Wilderness and NCA designations of S.1689 must 
        reflect the need to allow this process to occur without 
        jeopardizing public safety and water enhancement opportunities 
        that have developed. An alternative designation is worthy of 
        consideration.

                                 ______
                                 
Statement of Bonnie Burn, President, League of Women Voters of Greater 
                       Las Cruces, Las Cruces, NM

    On behalf of members of the League of Women Voters of Greater Las 
Cruces, I want to thank you, Senators Bingaman and Udall, for 
sponsoring this important legislation for our area.
    In the late 1990s, the League recognized the importance of 
preserving the lands named in the Organ Mountains--Desert Peaks 
Wilderness Act and convened a community meeting to identify those 
areas. The space is already used for many purposes beyond recreation 
and by many people. The Act you sponsor recognizes the importance of 
this area.
    At a meeting in August 2009, Dara Parker and John Silva, staff from 
Senator Bingaman's office, gave an in-depth briefing about the areas 
involved and the numerous interest groups with whom they met. It seems 
as if all bases were covered.
    In November 2009, the Hispano Chamber of Commerce and High Tech 
Consortium sponsored an event entitled, ``Wilderness Economics: 
Creating Jobs from Protected Lands,'' that was an opportunity for the 
our community to learn about economic development strategies and 
industries from representatives who already have first-hand experiences 
with public areas such as Jackson Hole, Wyoming, located near 
Yellowstone and the Grand Tetons. A regional analysis is proposed to 
help us understand the economic variables of our local economy and how 
public lands fit into them.
    Among the eleven western states that have wilderness acreage, New 
Mexico is number 10 with 1.6 million acres and California being number 
1 with more than 15 million acres. The proposed federal bill will 
increase the New Mexico acreage to over 2 million acres. It doesn't 
change the position of New Mexico on this list, but it does show 
progress.
    Again, we thank you for sponsoring this legislation and support 
your efforts through final passage.
    As you know, the League is nonpartisan in that we do not support or 
oppose candidates or political parties. We are, however, political when 
we work on issues, such as this legislation, that can be resolved by 
government action.
    Thank you very much for your attention.
                                 ______
                                 
     National Association of Former Border Patrol Officers,
                                                 February 15, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
RE: S.1689

    Dear Senator Bingaman and Committee Members: It is with sincere 
concern that the National Association of Former Border Patrol Officers 
(NAFBPO) submits this written testimony to you and to the Energy and 
Natural Resources Committee. The purpose of this submission is to 
provide insight and expert opinion relating to the risks and 
operational difficulties that we believe the Department of Homeland 
Security and the U.S. Border Patrol will encounter if Federal 
Wilderness is designated in Dona Ana County along the New Mexico/
Mexican border, as proposed in S.1689 In every case where similar 
legislation has been submitted, our organization has always called on 
members and associates who have had actual field experience in the 
geographic area impacted, and in their particular areas of expertise. 
In this case, we rely on ranking retired officers who have the most 
experience in the southwest United States where the largest influx of 
illegal entries historically have occurred, and where many years of 
experience has established the most effective deterrent and 
apprehension strategies. This approach eliminates speculation and 
hearsay.
    The presence of any wilderness on the Mexican border is a danger to 
the security of the United States. The Arizona border history is 
finally being acknowledged and investigated. The mission demands of 
land management agencies of the United States Department of Agriculture 
(USDA) and Department of the Interior (D01), and those of the 
Department of Homeland Security (DHS) and U.S. Customs and Border 
Protection differ. The former requires the limitation of human 
presence, while the latter requires an enhanced presence without 
restriction or condition. This conflict among Federal Agencies results 
in diminished success for both. It is a dilemma that offers few 
remedies for improvement.
    Designated Federal Wilderness is not causative in the intent of 
illegals to enter the United States, but it is causative in the 
establishment and expansion of illegal entry corridors. The lessons of 
Cabeza Prieta National Wildlife Refuge, Organ Pipe Cactus National 
Monument, and Pajarita Wilderness must not be ignored. Once 
established, such corridors, similar to those in place in those Federal 
Wilderness areas, are guarded by alien smugglers with the most barbaric 
means imaginable.
    The Potrillo Mountain complex has the same characteristics of 
threat potential to the United States as does Organ Pipe Cactus 
National Monument and the Cabeza Prieta National Wildlife Refuge in 
Arizona. New Mexico Highway 9 provides east/west access to the southern 
extensions of the proposed wilderness boundary. The same sort of access 
is provided by Mexican Highway 2 south of Cabeza Prieta and Organ Pipe. 
It is along that access route that a whole new infrastructure of 
service industries has sprung up supporting the human and drug 
smuggling industry. Even with upgrades in surveillance equipment and 
the addition of trained Border Patrol Agents, CBP will have 
unacceptable restraints placed upon it because of access issues in 
those Federal Wilderness areas. With such a vast expanse of open space, 
the border cannot be adequately protected.
    For that very reason, the strip or buffer between the southern 
extension of wilderness in the Potrillo Complex and the border as 
offered in S.1689 is simply inadequate for the Border Patrol to meet 
Congressional demands for national security.
    CBP cannot be limited to trying to interdict and apprehend illegals 
within the narrow strip from the border north to Highway 9, nor can 
they be expected to do the same thing in the narrow corridor being 
considered north of Highway 9. If that would work, they would be doing 
it now. Congress should recognize that imposing Wilderness protections 
on an external boundary of the United States effectively re-draws the 
line of defense to the nearest major east-west highway north from such 
wilderness. In the case of 5.1689, the effective defense line becomes 
Interstate highway 10 to the north. In Dona Ana County, such action 
exposes the newly upgraded interstate rail line (which accommodates 
approximately 80 trains per day) and the major interstate gas line on 
the northern edge of that proposed wilderness area.
    The fact that border wilderness areas have prompted the need of the 
2006 MOU to allow conditional access for CBP should in itself alert all 
interested parties to the danger that Border Wilderness areas create. 
The MOU touted as the ultimate answer to enforcement has never been 
tested in New Mexico, and has been a total failure when attempts were 
made to apply it in Arizona. NAFBPO concurs with Homeland Security 
Secretary, Janet Napolitano, that the 2006 MOU detailing Border Patrol 
access to wilderness and WSA's impacts the efficacy of Border Patrol 
operations negatively\1\. In fact, the NAFBPO position is that any MOU 
will be disallowed in legal proceedings as being contravention to the 
statute that you have introduced, unless it is elevated into the 
law\2\.
---------------------------------------------------------------------------
    \1\ Letter to Rob Bishop, Ranking Member, Subcommittee on National 
Parks, Forests, and Public Lands, October 2, 2009.
    \2\ The 2006 MOU has never been used in NM. The document was the 
result of open conflict between the various agencies of the DOI and the 
BP for access into wilderness areas along the Arizona Border.
---------------------------------------------------------------------------
    The presence of Federal Wilderness in the Potrillo Mountains will 
result in the northward expansion of Border related dangers. Years of 
experience confirms that as these areas of easy access to the United 
States are identified by those seeking illegal entry, a new corridor 
will develop northward. This new northern corridor would be almost 
impossible to control when surrounded by wilderness designation. The 
risk of this extension is the result of geography north from the 
Potrillos. When pressure is put on the I-10 corridor, response will be 
that the pickup of human and drug cargo will be extended further north 
into yet more soft entry corridor opportunities. The Corralitos/Broad 
Canyon corridor offers a parallel North/South access route around Las 
Cruces and north from I-10. This is already an active corridor that 
compounds the difficulty of CBP interdiction and apprehension if 
Federal Wilderness or NCA's are designated in the Robledos and Las Uvas 
Mountains. The Organ Pipe experience has taught us that high points are 
used for observation along an active smuggling corridor.
    If CBP is restricted from maintaining a full presence on the ground 
and with technical hardware because of Federal land designation 
constraints in the greater Broad Canyon complex, the threat will 
automatically be extended northward exposing the village of Hatch and 
Highway 28. Those points run the risk of becoming an extension of the 
virtual border. Along with these risks, the questions will inevitably 
arise concerning Federal enforcement in interior locations where the 
definition of ``border'' is not so well defined.
    The forgoing is not an exercise in worst case planning. The 
experiences on the Arizona border have demonstrated what happens when 
Federal Wilderness and Federal Agencies collide in performing their 
missions. Statistics in 2009 clearly demonstrate that illegal human 
entry into the United States has declined. It is down in all Sectors, 
yet deaths in Organ Pipe are up 40% in 2009 from similar date in 2007. 
If Congress elects to enact S.1689, the results detailed and set forth 
in this written testimony will almost certainly occur in New Mexico as 
they have in Arizona. Citizens of southern New Mexico should be aware 
of the consequences of such Congressional action. NAFBPO, with more 
than 5,000 years of combined experience in the control of our Borders 
urgently requests that the lands discussed in this written testimony 
not be considered for Federal Wilderness protection, or that all 
restrictions on enforcement by U.S. Customs and Border Protection be 
removed.
            Sincerely,
                                          James S. Switzer,
                                                          Chairman.

                                 ______
                                 
        Statement of the Wilderness Coaltion, Robledos-Las Uvas 
                            Mountain Complex

   THE BROAD CANYON WILDERNESS EXPERIENCE: NATURALNESS, SOLITUDE AND 
    PRIMITIVE RECREATION AMONG THE POOLS, RIMROCKS, AND PETROGLYPHS

    In this section, we hope to provide the reader with a sense of what 
it is like to take a good hike into Broad Canyon. Broad Canyon is 
unique, yet represents much of what is best in many parts of the 
Complex--the opportunity to experience naturalness, beauty, biological 
variety, primitive recreation and solitude.
    Broad Canyon is the major watershed in the Complex, and drains 
about eighty percent of the wilderness into the Rio Grande River. 
Because the water table is within a few feet of the surface year round, 
the canyon supports such thriving trees and shrubs as ash, soapberry, 
and desert willow as well as edible hackberries and barberries. All of 
these species attain larger-than-normal sizes here.
    Broad Canyon is impressive any time of the year, but especially so 
in the summertime. During the summer, heavy rains in the Las Uvas 
Mountains can bring flash floods down the canyon, with the water as 
much as eight feet above the canyon bottom. Over the centuries the 
water has eroded the canyon rocks into spectacular shapes, including 
natural slides and pools in the slick rock. The pools remain for 
several weeks after the heavy rain, each becoming a microcosm of 
teeming aquatic life in which many small animals complete their life 
cycles before the pools dry up. The larger animals--deer, racoon, and 
others--come to these pools to drink. As the sun beats down on the 
drying pools, beautiful ripple patterns appear in the exposed mud. 
Eventually, the mud becomes hard-baked, preserving the ripple patterns 
and the memory of the brief wet spell until the next rain. Now the 
larger animals must move on to other parts of the Complex--the springs 
or the river--to find the water they need.
    The rimrock of Broad Canyon provides ideal nesting sites for birds 
of prey, including hawks, owls, falcons and eagles. Mexican freetail 
bats make their summer homes in the cracks of the canyon walls. Each 
evening, hundreds of these bats may be seen leaving their roosts to 
feed on the desert's insects.
    Those who hike upper Broad Canyon are rewarded by the sight of many 
excellent petroglyphs depicting people, fishes, and mammals. These are 
thought to be Mogollon in origin, although archeologists tell us that 
there may also be some Mimbres petroglyphs here. Even more petroglyphs 
are to be found in Valles Canyon, which drains into Broad Canyon. Most 
of us who visit this area regularly find that we discover a few new 
petroglyphs each time. Yet much of this wilderness area awaits more 
thorough exploration. We anticipate that many petroglyph sites remain 
to be discovered in the Robledos/Las Uvas Mountains.

                                 ______
                                 
Statement of S.D. Schemnitz, Chairman, Southwest Consolidated Sportsmen

    Thank you for organizing your Senate Bill 1649-Wilderness Field 
Hearing attended by 600+ people (primarily supporters of your bill).
    Briefly, I would like to introduce myself and elaborate on my 
background and qualifications as a supporter of the Dona Ana County 
wilderness proposal. My academic training includes B. S. degree in 
wildlife-forestry, University of Michigan 1952, M.S. degree in 
wildlife, University of Florida, 1954, Ph. D., Oklahoma State 
University in wildlife, zoology, 1957. My 50+ years of involvement in 
wildlife management includes employment as a state wildlife biologist 
in Oklahoma, Florida, and Minnesota. My academic employment as a 
wildlife teacher includes employment at Penn State, University of Maine 
and New Mexico State University, with 100+ scientific publications, 
etc. I have visited, hunted, camped, hiked, and fished in federal 
wilderness areas in Maine, Colorado, Oklahoma, Florida, Georgia, North 
Carolina, Wyoming, Montana, and New Mexico.
    I arrived in Las Cruces, New Mexico in 1975 to become the Head of a 
newly formed Department of Fishery and Wildlife Science and retired as 
an Emeritus Professor in 1997. Other related activities included 
serving two terms (maximum allowed) as a member of the BLM RAC 
(Resource Advisory Council). I have served for many years on the New 
Mexico Wildlife Federation. Board of Directors. I have been Chairman, 
Southwest Consolidated Sportmen (SCS), since its beginning, in 1987. 
Other wildlife related groups I have actively been involved with as a 
member include Southwestern New Mexico Chapter Quail Unlimited (QU), 
Dona Ana County Associated Sportsmen, National Wild Turkey Federation, 
Las Cruces Chapter, Ducks Unlimited, The Wildlife Society (Life 
Member), New Mexico Wilderness Alliance, etc. Recently we recognized 
the superb efforts of Dara Parker, your local aide for her 
accomplishments and activities by keeping us informed by attending our 
monthly meetings.
    SCS has been supportive from the beginning to convert Wilderness 
Study Areas (WSA) to permanent BLM wilderness and/or National 
Conservation Areas. I have testified on numerous occasions at various 
meetings and hearings.
    I commend you for asking questions of the panelists to clarify and 
elaborate on their statements. Senator Udall's comments on the 
effectiveness of the Border Patrol's recent successful efforts to 
intercept illegal aliens were appropriate and factual. My personal 
experiences agree. I live three miles north of the small village of 
Dona Ana. In the past numerous aliens would stop to fill their water 
bottles and could be seen hiking northward along the Burlington 
Northern railroad tracks across the road from my house. Now it is a 
rarity to see these people as Border Patrol patrols have increased.
    The buffer zone removed from wilderness designation along Highway 9 
border will be helpful in apprehending illegals. Helicopter 
surveillance, sensors etc. also will help.
    Despite efforts of wilderness supporters to compromise on various 
wilderness issues, the livestock and off highway vehicle interests (the 
minority) continue to adamantly refuse to change their viewpoints.
    I, and many others in the audience remain dubious of Frank Dubois' 
lengthy discourse on the virtues of the livestock industry on public 
federal lands and his total disregard to the economic benefits of 
wilderness. A recent all day free public presentation on wilderness 
economics at the N.M. Farm and Ranch Museum by western speakers 
disputed most of his comments. His talk contained little new 
information (e.g. the same old story-no suitable, feasible substitute 
for federal wilderness, etc.).
    Mr. Tom Cooper, a rancher in the Broad Canyon area, and speaker at 
your hearing is well recognized by BLM personnel for his overgrazed and 
eroded livestock leases. The key to flood control is improved 
watersheds by conversion of shrub dominated landscapes to herbaceous 
grassland (as exemplified by BLM's Restore New Mexico program). Restore 
New Mexico can function in wilderness. Furthermore many upper 
watersheds are in excellent condition and protecting them will 
perpetuate their role in minimizing flood problems.
    SCS members wholeheartedly support statements made by our 
spokesman, Jim Bates, on the urgent need to support SB 1689. Please 
expedite the introduction and passage of your wilderness legislation. 
New Mexico should no longer be the western state with the smallest 
percent of BLM wilderness. We appreciate your efforts on behalf of New 
Mexico wilderness. The quality of life will continue for present and 
future generations.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
